<html>
<title> - U.S. WEATHER AND ENVIRONMENTAL SATELLITES: READY FOR THE 21ST CENTURY?</title>
<body><pre>[Senate Hearing 110-1129]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1129
 
 U.S. WEATHER AND ENVIRONMENTAL SATELLITES: READY FOR THE 21ST CENTURY?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
74-320                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c0b1c032c0f191f180409001c420f030142">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 11, 2007....................................     1
Statement of Senator Cantwell....................................    65
    Prepared statement...........................................    66
Statement of Senator Nelson......................................     1
Statement of Senator Sununu......................................     3

                               Witnesses

Busalacchi, Jr., Ph.D., Antonio J., Chairman, Climate Research 
  Committee; Chairman, Committee on Earth Science and 
  Application: Ensuring the Climate Measurements from NPOES and 
  GOES-R National Research 
  Council and Director, Earth System Science Interdisciplinary 
  Center (ESSIC), University of Maryland.........................    52
    Prepared statement...........................................    54
Freilich, Dr. Michael H., Director, Earth Science Division, 
  Science Mission Directorate, National Aeronautics and Space 
  Administration, Department of Commerce.........................    19
    Prepared statement...........................................    20
Holland, Ph.D., Greg J., Director, Mesoscale and Microscale 
  Meteorology 
  Division, Earth Systems Laboratory National Center for 
  Atmospheric Research...........................................    42
    Prepared statement...........................................    44
Kicza, Mary Ellen, Assistant Administrator for Satellite and 
  Information Services, NOAA, Department of Commerce.............     7
    Prepared statement...........................................     9
Klein, Hon. Ron, U.S. Representative from Florida................     3
    Prepared statement...........................................     5
Powner, David A., Director, Information Technology Management 
  Issues, GAO....................................................    24
    Prepared statement...........................................    25

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    77
Response to written questions submitted by Hon. Bill Nelson to:
    Antonio J. Busalacchi, Jr., Ph.D.............................    89
    David A. Powner..............................................    86
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Antonio J. Busalacchi, Jr., Ph.D.............................    89
    David A. Powner..............................................    87
Response to written questions submitted to Dr. Michael H. 
  Freilich by:
    Hon. Maria Cantwell..........................................    79
    Hon. Kay Bailey Hutchison....................................    81
    Hon. Bill Nelson.............................................    78
    Hon. Olympia J. Snowe........................................    83
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................    77


                     U.S. WEATHER AND ENVIRONMENTAL
                SATELLITES: READY FOR THE 21ST CENTURY?

                              ----------                              


                        WEDNESDAY, JULY 11, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. We're here to discuss an 
issue that has captured the imagination of a lot of Americans, 
particularly at this time of year, as we come into the 
hurricane season. Thus far, we have been mercifully spared. It 
didn't seem that way, because on the very first day of 
hurricane season, a hurricane started brewing that actually got 
close to 75 miles per hour before hitting, fortunately; an 
unpopulated part of the Florida Coast. But a lot of the issues 
that we're going to discuss today have to do with the Nation's 
weather satellites and also the satellites that have to do with 
the delicate measurements of the climate.
    Naturally, we take for granted all our detailed, real-time 
pieces of information about the weather. We take that for 
granted 365 days a year. Since the first weather satellite was 
launched, in 1960, we've planned our daily lives informed by 
weather forecasts derived, in large part, from satellite data. 
Farmers, mariners, pilots, and countless others depend on this 
accurate and timely weather information.
    Naturally, residents, particularly in coastal areas, well 
understand the importance of weather satellite data. Fifty 
percent of the U.S. population now lives within 50 miles of the 
coastline. Hurricane losses averaged $36 billion in each of the 
last 5 years. The cost to the Federal Government on Katrina 
alone has been in excess of $100 billion. By comparison, we 
spend less than a billion dollars each year on weather 
satellites and hurricane research.
    Uninterrupted data from our weather satellites is vital to 
protect the lives, property, and the commerce of our country. 
And yet, these major satellite weather programs are undergoing 
major changes and experiencing some serious problems. We're 
going to dig into those problems today.
    The flagships of our satellite fleet are the GOES 
spacecraft that provide a continuous view of North America from 
fixed positions in geostationary orbits. GOES is approximately 
22,000 miles out, so they stay in a given fixed position over 
the Earth at the same level of the Earth's rotation. The next-
generation of GOES satellites, the R and S, have nearly doubled 
in cost from $6 billion to $11 billion, and a key sensor has 
been dropped in the effort to control the cost. The R satellite 
will now be the first GOES spacecraft in 30 years to fly 
without a dedicated sounder to measure the detailed profiles of 
the temperature and the moisture of the atmosphere. This is 
what we're facing. This Committee wants to know why, and what 
are we going to do about it.
    While the GOES satellites have provided a macro view of our 
hemisphere from stationary points 22,000 miles out, our Polar-
orbiting satellites, the ones that are going around the poles 
as the Earth rotates underneath, they make lower passes, about 
every 6 hours apart, to measure the atmospheric parameters, and 
they do it in a lot more detail. In 1993 the NOAA POES 
program--and that's Polar-orbiting Operational Environmental 
Satellite--was combined with the military satellite to create 
another acronym, NPOESS. And that's the National Polar-orbiting 
Operational Environmental Satellite Series. Its implementation 
has been a disaster. The cost of NPOESS has doubled, while the 
number of satellites has been cut by 50 percent; the number of 
instruments, cut by a third. Many of the canceled instruments 
measure atmospheric properties essential to understanding 
global climate change, and were to continue the long-term 
measurements that had been taken by earlier missions.
    Without these sensors, this new generation, a combination 
of NOAA and NPOESS, will be unable to measure certain 
properties important to hurricane forecasting, including the 
sea-level winds and ocean altitudes.
    The long and short of it is that NOAA has failed to 
capitalize on promising new technologies that have already been 
demonstrated in NASA programs.
    QuikSCAT, a mission to measure sea-level winds, has proven 
quite useful, and it's now 4 or 5 years beyond its design life. 
It wasn't an operational satellite, it was a research 
satellite. While ACE, an acronym for the Advanced Composition 
Explorer, measures solar wind from its location in deep space, 
about a million miles from the sun. ACE provides, when there is 
a solar explosion emitting radiation, about an hour advance 
warning when that explosion occurs. Explosions that may disrupt 
our communications and our power grids, it may expose the 
astronauts in space to getting fried, and airline passengers, 
this is something that very few people know, flying over the 
poles where the magnetic fields of the Earth that protect us 
from that radiation are not present, it gives a 1-hour warning 
in order to respond. That satellite is 10 years old, with no 
replacement in the pipeline. A possible successor, another 
acronym, called DSCOVR, sits unused in a storage hangar at the 
Goddard Space Flight Center without the appropriated monies to 
fund a launch of that completed satellite.
    Earlier this year, the National Academy of Sciences 
released its first Decadal Survey on Earth Science. Our Space 
Subcommittee, and this Committee, have held a hearing to 
determine the report's recommendations. We commended those 
recommendations from the National Academy of Sciences to NASA 
and to NOAA for their analysis. Well, today we expect to hear 
from those agencies on their progress toward incorporating the 
priorities of the survey in their mission plans.
    It's essential that our weather and Earth Science programs 
remain in existence. Since they're considerably off track it's 
important that they receive adequate resources to keep the 
public informed when dangerous weather threatens.
    All right, let me turn to our other colleague on the 
Committee.
    Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    I'm certainly interested in the hearing today, not 
necessarily in as direct and local way as you are. These 
weather satellites are obviously extremely important to 
Florida, and we, in New England, can appreciate that. But, as 
you mentioned in the later portion of your comments, they're 
part of the broader science mission, our country's science 
mission, that collects information and provides data regarding 
the Earth and climate, the oceans, but also provides 
observation and information regarding solar activity and 
observations in deep space. Whether it's NOAA or NASA or the 
National Science Foundation, that broader science mission is 
extremely important, and it's important that we allocate 
resources effectively across all of those areas.
    As you know, in this Committee we've had hearings on the 
broader NASA science mission, and I have been consistently 
concerned by the crowding out of resources, the cost of our 
manned space effort, some of the long-term goals regarding the 
mission to Mars. It's really put a great strain on NASA's 
science budget, and that remains a concern. And I think we need 
to make sure we're allocating resources effectively, whether 
it's for that basic research or the applied science mission of 
these weather satellites.
    They're all important, and I look forward to the testimony 
today from all of our witnesses, who are--I hope, will provide 
expertise as to what is working, what isn't working, and where 
our resources can be best applied to deal with the problems you 
talked about in your opening statement.
    Thank you.
    Senator Nelson. Thank you, Senator.
    We're pleased to be joined by our colleague from the House 
of Representatives, Congressman Klein, who wishes to make a 
statement because of his involvement in this area.
    So, Congressman, welcome, and thank you for coming today.

                 STATEMENT OF HON. RON KLEIN, 
                U.S. REPRESENTATIVE FROM FLORIDA

    Representative Klein. Thank you very much, Senator Nelson.
    I would like to, certainly, thank you, Chairman Inouye and 
Vice Chairman Stevens, for holding this important hearing on an 
issue that is timely--unfortunately so, to be very frank. It's 
timely, because our Nation's weather satellites are critical 
tools that forecasters use during hurricane season, which we're 
in the middle of, to help locate and track hurricanes and other 
deadly storms. And the timing, of course, is also unfortunate, 
because one such satellite, the Quick Scatterometer, otherwise 
known as QuikSCAT, has been at the center of a controversy 
involving the National Hurricane Center and its former director 
Bill Proenza, who was dismissed from his duties a few days ago.
    During many meetings with representatives from the National 
Oceanic and Atmospheric Administration, I've learned that NASA 
originally designed QuikSCAT to provide detailed snapshots of 
the winds swirling above the world's oceans. Launched in 1999, 
as Senator Nelson indicated, it was expected to last 3 to 5 
years. Now in its eighth year of service, the satellite's 
demise is not a matter of ``if,'' but ``when.'' Compounding the 
problem is that there are no plans to launch a replacement 
satellite, and launching this satellite when it does get 
commissioned would take a minimum of 5, and maybe up to 7, 
years.
    As a Member of Congress with over 75 miles of coastline in 
my district in Florida, I, along with others, have felt the 
responsibility to ask NOAA how we got to this point where a 
potentially valuable satellite is on its last legs, and why we 
did not have another one that was as good, if not better, on 
the launching pad, ready to go when QuikSCAT went down. I'm 
very pleased that my good friend Senator Nelson, Chairman 
Inouye, Vice Chairman Stevens, and other members of this 
Committee share that concern and are holding this hearing to 
examine QuikSCAT and the status of our Nation's other weather 
satellites.
    I recently, Mr. Chairman, had the opportunity to visit the 
National Hurricane Center in Miami, where I asked several 
forecasters, independently, the value of QuikSCAT's data when 
it comes to detecting a hurricane. They showed me how the cone 
used to predict the path of a storm may be altered in a 
positive way and a more narrow way when QuikSCAT's data is 
incorporated, making the cone possibly more narrow and making 
the timing of landfall more precise. The loss of this data, 
whether minute or significant, could cause dire consequences to 
residents living in Florida and the over 50 percent of 
Americans who live within 50 miles of a coastline that could 
also be impacted by hurricanes and other major weather storms. 
Longer stretches of coastline and more coastal residents under 
evacuation warnings place considerable strain on the resources 
of coastal communities. The result is not merely academic. Even 
a minute or incremental loss of data can result in the loss of 
thousands of lives and billions of dollars in property damage, 
crippling local communities for decades to come. Having 
experienced the devastating hurricanes of 2004 and 2005, I 
would think our goal would be to alleviate the burden of local 
communities, not increase it. But with proper warning and 
preparation, we stand a better chance of avoiding such future 
catastrophes. And, of course, Mr. Chairman, this should be our 
goal.
    This is not to say that QuikSCAT is the only tool used by 
the National Hurricane Center to locate and track hurricanes, 
or that the Center will be unable to perform its job. It has 
always been my understanding that QuikSCAT is one vital tool, 
among many, used at the National Hurricane Center to keep 
Americans safe. There are other weather satellites, such as the 
one that measures water temperature, which is important when 
gauging storm intensity, along with weather buoys, other types 
of equipment, and ``Hurricane Hunter'' aircraft.
    To me, this is a very simple issue. Hurricane forecasters 
should have all the tools to help keep Americans safe. Any 
steps backward are simply not acceptable. If QuikSCAT provides 
important data for our weather forecasters, then Congress and 
NOAA should ensure that they not lose their ability to collect 
the data.
    I also feel the need to dispel a concern voiced by some 
reports that a replacement satellite for QuikSCAT would come at 
the expense of ``Hurricane Hunter'' aircraft. Although I cannot 
speak for my fellow Members of the Congress, I can say that I 
would certainly oppose, and join others in opposing, any 
efforts to cut funding for the aircraft. Having toured NOAA's 
``Hurricane Hunter'' aircraft in May here in Washington, and 
having met with NOAA and Air Force Reserve officials in the 
past, I learned, firsthand, the critical role in tracking 
storms that they play. Robbing Peter to pay Paul is not the 
case that we are going to follow with making sure the 
``Hurricane Hunter'' aircraft are in place, or that we have an 
improved QuikSCAT satellite, if that's appropriate.
    What should be the focus is finding more ways to keep the 
public safe. Although many of us have differing opinions on the 
role of the Federal Government, I think we can all agree that 
the public safety in the face of natural disasters like 
hurricanes, is a fundamental duty. And, unfortunately, the 
public's confidence has been shaken since Hurricane Andrew.
    So, Mr. Chairman, I thank you for holding this hearing 
today and working with the House and the Senate in the 
overriding goal of making sure that all the tools and the 
environmental satellites that are all of critical importance 
are in place. I look forward to working with this distinguished 
Committee to ensure that Americans have the best and most up-
to-date information to keep them safe during this hurricane 
season and future hurricane seasons.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Representative Klein follows:]

 Prepared Statement of Hon. Ron Klein, U.S. Representative from Florida

    I would like to thank Senator Nelson, Chairman Inouye, and Vice 
Chairman Stevens for holding this hearing today on an issue that is 
timely, unfortunately so, to be frank. It's timely because our Nation's 
weather satellites are critical tools that forecasters use during 
hurricane season to help locate and track hurricanes and other deadly 
storms, and the timing is unfortunate because one such satellite, the 
Quick Scatterometer (QuikSCAT), has been at the center of a controversy 
involving the National Hurricane Center and its former Director, Bill 
Proenza. Mr. Proenza who was dismissed from his duties at the National 
Hurricane Center just 2 days ago.
    NASA originally designed QuikSCAT to provide detailed snapshots of 
the winds swirling above the world's oceans. Launched in 1999, it was 
expected to last three to 5 years. Now in its eighth year of service, 
the satellite's demise is not a matter of if, but when. Compounding the 
problem is that there are no plans to launch a replacement satellite, 
and launching this satellite would take a minimum of 5 years.
    In March, Mr. Proenza alerted Members of Congress and the public 
about the need to replace QuikSCAT in an Associated Press article, 
claiming that both two-day and three-day forecasts would be affected. 
According to a study cited by Mr. Proenza, the two-day forecasts would 
be up to 10 percent less accurate, and three-day forecasts would be up 
to 16 percent less accurate. If valid, such seemingly small 
fluctuations in accuracy have great impact on hurricane forecasts.
    I recently visited the National Hurricane Center, where several 
forecasters independently verified to me the value ofQuikSCAT's data 
when it comes to detecting a hurricane. They showed me how the cone 
used to predict the path of a storm is altered when QuikSCAT's data is 
incorporated, making the cone more narrow and making the timing more 
precise.
    The loss of this data--whether minute or significant--could cause 
dire consequences to residents living in South Florida, and the over 50 
percent of Americans who live within 50 miles of a coastline. Longer 
stretches of coastline and more coastal residents under evacuation 
warnings place considerable strain on the limited resources of coastal 
communities. After the devastating hurricanes of 2004 and 2005, I would 
think our goal should be to alleviate their burden, not increase it.
    This is not to say that QuikSCAT is the only tool used by the 
National Hurricane Center to locate and track hurricanes, or that the 
Center will be unable to perform their job. It has always been my 
understanding that QuikSCATis one vital tool among many used at the 
National Hurricane Center to keep Americans safe. There are other 
weather satellites, such as one that measures water temperature, which 
is important when gauging storm intensity, along with weather buoys and 
hurricane hunter aircraft.
    This last resource has interested me as well. In May, I met with 
Col. Michael Logrande and Lt. Col. Lou Ortiz of the Air Force Reserve 
to discuss the mission and capability of the Hurricane Hunter aircraft. 
They informed me that the Air Force Reserve is installing a new system 
to their aircraft called a Stepped Frequency Microwave Radiometer 
(SFMR). This system will accurately measure sea surface wind speed and 
rainfall rates, thereby providing a more precise forecast of the 
severity and direction of a storm.
    This report was encouraging and the bravery of the Reserve pilots 
flying into the heart of deadly storms impressive. But the fact remains 
that SFMR cannot measure wind direction like QuikSCAT, and only two of 
the ten Hurricane Hunter aircraft operated by the Air Force Reserve are 
equipped with the new equipment.
    After carefully examining QuikSCAT's background and the Hurricane 
Center's other resources, I became concerned that the National Oceanic 
and Atmospheric Association (NOAA), which oversees the National Weather 
Service and the National Hurricane Center, lacked a coherent and 
decisive alternative plan when QuikSCAT inevitably fails. On May 17, I 
sent a letter to Vice Admiral (Ret.) Conrad Lautenbacher, Under 
Secretary of Commerce for Oceans and Atmosphere, asking him to provide 
me with both long and short-term alternative to address the inevitable 
loss of QuikSCAT.
    To me, this is a very simple issue. Hurricane forecasters should 
have all the tools to help them keep Americans safe. Any steps backward 
is simply not acceptable. If QuikSCAT provides important data for our 
weather forecasters, then Congress and NOAA should ensure that they not 
lose their ability to collect the data.
    I also feel the need to dispel a concern voiced by some reports 
that a replacement satellite for QuikSCAT would come at the expense of 
hurricane hunter aircraft. Although I cannot speak for my fellow 
Members of Congress, I can say that I would oppose any efforts to cut 
funding for the aircraft.
    Having toured the aircraft in May and having met with NOAA and Air 
Force Reserve officials in the past, I learned firsthand their critical 
role in tracking storms nearing landfall. Robbing Peter to pay Paul, or 
in this case robbing hurricane hunter aircraft to pay for a new or 
improved QuikSCAT satellite, is unacceptable and should not be an 
option.
    What should be the focus is finding more ways to keep the public 
safe. Although many of us have differing opinions on the role of the 
Federal Government, I think we all can agree that the public's safety 
in the face of natural disasters like hurricanes is a fundamental duty. 
Unfortunately, I think it's also safe to say that the public's 
confidence has been shaken since Hurricane Katrina.
    It should be our goal to win back the public's trust by doing more, 
not less, in the way of storm tracking and prediction. That means 
providing the experts at the National Hurricane Center and the National 
Weather Service will all the tools and resources available and not 
sacrificing one for another. We have made great strides in hurricane 
research over the past twenty years, and it is important that we not 
take any steps backward. This hearing taking place today is an 
important first step in evaluating the status and usefulness of our 
Nation's weather and environmental satellites.
    I applaud Senator Nelson, Chairman Inouye and Vice Chair Stevens 
and this committee for their leadership, and I look forward to working 
with them to ensure that Americans have the best and most up-to-date 
information to keep them safe. Thank you.

    Senator Nelson. Thank you, Congressman. And the testimony 
from our experts will bring out, later on, that, if QuikSCAT 
goes on the blink, there is a European satellite that has some 
ability to help us, although not as extensive; that the 
aircraft--there are two research aircraft in NOAA that have a 
Doppler radar that can gather--that fly into the hurricane, 
that can gather some of this information; and that there is a 
fleet of Air Force aircraft, C-130s, that have a lesser 
technology, called ``smurf'' on it that is being installed no a 
series of these aircraft. And the question is, should the 
Doppler radar be put on those, later on? So, those are some of 
the things that we'll be discussing here today in this 
testimony, and I thank you for coming in.
    And if I may call up the panel, please.
    [Pause.]
    Senator Nelson. We are pleased to have Ms. Mary Ellen 
Kicza, the Assistant Administrator for Satellite and 
Information Services in NOAA; Dr. Michael Freilich, Director of 
the Earth Science Division of the Science Mission Directorate 
of NASA; Mr. David Powner, Director of the Information 
Technology Management Issues of the GAO; Dr. Greg Holland, 
Director of the Mesoscale and Microscale Meteorology Division 
of Earth and Sun Systems Laboratory, in the National Center for 
Atmospheric Research; and Dr. Antonio Busalacchi, Professor and 
Director of the Earth System Science Interdisciplinary Center 
at the University of Maryland.
    Now, if we can't figure it out with all of you high-powered 
folks, I'm not sure we can figure it out. So, let's see if we 
can.
    And we'll go in the order in which I introduced you. And 
your written testimony will be put in as part of the record. 
And I don't want you reading it to the Committee, I want you--I 
mean, we can read it for ourselves. What I want you to do is 
talk to us.
    So, Mrs. Kicza, we'll start with you, as an Assistant 
Administrator of the National Oceanic and Atmospheric 
Administration, NOAA. Welcome.

                 STATEMENT OF MARY ELLEN KICZA,

           ASSISTANT ADMINISTRATOR FOR SATELLITE AND

       INFORMATION SERVICES, NOAA, DEPARMENT OF COMMERCE

    Ms. Kicza. Thank you, Mr. Chairman.
    I appreciate the opportunity to discuss NOAA's 
environmental satellite programs, and to highlight their 
importance to the Nation, its forecasting and warning 
capabilities, and to our climate mission, as well.
    Satellites provide an unparalleled capability to take 
images and precise measurements of many aspects of vast areas 
of land, sea, and air. Their data are essential in our ability 
to provide and understand and predict changes in the Earth's 
environment.
    We currently have two major satellite programs within NOAA: 
the geostationary satellites, known as GOES, and the Polar-
orbiting satellites, known as POES. I'm pleased to inform the 
Committee that NOAA's fleet operational GOES and POES 
satellites are in good health and they're closely monitoring 
the oceans and atmosphere for everyday weather forecasting, 
including any hint of tropical storm activity. As you said, my 
written testimony has been submitted.
    We're currently developing our next generation of 
geostationary and polar satellites. As you had indicated, in 
1994 the Federal Government decided to merge the polar 
satellite programs of the Department of Defense and NOAA into 
one program, with NASA also providing critical technical 
support and risk-reduction activities. This new program, called 
NPOESS, is one of the most complex environmental operational 
satellite systems ever developed. And recently, under the 
Department of Defense Nunn-McCurdy process, the NPOESS program 
was restructured, resulting in two fewer satellites, fewer 
sensors, and less risk to the program. The first NPOESS 
satellite is scheduled for 2013 launch, and the system will 
provide operational coverage through 2026.
    While the main instruments on NPOESS will provide about 50 
percent of the desired climate-related observations and data, a 
number of secondary climate sensors were removed because of 
cost and complexity, and NOAA and NASA are providing Fiscal 
Year 2007 funding to restore one of those sensors to the NPOESS 
risk-reduction satellite, the NPP satellite managed by NASA.
    The White House has asked NASA and NOAA to work together to 
identify what could be done to assure continuity of key climate 
measurements. We provided a preliminary report to OSTP in 
January of 2007, and an update is due this summer. We've also 
asked the National Academy of Sciences, which provided us the 
recent Decadal Survey, to provide input as we develop the path 
forward.
    We are also in the early stages of the acquisition process 
for a significantly advanced capability in the next generation 
of GOES satellite, called GOES-R. We're applying the lessons 
learned from the NPOESS program, as well as the lessons learned 
from other satellite programs, and, as a result, have made 
significant changes in this program, both in terms of program 
management and oversight, including the budgeting of more money 
for the program. GOES-R is scheduled for a late 2014 launch and 
will provide operational coverage through 2026.
    I do want to talk about the QuikSCAT satellite, but I also 
want to explain the system that NOAA uses to monitor 
hurricanes.
    Over the open oceans, continual images from our GOES 
satellites are the first reliable indicators of any storms or 
inclement weather. GOES provides near-real-time critical data 
to help our forecasters determine a storm's location, its size, 
its intensity, and its movement. These satellites are so 
important that we always keep a spare in orbit, and, as 
tropical systems come closer to land, information from NOAA and 
DOD aircraft and ocean buoys provide real-time direct 
measurements of that storm. Within 200 miles of the coast, 
ground-based radars are used to track the storm, and computer 
models are used to predict storm track and intensity. These 
require extensive amounts of data, and these are mostly 
provided by NOAA and NASA and DOD polar satellites. Together, 
these systems provide the forecasters with layers of 
information that are critical to help them make their forecast.
    QuikSCAT is a NASA satellite. It's a research satellite 
that's demonstrated the ability to measure ocean wind speed and 
direction from space. And, according to forecasters at the 
National Hurricane Center, QuikSCAT has become an important 
tool, especially for estimating the intensity and size of 
tropical storms and other strong marine storms.
    In most cases, however, QuikSCAT has little or no 
demonstrated impact on hurricane intensity forecasts, because 
it usually cannot distinguish winds above 75 miles per hour in 
a hurricane, due to the effects of heavy rains.
    Track forecasts for U.S. landfalling hurricanes will not be 
significantly degraded if QuikSCAT were to fail. The hurricane 
forecasters, instead, rely heavily on the real-time data 
provided by the reconnaissance aircraft which measures the air 
column and other characteristics of the storm that are critical 
to forecast--track forecasts. Any degradation would be most 
noticeable for open ocean storms, when aircraft data are not 
available.
    Although QuikSCAT is past its design life, as you know, 
NASA has indicated that QuikSCAT currently appears healthy and 
has fuel to last until 2011. If QuikSCAT were to fail today, 
the National Hurricane Center would still receive ocean wind 
speed and direction from space. We're now receiving data from a 
new instrument aboard a European satellite. This is call the 
ASCAT instrument. It has similar technology to QuikSCAT.
    We acknowledge that ASCAT will not provide the same quality 
of data as QuikSCAT, especially in terms of coverage and 
resolution; however, we are going to----
    Senator Nelson. We need you to wrap up.
    Ms. Kicza. OK.
    Senator Nelson. I should have said, at the outset, I'm 
going to give each of you 5 minutes. We've got----
    Ms. Kicza. Sure.
    Senator Nelson.--a big panel. So, instead of repeating a 
lot of what's been said, just say what you want to say within 
the 5 minutes----
    Ms. Kicza. OK.
    Senator Nelson.--and then we'll get into extensive 
questions.
    Ms. Kicza. OK. What I'd like to close with is, we've 
recently held a workshop at the National Hurricane Center. Our 
hurricane forecasters have indicated the value of QuikSCAT, and 
have also indicated where we need to improve QuikSCAT in a 
replacement satellite, and we're working very closely with the 
forecast center and with NASA to examine ways to do that.
    I thank you for the time.
    [The prepared statement of Ms. Kicza follows:]

   Prepared Statement of Mary Ellen Kicza, Assistant Administrator, 
 Satellite and Information Services, National Environmental Satellite, 
    Data, and Information Service, NOAA, U.S. Department of Commerce
Introduction
    Mr. Chairman and members of the Committee, I am Mary Kicza, 
Assistant Administrator for Satellite and Information Services in the 
National Environmental Satellite, Data, and Information Service 
(NESDIS). NESDIS is a line office of the National Oceanic and 
Atmospheric Administration, within the Department of Commerce (DOC).
    NOAA's work touches the daily lives of every person in the United 
States and in much of the world. From hurricane forecasts to fisheries 
management, from remote sensing to climate research and ocean 
exploration, NOAA's products and services contribute to the foundation 
of a healthy economy. I appreciate the opportunity to discuss with you 
today NOAA's environmental satellite programs and to highlight their 
importance to our hurricane and other severe weather forecasting and 
warning capabilities.
    Satellites provide an unparalleled capability to take images and 
precise measurements of many aspects of vast areas of the land, sea, 
and air in very rapid succession. Data obtained from these observing 
systems are essential to our ability to understand and predict changes 
in the Earth's environment. These data are key enablers for NOAA in 
meeting its public safety, economic, and environmental mission 
requirements.
    Although their payoff is great, satellites are also an inherently 
risky endeavor. Not only is there the ``rocket science'' involved, but 
the instruments carried on these satellites must be sensitive enough to 
measure very small differences in the characteristics of the oceans, 
land, and atmosphere while being able to withstand the extreme 
vibrations of a launch and the extreme heating and cooling of the space 
environment.
    NOAA currently operates and manages two major satellite programs: 
the Geostationary Operational Environmental Satellites (GOES) and the 
Polar-orbiting Operational Environmental Satellites (POES).
What Are GOES Satellites?
    NOAA has operated geostationary satellites since the 1970s. These 
satellites, orbiting 22,240 miles above the equator, mirroring the 
Earth's rotation, provide constant images and data on atmospheric, 
oceanic, land, and climatic conditions over the Western Hemisphere with 
major focus on the continental United States, Hawaii, the western 
Atlantic Ocean and the eastern Pacific Ocean. These satellites provide 
the hurricane and other severe storm moving displays, called ``loops,'' 
that you see on television and are best known for the images used in 
television weather forecasts. More importantly, GOES satellites often 
provide the first images and information indicating severe weather is 
imminent to the forecasters so they can provide the early warnings--
think of GOES satellites as sentinels in the sky.
    NOAA operates two geostationary satellites, one over the East Coast 
and the other over the West Coast. Given the absolutely critical role 
these satellites play in our Nation's ability to forecast weather, 
especially severe weather, we maintain a spare satellite on-orbit that 
can quickly be activated should a primary satellite fail. We also have 
a fourth GOES satellite, near the end of its mission life, which is 
being used by South American nations for weather forecasting and could 
be used in an emergency. The final two GOES satellites in the current 
GOES-N series have been built and are scheduled for launch in 2008 and 
2009; each of these satellites has an expected lifetime of 5 years.
    The GOES satellites have unique environmental sensors--an imager 
and a sounder--that provide a wide range of capabilities related to 
weather, water, and climate observations that include tsunami, wildland 
fire, volcanic ash detection, and storms. The satellites also have a 
data relay function that is used for stream and reservoir monitoring. A 
search and rescue instrument supports mariners and aviators in trouble. 
Two of the GOES satellites have an additional sensor onboard that 
gathers information on space weather.
    The GOES satellites provide forecasters frequent images of clouds 
circulation, and monitor the Earth's surface temperature and water 
vapor fields. In addition, these satellites measure the vertical 
thermal and moisture structures of the atmosphere. When combined, this 
information allows forecasters to better understand and monitor the 
evolution of atmospheric phenomena and ensure real-time coverage of 
dynamic events that directly affect public safety, protection of 
property, and ultimately, economic health and development.
    In addition, GOES satellites also transmit emergency communications 
for NOAA's National Weather Service to the Emergency Managers Weather 
Information Network. This network provides emergency management 
communities, including the Department of Homeland Security, and the 
Federal Emergency Management Agency, with warnings, watches, and 
forecasts issued by NOAA's National Weather Service (NWS).
The Geostationary Operational Environmental Satellite (GOES-R)
    We are in the early stages of the acquisition process for the next 
generation of GOES satellites, called GOES-R. Given the long lead time 
needed for satellite development and launch, acquisition work has 
already begun to ensure continuity of satellite coverage into the 
future.
    All GOES-R instruments are either on contract or in source 
selection. The main sensor on GOES-R, the Advanced Baseline Imager 
(ABI), will fulfill NOAA's critical mission requirements. This sensor 
will offer significant advancements over the current GOES imagers by 
providing images five times faster and will have the ability to zoom in 
to view hurricanes and specific severe weather events, while at the 
same time continuing to monitor the rest of the United States. We 
currently do not have this flexibility in our zoom capability and must 
constantly make decisions about what to focus on, which affects our 
ability to forecast weather in multiple regions. The space weather 
instruments will provide enhanced data on solar flares and the space 
radiation environment that NOAA's Space Environment Center uses to 
issue space weather warnings critical to all satellites, power grids, 
GPS users, commercial aviation, and astronauts. The Geostationary 
Lightning Mapper is a brand new instrument, never before flown in 
geostationary orbit, that will help us better detect cloud-to-cloud 
lightning, and early precursor to a potentially dangerous weather 
event, and improve our capabilities to forecast and track severe 
weather over broad areas. Present operational lightning sensors are 
ground-based and provide only localized coverage of cloud-to-ground 
strikes.
    NOAA is applying lessons learned from our other major next-
generation satellite program, the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS), and other recent independent 
reviews and audits of national security and civil space system 
acquisitions. We are implementing these lessons into our management and 
acquisition strategy. We have made significant changes to our GOES-R 
program management and oversight based on the direction and reviews 
from the Government Accountability Office (GAO), the DOC Inspector 
General, the recent NPOESS Nunn-McCurdy certification process, external 
independent review teams and our own internal reviews.
    We decided to remove one of the originally planned sensors for the 
GOES-R program, the Hyperspectral Environmental Suite (HES), due to a 
combination of development challenges, magnitude of required spacecraft 
accommodations, and ground product implications that presented too much 
risk to meet the operational requirements of the GOES-R program. This 
included cost growth and unacceptable delays in the launch date. We 
also determined that the ABI instrument can provide derived sounding 
products that will meet mission continuity requirements. The ABI has 
many of the same spectral bands and exceeds the spatial coverage rate 
and spatial resolution of the current sounders.
    Historically, NOAA funds and manages the program and determines the 
need for satellite replacement, while the National Aeronautics and 
Space Administration (NASA) provides launch support and helps design, 
engineer, and procure the satellites and some ground system elements. 
After a satellite is launched and checked out by NASA, it is turned 
over to NOAA for its operation. For GOES-R, we had planned to 
significantly alter our management strategy from that used for previous 
GOES acquisitions. NOAA was going to manage the overall acquisition 
program, using technical support from NASA. Following the 
recommendations of our Independent Review Team, we decided NASA will 
manage the sensor and the instrument and space segment acquisitions, 
and NOAA will manage the ground system acquisition and integration 
activities while managing the overall program. GOES-R is scheduled for 
a late 2014 launch. The current life-cycle estimate for the program is 
roughly $7 billion for two satellites that will provide operational 
coverage through 2026.
GOES-R--Next Steps
    The GOES-R program is being acquired in a phased approach. In April 
2007 the second phase was completed, which involved multiple contracts 
with industry. In this second phase, the Program Definition and Risk 
Reduction Phase, three prime contractor teams were tasked with 
developing the definition of system concepts and the identification and 
mitigation of program risks. Additionally, technical, cost, schedule, 
and other information were generated. The final phase in the GOES-R 
acquisition process is the Acquisition and Operations (A&O) phase. 
During this phase the satellite and ground designs will be completed 
and the development, integration, testing, and deployment of the space 
and ground elements of the system will occur.
What Are POES Satellites?
    NOAA's Polar-orbiting Operational Environmental Satellites (POES) 
consist of a pair of satellites that orbit over the poles at an 
altitude of 540 miles approximately 14 times per day, repeating this 
same pattern every 24 hours and providing near-global coverage every 12 
hours. The POES system provides global imagery and atmospheric 
measurements of temperature, humidity, and stratospheric ozone. POES 
data are used around the world for weather monitoring and prediction, 
and are the foundation for global weather models needed for 3-7 day, 
and longer, weather forecasts.
    The launch of NOAA-N (currently operated as NOAA-18) inaugurated a 
new era of international cooperation and introduced a new model for 
polar-orbiting environmental satellite systems. Today, the three 
satellite constellation consists of a Defense Meteorological Satellite 
Program satellite in the early morning orbit, the European Organisation 
for the Exploitation of Meteorological Satellites (EUMETSAT) MetOp-A 
satellite in the mid-morning orbit and the NOAA-18 in the afternoon 
orbit. Both the NOAA and EUMETSAT satellites carry instruments that 
collect and provide global data on cloud cover; surface conditions such 
as ice, snow, and vegetation; atmospheric temperatures, moisture, 
aerosol, and ozone distributions; and collect and relay information 
from fixed and moving data platforms. As part of the EUMETSAT-NOAA 
partnership, NOAA provided several key sensors that are being flown on 
the MetOp series satellites.
    NOAA currently has one additional POES to launch (NOAA-N Prime), 
which is expected to provide continuity in the afternoon orbit until 
NPOESS is launched. NOAA also has three additional POES on-orbit that 
no longer meet mission specifications due to orbital drift and 
instrument degradation or failures, but they can provide limited 
capability and additional observations when available. Most notably 
these degraded satellites are used to increase coverage and reduce the 
amount of time it takes to receive and relay search and rescue alerts 
and animal tracking data. Their direct broadcast signals are also used 
by other governments to detect and track wildfires and other 
environmental events.
The National Polar-orbiting Operational Environmental Satellite System 
        (NPOESS)
    Since the early 1960s, the United States had maintained two 
distinct polar satellite programs, one for military use and one for 
civilian use. While data from both programs were exchanged, each 
program operated independently. In 1994, after a thorough review and 
serious consideration, President Clinton directed the merger of the 
military and civilian operational polar-orbiting satellite programs. 
This new program, NPOESS, is responsible for developing the next 
generation of polar-orbiting satellites and sensors.
    NPOESS is a unique program in the Federal Government. It is jointly 
managed by the DOC, the Department of Defense (DOD), and NASA with 
direct funding provided by DOC and DOD. At the senior level, the 
program is overseen by an Executive Committee (EXCOM), which includes 
VADM Conrad Lautenbacher, Administrator of NOAA, Dr. Michael Griffin, 
Administrator of NASA, and Dr. Ron Sega, Under Secretary of the Air 
Force. The EXCOM recently assigned a Program Executive Officer to 
provide more frequent senior oversight of the program and reports back 
to the EXCOM. The NPOESS program is managed, on a day-to-day basis, by 
an Integrated Program Office (with staff from all three agencies). 
NPOESS is being acquired using DOD acquisition authorities. In 2002, 
Northrop Grumman was selected as the NPOESS prime contractor for 
spacecraft development, ground systems, sensor integration, and 
operations.
    NPOESS is one of the most complex operational environmental 
satellite system ever developed. The NPOESS program was designed as a 
series of six satellites with new environmental sensors that represent 
significant advances over current operational satellite technology. The 
new NPOESS sensors will provide higher quality data, increase our 
ability to see through clouds, and transmit the information back much 
faster than with our current polar-orbiting satellites. These 
improvements will translate into more sophisticated weather models, 
which will lead to better forecasts and warnings. NPOESS also will 
enhance the data and products used for climate and ocean research and 
operations as well as monitoring space weather. The first NPOESS 
satellite will be launched in 2013, with an expected lifetime of 7 
years.
    The NPOESS Preparatory Project (NPP) is a risk reduction mission 
directed by NASA. NPP provides risk reduction for the NPOESS system by 
demonstrating several new NPOESS sensors in space, ensuring the ground 
control systems work properly, and allowing us time to assimilate the 
new data into computer weather models before launch of the first 
operational NPOESS satellite. The NPP mission will also collect and 
distribute remotely-sensed land, ocean, and atmospheric data to the 
meteorological and global climate communities as the responsibility for 
these measurements transitions from NASA's existing Earth-observing 
missions (e.g., Aqua, Terra and Aura) to the NPOESS. NPP will provide 
atmospheric and sea surface temperatures, vertical profiles of 
moisture, land and ocean biological productivity, and cloud and aerosol 
properties.
    The NPOESS program has presented numerous technical and management 
challenges. In March 2005, the contractor informed the government 
NPOESS would not meet cost and schedule, mostly because of the 
technical challenges with the main sensor, the Visible Infrared Imager 
Radiometer Suite (VIIRS). In November 2005, it was determined the 
projected cost overruns for the program would exceed the 25 percent 
threshold triggering a breach of the Nunn-McCurdy statute. This 
required a full six-month review of the program by the DOD, with the 
participation of NOAA and NASA as full partners in the certification 
process.
    In June 2006, the Nunn-McCurdy certification was delivered to 
Congress. The resulting restructure of the NPOESS program has two fewer 
satellites, fewer sensors, and less risk. Because of our partnership 
with EUMETSAT, we are able to utilize the MetOp series satellites in 
the mid-morning orbit to fulfill U.S. data requirements. The total cost 
of the program increases, but so did our confidence in a timely 
delivery of core weather forecasting capabilities. NPP is now scheduled 
to launch in 2009, and the first NPOESS satellite in 2013, at a total 
life-cycle program cost of $12.5 billion (FY 1995-2026).
NPOESS and Climate Change Measurements
    While the main instruments on NPOESS will provide more than 50 
percent of the desired climate-related observations and data, a number 
of secondary sensors were removed during the review process that would 
provide some key climate parameters such as Earth radiation budget, 
solar irradiance, sea surface topography, and aerosol optical 
properties.
    NOAA and NASA have already committed to provide FY 2007 funding to 
restore one of the sensors, the Ozone Mapping and Profiler Suite (OMPS) 
Limb (OMPS-Limb), to the NPP satellite. By remanifesting OMPS-Limb to 
OMPS-Nadir, we were able to obtain total and vertically resolved 
stratospheric ozone measurements necessary to better monitor the 
Antarctic Ozone phenomenon and other events. At the initiative of the 
Office of Science and Technology Policy (OSTP), NASA and NOAA are 
continuing to work together to identify what may be done to assure 
continuity of key climate measurements. NOAA and NASA provided OSTP 
with a preliminary report in January 2007 and an update to the report 
will be issued later this summer. We are also asking the National 
Academy of Sciences, which provided us with the recent Decadal Survey 
for Earth Observations, for recommendations on a path forward. The 
National Academy hosted a workshop June 19-21 to seek input from the 
scientific community on the changes to the NPOESS and GOES-R programs. 
OSTP will work with the agencies and the Office of Management and 
Budget on a plan of action to best address the National Academies' 
recommendations.
    Another of the sensors demanifested from NPOESS was the Conical 
Microwave Imager Sounder (CMIS). CMIS was planned to provide 
observations of ocean wind speed and direction along with more than 10 
other environmental parameters. The project had too many technical 
challenges and risks and was canceled. However, a smaller and less 
complex replacement sensor will be procured and integrated onto the 
second satellite to be launched in 2016.
Program Oversight
    Following the recommendations of Independent Review Teams, the GAO, 
and the Inspector General from DOC, the recent Nunn-McCurdy 
certification process, external independent review teams, and our own 
internal reviews, we have made significant management and oversight 
changes in the program. In addition to personnel changes in both 
government and contractor management, we made changes to the way the 
program is monitored. We have put into place much more rigorous 
requirements to measure earned value data, key milestones, dollars 
spent, and contractor personnel. We are now tracking these metrics on a 
regular basis, which provides real-time health and status of the 
program.
NPOESS Status Update
    The significant management changes and the reduced risk profile 
resulting from the Nunn-McCurdy certification and subsequent 
restructure have had major positive affects on the program. The program 
is meeting the interim budget and schedule. We are in the final stages 
of renegotiating the contract, which should be complete this summer.
    We are performing acceptance tests on flight hardware. In this 
phase of development, we ``test, break, fix'' the hardware on the 
ground to be sure it will function on-orbit. This practice is the main 
reason that our satellites have historically performed for extended 
periods on-orbit. Each of the instruments is in a different phase of 
acceptance testing.
    There are still challenges and risks associated with the main 
instrument, VIIRS. Corrective actions for all identified VIIRS 
instrument problems are underway. One major technical issue remains and 
we are pursing several potential solutions. This key instrument will 
continue to be the focus of intense management attention for the 
foreseeable future.
    We have issued a request for information for a Microwave Imager/
Sounder (MIS), a less complex sensor than the original CMIS. The MIS is 
still intended to provide data for a variety of products including 
estimates of ocean surface wind speed and direction. The MIS is 
scheduled to first fly on the second NPOESS spacecraft and then on all 
subsequent missions. A final acquisition strategy decision is 
anticipated by September 2007, and the contract award is anticipated in 
the winter of 2008.
    Our number one priority throughout the Nunn-McCurdy analysis of the 
NPOESS program has been to ensure there is continuity of our existing 
data and in our ability to do weather forecasting between the old and 
new systems. To minimize any potential gaps in coverage, we are 
rescheduling launches of the remaining NOAA and DOD satellites. We do 
not believe there will be a gap in data used for weather forecasting 
under this plan. However, should the remaining NOAA POES satellite fail 
on launch or in orbit, we would have to rely solely on DOD, European, 
and NASA satellites. There would be some degradation to NOAA's weather 
forecasting ability until NPP or the next NPOESS satellite could be 
launched.
NOAA's Hurricane Forecasting
    The National Hurricane Center (NHC), a key component of the NWS and 
NOAA, has been the centerpiece of our Nation's hurricane forecast and 
warning program for over 50 years. The NHC, working closely with local 
NWS Weather Forecast Offices (WFOs) in areas affected by hurricanes and 
other tropical systems, saves lives, mitigates property loss, and 
improves economic efficiency by issuing the best watches, warnings, and 
forecasts of hazardous tropical weather, and by increasing the public's 
understanding of these hazards.
    NOAA's forecasts and warnings for the 2005 hurricane season 
demonstrated the abilities of the state-of-the-art of hurricane 
prediction. Our continuous research efforts at NOAA, and in partnership 
with universities and other Federal agencies, have led to our current 
predictive capabilities and improved ways of describing uncertainty in 
prediction. The impacts of hurricane winds, storm surge and inland 
flooding remain major threats to the Nation. Accurate and timely 
hurricane forecasts provide emergency managers and the public 
information needed to prepare for an approaching storm, including 
considering evacuations, if necessary.
    NOAA strives to improve the reliability, accuracy, and timeliness 
of our predictions of hazardous weather, such as hurricanes, to help 
society cope with these high impact events. Over the last 15 years, 
hurricane track forecast errors have decreased by 50 percent, largely 
due to advances in hurricane modeling, an increased understanding of 
hurricane dynamics, improvements in computing and technology, and 
increased observations from the region around the hurricane. Today's 
five-day forecasts of a hurricane track are as accurate as three-day 
predictions were 20 years ago. Hurricane predictions are better today 
than they have ever been and will continue to improve in the future.
    To help guide future research efforts and improvements, NOAA 
requested that the NOAA Science Advisory Board commission a Hurricane 
Intensity Research Working Group to provide recommendations to the 
agency on the direction of hurricane intensity research. The Working 
Group transmitted its final report to the Advisory Board in October 
2006 (http://www.sab.noaa.gov/reports/reports.html). The Federal 
Coordinator for Meteorological Services and Supporting Research 
released a report in February 2007, Interagency Strategic Research Plan 
for Tropical Cyclones: The Way Ahead, to provide a strategy for 
continuing to improve the effectiveness of operational forecasts and 
warnings through strategic coordination and increased collaboration 
among the major players in the operational and R&D communities (http://
www.ofcm.gov/p36-isrtc/fcmp36.htm). Both of these reports call for 
accelerated research investments and a deliberate focus on moving 
research results to operations. In response, NOAA has created a 
Hurricane Project Team to develop a unified approach to define and 
accelerate hurricane forecast improvements over the next 10 years. 
Objectives will be focused on improved tropical cyclone forecasting 
(intensity, track, precipitation, and uncertainty forecasts), storm 
surge forecasts, flooding forecasts, and information and tools to 
support community and emergency planning.
NOAA Hurricane Observations
    NOAA uses several systems to monitor hurricanes. Over the open 
oceans, images from the GOES system are the first reliable indicators 
of any storms or inclement weather. As hurricanes or other tropical 
systems come closer to land, measurements from reconnaissance and 
surveillance aircraft provide direct measurements of the storm, as do 
strategically placed ``hurricane'' buoys. Within 200 miles of the 
coast, radars are used to track the storm. Computer models used to 
predict storm track and intensity require extensive amounts of data 
about the state of the atmosphere, including wind direction and speed, 
temperature, moisture, and air pressure. Over the open ocean, most of 
these data are derived from satellite ``sensing'' of the atmosphere. 
Ships and other mid-ocean buoys provide some data, but satellites are 
truly the ``eye in the sky.'' All of these data sources are part of an 
integrated observing system.
Satellites
    Forecasters at the Tropical Prediction Center/National Hurricane 
Center (TPC/NHC) use images and other data provided by the GOES system 
to analyze the storm and its surrounding environment and help to 
determine the location, size, intensity, and movement of the storm. 
These images are also prominently shown by the media. The satellites 
also provide data about every 8 minutes during a hurricane event. 
Instrumentation on the satellites (both GOES and POES) measure emitted 
and reflected radiation from which atmospheric temperature, winds, 
moisture, and cloud cover are derived. Satellites provide:

  <bullet> Day (visible)/night (infrared) cloud images.

  <bullet> Land surface temperatures.

  <bullet> Sea surface temperatures.

  <bullet> Cloud motion winds at several levels.

  <bullet> Rainfall estimates.

  <bullet> Cloud top heights.

Ships and Buoys
    Ships and buoys, including drifting buoys, provide information 
about wind speed and direction, pressure, air and sea temperature, and 
wave conditions within a tropical cyclone. Ships and buoys are the only 
routine source of wave height and frequency in areas unobstructed by 
land and are often the only way to take direct measurements near the 
storm when a tropical cyclone is still at sea. Understandably, ships 
try to avoid tropical systems and we have only sparse ocean buoys to 
provide a level of ``ground truthing'' for indirect measurements (such 
as satellite and radar) in the marine environment.
Aircraft
    The most direct method of measuring the wind speed and direction, 
air pressure, temperature, location of the eye and other parameters in 
a hurricane is to send reconnaissance aircraft (hurricane hunters) into 
the storm. Those measurements are limited given the large size of a 
hurricane and the time the aircraft can remain in flight. Though we 
only have a snapshot of small parts of the hurricane, that information 
is critical in analyzing the current characteristics needed to forecast 
the future behavior of the storm. TPC/NHC forecasters rely heavily on 
data from reconnaissance and surveillance aircraft.
    The U.S. Air Force Reserve uses specially equipped WC-130J aircraft 
to conduct these reconnaissance flights. NOAA also flies its two WP-3D 
Orion (P-3) aircraft.
    When forecasters identify a developing tropical cyclone, WC-130J 
aircraft fly their first missions to determine if the winds near the 
ocean surface are blowing in a complete, counterclockwise circle, then 
to find the center of this closed circulation. As the storm builds in 
strength, they fly various patterns to obtain as complete a picture as 
possible of the extent and strength of the winds and other parameters. 
The 2005 hurricane supplemental budget provided funding to instrument 
the fleet of WC-130J aircraft with Stepped-Frequency Microwave 
Radiometers (SFMRs), which will provide additional details on a 
hurricane's wind fields.
    NOAA WP-3D Aircraft also fly into hurricanes with a wide variety of 
scientific systems onboard the aircraft providing data and information 
to forecasters, scientists, and modelers. Of particular interest are 
the two radars which provide a full 360+ depiction of weather and 
three-dimensional horizontal wind vectors around the aircraft out to a 
distance of 180 nautical miles. Data from these radars, along with 
meteorological and position data from onboard sensors, are transmitted 
to the NHC in real-time via high-speed satellite communications. The 
WP-3D aircraft also serves as a test bed for emerging technologies such 
as the SFMR (which now reside on both WP-3D aircraft), the Imaging Wind 
and Rain Airborne Profiler, and the Scanning Radar Altimeter.
    Given the current limitations in satellite observations, the only 
inner-core wind data routinely available--derived from the SFMR 
(surface winds), airborne tail Doppler radar (three dimensional 
structure), and GPS dropwindsonde (point vertical profile)--are 
collected by aircraft reconnaissance (NOAA WP-3D and U.S. Air Force WC-
130J). The combination of SFMR, airborne tail Doppler radar, and GPS 
dropwindsonde (see below) is essential for real-time interpretation of 
rapidly changing events, especially near landfall. The SFMR capability 
is especially critical to the forecasters.
    In addition to the reconnaissance missions, NOAA also has a state-
of-the-art Gulfstream-IV (G-4) high altitude jet aircraft, which flies 
missions around the storm, known as surveillance missions. NOAA's 
Gulfstream IV jet, which began operational hurricane surveillance 
missions in 1997, is used to sample the physical nature of the 
atmosphere from high altitude down to the surface in the region 
surrounding hurricanes. These data better define the environmental 
steering flow for potential landfalling storms and help improve track 
forecasts. The data are transmitted in real time to NOAA's National 
Centers for Environmental Prediction, where they are assimilated into 
the Global Data Assimilation System.

Dropwinsondes and Radiosondes
    A radiosonde is a small instrument package and radio transmitter 
that is attached to a large balloon. As the balloon rises through the 
atmosphere, the radiosonde instrument provides data on air temperature, 
humidity, pressure and wind speed and direction. These data are relayed 
back to computers for use in forecast models. Radiosondes are generally 
only released over land, which leaves a large gap over the oceans. 
That's where dropwinsondes, a variation on the radiosonde, are used. 
Instead of being carried aloft by a balloon, the dropwinsondes, which 
are attached to a small parachute, are dropped into and around the 
hurricane from the reconnaissance and surveillance aircraft. The data 
from radiosondes and dropwinsondes provide an important vertical 
profile of the hurricane's environment, which is critical for forecast 
models. These data have helped forecasters make great strides in 
understanding and predicting hurricane behavior.

Expendable Bathythermographs
    Expendable bathythermographs are instruments dropped into the water 
and measure water temperature and other parameters to a depth of 200 
feet. These instruments provide us with an idea of the energy content 
of the water which fuels hurricanes.

Surface Observations
    There are more than 950 Automated Surface Observation Systems 
(ASOS) across the country. These monitoring systems provide forecasters 
with surface weather observations, wind speed and direction, 
temperature, dewpoint (moisture), cloud cover, and conventional weather 
(e.g., rain, fog, snow) around the clock. However, because the systems 
are land-based, ASOS data is mainly useful once the hurricane has come 
close to shore or after it has made landfall. This information is 
invaluable in post-analysis.

Radar
    When a hurricane nears the coast, typically within 200 miles, it is 
monitored by land-based Doppler weather radars. These radars provide 
detailed information on hurricane wind fields, rain intensity, and 
storm movement. As a result, local NWS offices are able to provide 
short-term warnings for floods, tornadoes, and high winds for specific 
areas. In radar images, the forecaster can pick out details about storm 
features, such as the location of the eye, storm motion, and intensity. 
The radial wind velocity product gives forecasters important 
information about wind speed and direction that was not available with 
the older style radars. These tools allow forecasters to provide much 
more timely and accurate warnings than were possible only a few years 
ago. A limitation of these radars is they cannot ``see'' farther than 
about 200 miles from the coast, and hurricane watches and warnings must 
be issued long before the storm comes into range.
    All of these data are assimilated into NCEP's data stream and 
incorporated into computer model forecasts to provide the fundamental 
understanding of the developing tropical cyclonic atmosphere and ocean 
environment, the tropical inner and outer core, and the interaction 
among these components. But that is just part of the value. This 
information is used directly by hurricane forecasters who make the 
predictions of the hurricane track and intensity and the decisions for 
any watches and warnings.

Hurricane Forecasting and Satellites
    As I stated earlier, satellites, particularly GOES, provide the 
first indications of a tropical system. They are absolutely critical in 
our prediction mission. Data from GOES help our forecasters analyze the 
storms and its surrounding environment, and help determine its 
location, size, intensity, and movement. POES, with the advanced 
microwave-sounding unit and the advanced very high resolution 
radiometer, provide precipitation estimates, qualitative estimates of 
storm intensity trends, sea surface temperatures, storm center 
position, convective structure and atmospheric temperature/humidity 
profiles. POES are not always over the storm since these satellites 
orbit the globe. This is in contrast to GOES, which are stationary 
relative to the Earth's surface. Data from these satellites play an 
important role in NOAA's hurricane computer models, which are the 
backbone of our predictive capability.
    In addition, NOAA uses data and observations gathered from several 
other low Earth orbiting satellites. These include:

  <bullet> The Defense Meteorological Satellite Program, using the 
        special sensor microwave/imagery suite of instruments, provides 
        information on ocean surface wind speed, precipitation, sea 
        surface temperatures, center position and convective structure.

  <bullet> NASA's Tropical Rainfall Mapping Mission (TRMM) satellites, 
        using the TRMM microwave imager, provide precipitation/rain 
        rate, center position, convective structure, and sea surface 
        temperatures.

  <bullet> The NASA AQUA satellite mission using the moderate 
        resolution imaging spectroradiometer, the advanced microwave 
        scanning radiometer and the atmospheric infrared sounder to 
        provide precipitable water, water vapor, sea surface 
        temperatures, center position, convective structure and 
        atmospheric temperature/humidity profiles.

  <bullet> NASA's Research Satellite, Jason --using an altimeter sensor 
        to provide the surface height of the oceans, a proxy for the 
        amount of heat potentially available to help fuel a hurricane.

  <bullet> European MetOp satellite sensor, ASCAT, using an active 
        scatterometer to provide wind speed and direction, but at a low 
        spatial resolution. Currently not incorporated into NOAA 
        forecast models, but accessible to forecasters.

  <bullet> NASA's QuikSCAT, using the SeaWinds scatterometer, provides 
        wind speed, wind direction, center location and wind radii.

What is QuikSCAT?
    Recently, concerns have been expressed about one of these satellite 
tools--QuikSCAT. QuikSCAT is a NASA satellite that launched in 1999 to 
research the ability to measure ocean wind speed and direction. Wind 
speed and direction are valuable pieces of information to hurricane 
forecasters. While data was available some months after launch, it has 
been a long, ongoing process to discover how to use the data optimally. 
The data allow for more reliable estimation of maximum intensity, 
especially for tropical storms, but not for major hurricanes, due to 
the wind speeds encountered there. QuikSCAT provides improved detection 
and tracking of circulation centers, and improved analysis of storm 
size and structure, which do affect watches and warnings.

What Is Its Limitation?
    While the information from QuikSCAT has proved to be an important 
tool, there are several limitations, specifically as it relates to 
hurricanes. Since QuikSCAT is a polar-orbiting satellite, and as with 
all such satellites (including POES and NPOESS), it circles the globe 
and may provide data about a hurricane at most twice a day, usually 
only once a day. Sometimes, it may not be at the right place at the 
right time. Gaps between the coverage area, or swaths, approach 1,000 
kilometers in the deep tropics. Because hurricane wind speeds change 
over relatively short distances, the 12.5-km spatial resolution of 
QuikSCAT's observation makes it difficult to measure winds faster than 
65 mph, the approximate speed at which a tropical storm becomes a 
hurricane. It also has significant problems seeing through the rain, 
which is a major portion of the hurricane environment. QuikSCAT's 
usefulness becomes significantly less important as the storm gets 
closer to continental-U.S. landfall where forecasters are able to rely 
on data from the hurricane reconnaissance aircraft.

What Is Its Status?
    While QuikSCAT was launched in 1999, with a three-year mission, and 
consumables to last at least 5 years, it is now in its eighth year. The 
primary transmitter lasted 7 years and failed last year, and now the 
satellite is operating on its backup transmitter. Like any satellite, 
especially one past its design life, QuikSCAT could fail at any time. 
However, according to NASA, the instrument is healthy and should 
continue to operate for several more years. It also has enough fuel to 
last through 2011.

What Is NOAA's Plan?
    Since the late 1990s, NOAA has had a plan to obtain ocean wind 
speed and direction data from NPOESS. As stated previously, during the 
Nunn-McCurdy process the CMIS instrument was removed to reduce the 
overall risk. A replacement sensor will not be available until the 
launch of the second NPOESS scheduled for 2016. In June 2006, the NWS 
held a workshop to define new requirements for ocean surface wind speed 
and direction. It was determined that only the active approach used by 
QuikSCAT, a scatterometer, had the potential to meet the new 
requirements; the passive approach used by the MIS instrument aboard 
NPOESS did not. The Admiral redirected FY 2007 funds to be used to 
start a study with NASA's Jet Propulsion Lab, which built QuikSCAT, on 
building a satellite to replace or enhance our current capabilities. 
The results of that study are due in January 2008 and we plan to use it 
and other information to determine the best way to provide ocean 
surface wind speed and direction to forecasters.

What Will You Do If It Fails Today?
    If QuikSCAT were to fail today, I want to assure you and the public 
that we are not blind to forecasting hurricanes. On the contrary, as 
stated earlier in my testimony, there are many tools and observations 
that our forecasters rely on as they make their predictions. It is the 
GOES satellites in particular that are the most crucial for hurricane 
forecasting. We have an on-orbit spare GOES and an additional two on 
the ground while we are developing the next generation. With regard to 
ocean surface wind speed and direction data, there are two other 
satellites, WindSat (a Navy research satellite with a passive system) 
and MetOp (the EUMESTAT satellite carrying the active ASCAT 
scatterometer), which provide data similar to, although not quite as 
good as, QuikSCAT. The coverage area, or swaths, of these two 
satellites are about 60 percent of QuikSCAT.
    The European satellite was launched late last year and the NHC is 
just now starting to receive the data and learning how to use it in 
models and in their forecasts. We do not yet have any specific 
information on what the effect to the models or the forecasts would be 
through the use of ASCAT. The good news about ASCAT is that the 
Europeans plan to fly this sensor on a series of successive satellites 
until at least 2020.
    We will also be exploring agreements with India and China as they 
are expected to launch satellites with scatterometers, with technology 
similar to QuikSCAT, late in this decade. We do not know the 
specifications of their satellites and historically these nations have 
not fully shared their environmental data, especially in a timely 
manner. However, we are exploring this option as well.
    Finally, we are also examining how to increase the use of our 
hurricane hunter aircraft through more flight hours and outfitting the 
planes with more advanced technologies. We are also researching the 
feasibility of placing scatterometers on unmanned aircraft systems.

Conclusion
    Satellites are very complicated and difficult systems to design, 
build, and operate. However, their capabilities play an important role 
in NOAA's mission to observe and predict the Earth's environment and to 
provide critical information used in protecting life and property. 
Advances in hurricane prediction depend not only on improved 
observations such as those from satellites, but also on improved data 
assimilation, computer models, and continued research to better 
understand the inner workings of hurricanes.
    I believe we are making significant strides in developing a better 
process for designing and acquiring our satellites. We have fully 
functioning operational satellites with backup systems in place, and we 
are working on the next generation that will provide significant 
improvements in our ability to forecast the weather. I would be happy 
to answer any questions you may have.

    Senator Nelson. Thank you, Ms. Kicza.
    Dr. Freilich?

        STATEMENT OF DR. MICHAEL H. FREILICH, DIRECTOR,

      EARTH SCIENCE DIVISION, SCIENCE MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Freilich. Thank you very much.
    Mr. Chairman and members of the Committee, I welcome this 
opportunity to discuss Earth Science and NASA's collaborations 
with NOAA.
    Data from NASA research satellites improve NOAA's 
forecasts. Accurate NOAA operational products are used in NASA 
research to advance scientific understanding. Thus, there are 
strong reasons for us to collaborate; and collaborate, we do.
    We work in many ways to try to transition NASA-proven 
measurements and capabilities to operations. Among these are 
NOAA researchers that often serve on NASA mission science 
teams; the NASA-NOAA Joint Working Group provides strategic 
guidance on transition and wider use of technologies, missions, 
and data. Committees such as the Interagency Altimeter Working 
Group examine technical and programmatic issues for specific 
measurements. NASA, as the Nation's civilian space agency, 
serves in development and acquisition roles, with reimbursable 
funding from NOAA. NASA will continue to serve in that capacity 
for the space-borne segments of the GOES-R missions that Ms. 
Kicza discussed.
    Over the past year, we've collaborated very productively to 
address the challenges of NPOESS and the Decadal Survey. Nunn-
McCurdy focused NPOESS on weather forecasting, as you pointed 
out, and the loss of NPOESS climate sensors affects researchers 
and both agencies.
    A potentially less capable microwave instrument on NPOESS 
could reduce our ability to get measurements of all weather 
sea-surface temperature and surface wind direction. Together, 
NASA and NOAA quantified the impacts and developed recovery 
priorities, as Ms. Kicza mentioned. We're now jointly 
investigating mitigation scenarios, examining climate 
freeflyers, as well as mounting instruments on NPOESS.
    In April, NASA and NOAA jointly funded the restoration of 
the OMPS Limb ozone profiling capability onto the NPOESS 
Preparatory Program Spacecraft.
    Again, as both of you have mentioned, NASA and NOAA jointly 
commissioned and participated in the June NRC community 
workshop to examine the scientific impacts of the NPOESS 
changes and to consider recovery scenarios.
    Our agency studies, along with the workshop inputs, are 
being used to inform the development of the Administration's 
FY09 budget request. Let me briefly discuss NPP, one of the two 
space-borne elements of NPOESS.
    NPP, the NPOESS Preparatory Program, aims to continue 
selected climate time series initiated by the NASA Earth 
Observing System, especially the MODIS data products that 
should be produced by the Visible Infrared Image Radiometer 
Suite, called VIIRS. Flight on NPP also reduces risk for the 
operational NPOESS sensors. For NPP, NASA is responsible for 
the spacecraft plus the launch vehicle, spacecraft integration 
and test, and provision of one instrument, the Advanced 
Technology Microwave Sounder, for all-weather global 
temperature and humidity profiles. Indeed, that instrument was 
delivered in 2005, and is integrated onto the NPP spacecraft.
    NOAA and DOD are responsible for NPP on-orbit mission 
operations, the ground system, the OMPS ozone suite, VIIRS, and 
the Cross-track Infrared Sounder instruments. Both VIIRS and 
the infrared sounder are facing significant development 
challenges. VIIRS measurements may be substantially less 
accurate than those obtained presently by MODIS. The NASA NPP 
science team is working closely with NOAA and with the NPOESS 
project office to evaluate the effects of these possible 
shortfalls on NASA's Earth Science objectives. The present 
VIIRS flight model probably will not support NASA ocean color, 
and may not support aerosol research unless some changes are 
made.
    Let me say a few words about QuikSCAT now. QuikSCAT is a 
highly successful NASA research mission, as you've pointed out, 
measuring ocean wind speed and direction with unprecedented 
accuracy, spatial resolution, and coverage. QuikSCAT data have 
been crucial for advancing research into ocean circulation, 
air-sea interactions, and marine meteorology, and they've been 
used routinely by NOAA and other international meteorological 
organizations since early 2002.
    As Ms. Kicza pointed out, QuikSCAT is old, but it is in 
decent shape. The recent NASA senior review recommended that 
QuikSCAT operations be extended at least through 2011, based on 
the present spacecraft trends and its high value for research 
and operations. Because scatterometry is a mature technique 
with operational utility, the Decadal Survey recommended that 
NOAA continue QuikSCAT, the time series, and fly an enhanced 
so-called XOVWM scatterometer, starting in the 2013 time frame. 
Funded by NOAA, NASA's Jet Propulsion Laboratory is conducting 
detailed technical and cost studies of XOVWM and related 
surface wind measurement missions.
    So, in conclusion, NASA and NOAA are collaborating, and 
we're collaborating well. NASA's Earth Science research 
objectives and NOAA's prediction objectives both require 
reliable, accurate operational satellite systems. NOAA's 
prediction tasks and NASA's science investigations both require 
improved measurements. Transitioning from research to 
operations is challenging, but the many joint efforts of NOAA 
and NASA are resulting in effective solutions for the country.
    Thank you.
    [The prepared statement of Dr. Freilich follows:]

Prepared Statement of Dr. Michael H. Freilich, Director, Earth Science 
 Division, Science Mission Directorate, National Aeronautics and Space 
                             Administration

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear today to discuss how NASA partners with the 
National Oceanic and Atmospheric Administration (NOAA). As the Director 
of the Earth Science Division, one of four science divisions that make 
up the NASA Science Mission Directorate, I welcome this opportunity to 
discuss the important area of Earth Science and our collaborations with 
NOAA. This discussion is especially timely in light of the recently 
released National Research Council's (NRC's) Earth Science Decadal 
Survey, which outlines specific scientific priorities for both NASA and 
NOAA.
    Much of the science community's present state of knowledge about 
global change--including many of the measurements and a significant 
fraction of the analyses which serve as the foundation for the recent 
report of the Intergovernmental Panel on Climate Change (IPCC)--is 
derived from NASA's Earth Science program. Using data from Earth 
observing satellites, NASA-supported researchers are monitoring ice 
cover and ice sheet motions in the Arctic and the Antarctic; 
quantifying the short-term and long-term changes to the Earth's 
protective shield of stratospheric ozone, including the positive 
impacts of the Montreal protocols; discovering robust relationships 
between increasing upper ocean temperature and decreasing primary 
production from the phytoplankton that form the base of the oceans' 
food chain; and, using a fleet of satellites flying in formation (the 
``A-Train''), making unique, global, near-simultaneous measurements of 
aerosols, clouds, radiative fluxes, and temperature and relative 
humidity profiles.
    NASA researchers codify our improving understanding of Earth 
processes in sophisticated weather and climate models which can then be 
used to predict natural and human-caused environmental changes. 
Researchers often analyze the gridded ``nowcast'' output from these 
numerical prediction models as proxies for actual data, since the model 
predictions incorporate all available observations. Improved 
operational models thus aid the research endeavor as well as yield 
improved forecasts.
    There is thus a strong synergy between our Nation's research 
satellites and our operational spaceborne systems. Near-real-time 
measurements from NASA research missions such as the Tropical Rainfall 
Measuring Mission (TRMM), the Quick Scatterometer (QuikSCAT), the 
Atmospheric Infrared Sounder (AIRS) instrument on the Aqua mission, and 
others are used routinely by NOAA and other U.S. and international 
agencies to improve weather and extreme event forecasts. Similarly, 
high quality measurements obtained by Department of Defense (DOD) and 
NOAA operational weather satellites provide essential context for the 
scientific analyses of the NASA research mission data. As the Nation's 
civil space agency, NASA demonstrates and refines new measurement 
technologies and then works closely with NOAA in an effort to 
transition these research capabilities to long-term operations.
    NASA joins with other Federal agencies to support an integrated 
Federal program of climate research. Consistent with the NASA Space Act 
of 1958, as amended, and the NASA Authorization Act of 2005 (P.L. 109-
155), NASA's role within the broader Federal program is guided by the 
U.S. National Space Policy, authorized by the President on August 31, 
2006. NASA's contribution to the U.S. Climate Change Science Program 
(CCSP) is unchanged from the FY 2007 to FY 2008 budget request, and 
remains the largest single contribution to the Program. NASA, NOAA, and 
the U.S. Geological Survey (USGS) jointly requested that the National 
Research Council conduct a Decadal Survey for Earth Science. The 
recently completed survey outlines specific scientific priorities for 
both NASA and NOAA.
    NASA works closely with NOAA, in particular, in an effort to 
transition mature and proven measurement capabilities to long-term 
operations. In addition to the NASA-NOAA Joint Working Group 
(established by the NASA Authorization Act of 2005) which has addressed 
a wide range of issues related to transition of measurements and data 
products, the two agencies also meet regularly in more focused fora 
such as the Interagency Altimeter Group (NASA, NOAA, Navy). Since early 
summer of 2006, NASA and NOAA have worked intensely with each other and 
with the Office of Science and Technology Policy (OSTP) to document the 
impacts of, and develop mitigation strategies for, changes to the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) made in relation to Nunn-McCurdy recertification of the 
program.
    Below, as requested, we address status and collaborative activities 
related to the three missions identified as of particular interest to 
the Committee: NPOESS, Geostationary Operational Environmental 
Satellites (GOES)-R, and QuikSCAT.

NPOESS
    NPOESS was established in 1994 by Presidential Decision Directive 
to combine the previously separate operational, Earth-observing 
satellite systems operated by DOD (the Defense Meteorological Satellite 
Program, (DMSP)) and NOAA (the Polar-orbiting Operational Environmental 
Satellite program, (POES)). The primary objective of both DMSP and POES 
was to collect measurements in support of weather and environmental 
forecasting. However, as noted above, in many cases high-quality, well-
validated, operational data products acquired by these systems are used 
extensively by the Earth Science research community as well.
    The overall NPOESS program is composed of two spaceborne elements: 
the NPOESS Preparatory Project (NPP), presently scheduled for launch in 
September 2009; and, the NPOESS Operational Constellation (NPOESS), 
composed of a series of four spacecraft, flying two at a time in 
coordinated morning and afternoon orbits (the launch of the first of 
these spacecraft currently is scheduled for 2013).
    NPP has two basic aims: (1) to continue the time series of selected 
climate science measurements initiated by the NASA Earth Observing 
System spacecraft--in particular, the suite of data products generated 
by the Moderate Resolution Imaging Spectroradiometer (MODIS) instrument 
on the Terra and Aqua missions and planned to be produced by the 
Visible/Infrared Imager/Radiometer Suite (VIIRS) on NPP and NPOESS; and 
(2) to serve as risk reduction for the future operational NPOESS 
sensors. NASA, NOAA, and DOD all participate essentially equally in the 
NPP mission. NASA is responsible for development of the spacecraft bus, 
launch vehicle, integration and test of the instruments on the 
spacecraft, and provision of the Advanced Technology Microwave Sounder 
(ATMS) instrument that will provide all-weather, global temperature and 
humidity profiles. Through the NPOESS Integrated Program Office (IPO), 
NOAA and DOD are responsible for development and provision of the 
VIIRS, Cross-Track Infrared Sounder (CrIS), and Ozone Mapping and 
Profiling Suite (OMPS) instruments; on-orbit mission operations; and 
the ground system for the generation of operational products.
    The NASA-supplied ATMS instrument was delivered in October 2005 and 
is presently integrated onto the NPP spacecraft. In response to the 
removal of the OMPS-Limb profiling capability from both NPP and NPOESS 
via the Nunn-McCurdy process, NASA and NOAA provided resources from 
core programs to allow the OMPS-Limb instrument to be re-manifested on 
NPP in April 2007, thus restoring both the nadir total ozone 
measurements and the limb profiling capabilities for NPP. This first-
ever combination of total and vertically resolved ozone measurements 
will provide scientists unique insight into the dynamical and chemical 
processes that regulate atmospheric composition.
    Both the IPO-developed VIIRS and CrIS instruments are presenting 
significant development challenges. The first CrIS flight unit suffered 
a structural failure during testing in October 2006, requiring 
structural design changes and delaying delivery of a flight unit for 
integration onto the NPP satellite until March 2008. Initial testing is 
indicating that the VIIRS measurements may be less accurate than those 
of the present NASA MODIS instruments. The NASA NPP Science Team is 
working closely with NOAA and IPO personnel to evaluate the impacts of 
these instrument performance shortfalls on NASA's Earth system science 
objectives. Although these analyses are in an early stage, it is likely 
that the present VIIRS flight model for NPP will lack the accuracy and 
precision to support NASA research related to ocean color and aerosols 
unless significant resources are applied to implement sensor changes.
    The future operational NPOESS system was significantly restructured 
in June 2006 as a result of the Nunn-McCurdy recertification. The 
original series of two, 3-satellite constellations was downsized to 
two, 2-satellite constellations with measurements from the mid-morning 
orbit to be supplied by the European EUMETSAT MetOp missions. 
Furthermore, the Nunn-McCurdy process focused NPOESS on its core 
weather forecasting objectives, removing several important climate 
sensors and degrading the performance of certain other instruments. The 
recertified NPOESS does not include total solar irradiance and Earth 
radiation budget instruments, an altimeter to make accurate global 
measurements of sea level, and the OMPS-Limb capability to measure 
vertical profiles of tropospheric and stratospheric ozone. In addition, 
the Conically Scanning Microwave Imager/Sounder (CMIS) was replaced by 
a Microwave Imaging Sensor (MIS) whose detailed capabilities have not 
yet been defined. From the standpoint of addressing NASA science 
objectives, this change from CMIS to MIS may substantially reduce our 
ability to acquire all-weather sea-surface temperature measurements as 
well as information on surface wind direction and speed over the ice-
free oceans.
    The Decadal Survey, the U.S. Climate Change Science Program, and 
NASA's own planning in Earth Science all assume the presence of an 
operational system of environmental monitoring satellites that can make 
climate-quality measurements. Indeed, that is a major reason why NASA, 
along with NOAA and the Air Force, is a member of the NPOESS governing 
body. As the Decadal Survey committee was finalizing its notional 
mission set and sequence, the full impact of the removal of the climate 
sensors from the NPOESS program was just coming to light. Since last 
summer, NASA has been working closely with NOAA, OSTP, and the 
scientific research community to understand and rank the impacts of 
these programmatic perturbations and to develop realistic mitigation 
scenarios for the most important measurements. In addition to our 
agency-based technical evaluations and preliminary mitigation strategy 
designs, NASA and NOAA commissioned, supported, and participated in a 
National Research Council workshop held June 19-21, 2007, after several 
weeks of community planning (including participation by members of the 
original Decadal Survey committee). The workshop was chartered to 
examine the scientific and research-focused impacts of the programmatic 
changes to NPOESS and to consider various potential recovery scenarios. 
NASA and NOAA anticipate receiving the workshop report later this 
summer.

GOES-R
    NASA has historically managed the development and launch of the 
Geostationary Operational Environmental Satellite (GOES) system under a 
reimbursable work agreement with and in support of NOAA. Two legacy 
GOES spacecraft are presently built and in ground storage. Work has 
begun on design and development for the next-generation GOES series 
known as ``GOES-R.'' These spacecraft will fly an advanced imager 
capable of simultaneous focused high resolution measurement and full-
field low resolution acquisition. The GOES-R instrument complement will 
also include a first-ever lightning sensor capable of operating from 
geostationary orbit, as well as a complement of space weather 
instrumentation. NASA will manage the spaceborne hardware portion of 
GOES-R for NOAA as a reimbursable project through a program office at 
NASA's Goddard Space Flight Center in Greenbelt, Maryland.

QuikSCAT
    Launched on June 19, 1999, QuikSCAT carries as its only science 
instrument an active radar scatterometer instrument that provides ocean 
surface vector wind data under nearly all-weather conditions. 
QuikSCAT's primary mission is scientific research, but from the start 
NASA and NOAA recognized the value of the ocean surface vector wind 
data for operational weather and marine hazard forecasting. Prior to 
launch, NASA and NOAA collaborated to assure that QuikSCAT data could 
be downlinked to Earth and processed sufficiently rapidly to be useful 
to NOAA for weather forecasting. The NASA-NOAA collaboration included 
both use of distributed ground telemetry stations, and development by 
NASA's Jet Propulsion Laboratory (JPL) in Pasadena, California of 
specific computer algorithms and data formats to allow rapid processing 
by NOAA and efficient use of the QuikSCAT wind measurements in NOAA 
weather forecasting models at the National Weather Service (NWS) 
National Centers for Environmental Prediction and NWS Weather Forecast 
Offices having coastal responsibilities.
    QuikSCAT has been on orbit for 8 years, 5 years beyond its original 
three-year baseline mission. Although some redundant subsystems have 
failed or have suffered degradation (in particular the transmitter 
which allows the satellite's measurements to be sent to the ground for 
processing), backup systems are working well, and the data remain of 
high quality. The satellite is clearly aging, but shows no indication 
of imminent failure.
    NASA has neither a scientific mandate nor any near-term plan to 
replace QuikSCAT's active radar scatterometry measurements. The Decadal 
Survey identifies a sea surface wind vector scatterometry mission, the 
Extended Ocean Vector Winds Mission (XOVWM), as a mid-decadal priority 
for NOAA. NASA continues to work closely with NOAA to support an 
efficient transition of ocean surface vector wind measurements from 
research to operations. NOAA is evaluating a number of options for 
addressing its ocean vector wind requirements and has taken a number of 
steps including funding a JPL study of QuikSCAT replacement options. 
The results of this study are due in January 2008 and will help NOAA 
determine the best way to provide accurate, extensive, all-weather, 
surface wind speed and direction measurements over the global oceans.

Conclusion
    In summary, NASA and NOAA have an ongoing and growing collaborative 
relationship. The two agencies have complementary programmatic 
expertise and objectives. Both NASA'S research to advance Earth system 
science and NOAA's prediction objectives require an operational 
satellite system that can reliably acquire accurate measurements. Both 
NOAA's prediction tasks and NASA's science investigations require the 
development and on-orbit demonstration of new measurement techniques to 
improve the scope and quality of measurements. Transitioning from 
research to operations is challenging, but the ongoing frequent 
communication between NOAA and NASA at various technical and management 
levels, and in a variety of fora, will result in effective solutions 
for the Nation.
    I welcome your questions on NASA's Earth Science program and its 
relationship to NOAA.

    Senator Nelson. Thank you, Dr. Freilich.
    We want to hear GAO's point of view. Mr. Powner?

            STATEMENT OF DAVID A. POWNER, DIRECTOR, 
         INFORMATION TECHNOLOGY MANAGEMENT ISSUES, GAO

    Mr. Powner. Chairman Nelson, and members of the Committee, 
GAO has, for the past several years, monitored the NPOESS and 
GOES-R programs. As you mentioned, Mr. Chairman, these 
environmental satellite programs are essential to monitoring 
and having the continuity of critical weather data through 
nearly 2030, and they play a key role in hurricane forecasting. 
NPOESS is well into its acquisition cycle, and its life-cycle 
costs will now exceed $12 billion. GOES-R is early in its 
acquisition cycle, as the prime contracts are expected to be 
awarded next year.
    Today's request, I will provide a brief status of each, 
highlight key challenges, and discuss recommendations, going 
forward.
    First, NPOESS: Over the past several years, NPOESS has 
experienced significant cost overruns and delays due to sensor 
development problems, poor contractor performance and program 
management, and inadequate executive-level involvement that led 
to a June 2006 decision to restructure the program. This 
decision decreased the complexity of the program by reducing a 
number of key sensors, increased the estimated costs by $4 
billion, and delayed the launches of the first satellites. 
Since then, the NPOESS program has made progress; however, we 
remain concerned about its remaining risks, the interagency 
management of this tri-agency program, and a premature rotation 
of the program's key executive.
    Before expanding on each of these concerns, the NPOESS 
management team deserves credit for recently improving program 
oversight and holding NPOESS's contractors more accountable. 
Despite these efforts, the NPOESS program is still fraught with 
risks. Our latest report, issued last month, highlights the 
major technical risks with two critical sensors known as VIIRS 
and CrIS. Both sensors remain high risk. We also remain 
concerned about the interagency coordination and the commitment 
required to effectively manage this tri-agency program. The 
tri-agency management approach has, and continues to be, a 
contributing factor to NPOESS's problems.
    We also remain concerned about DOD's plan to reassign the 
program executive officer this month. Having a seasoned PEO has 
streamlined executive decisionmaking and has resulted in more 
aggressive risk management for the program. The PEO has only 
been in this position for 20 months. Given that the program is 
still being restructured, the significant challenges, and the 
fact that a replacement has yet to be named, such a move adds 
unnecessary risk to an already risky program.
    Mr. Chairman, despite some progress, NPOESS is far from 
being out of the woods. Moving forward, it is essential that 
the program aggressively manage its remaining developmental 
risks, especially those associated with its high-risk sensors, 
and quickly manage the transition and knowledge transfer 
associated with the risky decision to reassign the PEO. Failing 
to address these and other concerns will lead to additional 
cost increases and schedule delays.
    Turning to GOES-R: As originally planned, this acquisition 
was to consist of four satellites that would each contain five 
sensors that are to significantly increase the amount and 
precision of environmental data. NOAA had three vendors working 
on preliminary designs, and plans to award prime contracts next 
summer. The first GOES-R satellite is expected to be launched 
in 2014.
    Regarding costs, Mr. Chairman, last year the life-cycle 
cost was reported to be $6.2 billion for four satellites. 
During our review at that time, we learned that the costs could 
be in the $11-$12 billion range, double the original estimate. 
This led the agency to reconsider the program and re-scope it, 
reducing the complexity by reducing the number of satellites 
from four to two, and canceling a technically complex sensor, 
referred to as HES. Currently, the overall scope and cost of 
the program is in flux, as the number of satellites is being 
reconsidered, as are other requirements and capabilities.
    Our review also showed that NOAA's management team is 
taking into consideration lessons learned from the recent 
NPOESS and GOES-R programs, but that even more attention to 
these past problems is needed.
    Past problems experienced with these acquisitions include 
poor cost and schedule estimates, technical complexity that 
exceeds the contractor's and government's abilities to deliver, 
insufficient contractor oversight, and ineffective executive 
involvement.
    NOAA has plans to address many of these past problems; 
however, additional actions are needed to better position NOAA 
for success, including establishing processes to ensure that an 
accurate independent cost estimate is developed, and having an 
independent review team assess the adequacy of key resources 
needed to oversee the contractor's performance.
    In summary, Mr. Chairman, NOAA's attention to both NPOESS's 
challenges and incorporating lessons learned from past 
satellite acquisitions on GOES-R is commendable, but continued 
attention to these acquisition risks is essential to maintain 
continuity of our Nation's warning and forecasting operations.
    This concludes my statement. I would be pleased to respond 
to questions.
    [The prepared statement of Mr. Powner follows:]

           Prepared Statement of David A. Powner, Director, 
             Information Technology Management Issues, GAO

    Mr. Chairman and members of the Committee:

    We appreciate the opportunity to participate in today's hearing to 
discuss our work on two major operational environmental satellite 
programs: the $12.5 billion National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) program and the planned $7 
billion Geostationary Operational Environmental Satellites-R (GOES-R) 
program.
    Operational environmental satellites provide data and imagery that 
are used by weather forecasters, climatologists, and the military to 
map and monitor changes in weather, climate, the oceans, and the 
environment. NPOESS--a tri-agency program managed by the Department of 
Commerce's National Oceanic and Atmospheric Administration (NOAA), the 
Department of Defense/U.S. Air Force, and the National Aeronautics and 
Space Administration (NASA)--is expected to be a state-of-the-art, 
environment monitoring satellite system that will replace two existing 
polar-orbiting environmental satellite systems. The GOES-R series, 
managed by NOAA with assistance from NASA, is to replace the current 
series of satellites which will likely begin to reach the end of their 
useful lives in approximately 2012. This new series is expected to mark 
the first major technological advance in GOES instrumentation since 
1994. The NPOESS and GOES-R programs are considered critical to the 
United States' ability to maintain the continuity of data required for 
weather forecasting (including severe weather events such as 
hurricanes) and global climate monitoring through the years 2026 and 
2028 respectively.
    At your request, we are summarizing the results of our previous 
work on operational environmental satellite programs, including NPOESS 
and the GOES-R program.\1\ In preparing this testimony, we relied on 
the work supporting our prior reports. Those reports contain detailed 
overviews of our scope and methodology. All of the work on which this 
testimony is based was performed in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \1\ GAO, Polar-orbiting Operational Environmental Satellites: 
Restructuring is Under Way, but Technical Challenges and Risks Remain, 
GAO-07-498 (Washington, D.C.: April 27, 2007); Polar-orbiting 
Operational Environmental Satellites: Restructuring is Under Way, but 
Challenges and Risks Remain, GAO-07-910T (Washington, D.C.: June 7, 
2007); Geostationary Operational Environmental Satellites: Steps Remain 
in Incorporating Lessons Learned from Other Satellite Programs, GAO-06-
993 (Washington, D.C.: Sept. 6, 2006); and Geostationary Operational 
Environmental Satellites: Additional Action Needed to Incorporate 
Lessons Learned from Other Satellite Programs, GAO-06-1129T 
(Washington, D.C.: Sept. 29, 2006).
---------------------------------------------------------------------------
Results in Brief
    NOAA is involved in two major satellite acquisition programs, 
NPOESS and GOES-R, and both are costly, technically complex, and 
critically important to weather forecasting and climate monitoring. 
NPOESS was originally estimated to cost about $6.5 billion over the 24-
year life of the program, with its first satellite launch planned for 
April 2009. Over the last few years, NPOESS experienced escalating 
costs, schedule delays, and technical difficulties. These factors led 
to a June 2006 decision to restructure the program thereby decreasing 
the program's complexity by reducing the number of sensors and 
satellites, increasing its estimated cost to $12.5 billion, and 
delaying the launches of the first two satellites to 2013 and 2016, 
respectively. Since that time, the program office has made progress in 
restructuring the satellite acquisition and establishing an effective 
management structure; however, important tasks remain to be done and 
significant risks remain. Specifically, key acquisition documents that 
were originally due in September 2006 are still not completed, the 
program office is not yet fully staffed, and the early July turnover of 
the program executive officer increases the program's risk. 
Additionally, technical risks remain in the development of key system 
sensors and the ground-based data processing system. In April 2007, we 
made recommendations to complete key acquisition documents, increase 
staffing at the program office, and delay reassignment of the program 
executive. Implementation of these recommendations should reduce risk 
on this critical acquisition.
    The GOES-R acquisition, originally estimated to cost $6.2 billion 
and scheduled to have the first satellite ready for launch in 2012, is 
at a much earlier stage in its life cycle than NPOESS. In September 
2006, we reported that NOAA had issued contracts for the preliminary 
design of the overall GOES-R system to three vendors and expected to 
award a contract to one of these vendors in August 2007 to develop the 
satellites. However, analyses of GOES-R cost--which in May 2006 was 
estimated to reach $11.4 billion--led the agency, in September 2006, to 
reduce the program's scope from four to two satellites and to 
discontinue one of the critical sensors. Program officials now report 
that they are reevaluating that decision and may further revise the 
scope and requirements of the program in coming months. We also 
reported that NOAA had taken steps to implement lessons learned from 
past satellite programs, but more remained to be done to ensure sound 
cost estimates and adequate system engineering capabilities. We made 
recommendations to the program to improve its capabilities for managing 
this program and agency officials agreed with these recommendations and 
initiated efforts to implement them. We currently have work under way 
to evaluate GOES-R risks and challenges.

Background
    Since the 1960s, geostationary and polar-orbiting operational 
environmental satellites have been used by the United States to provide 
meteorological data for weather observation, research, and forecasting. 
NOAA's National Environmental Satellite Data and Information Service 
(NESDIS) is responsible for managing the existing civilian 
geostationary and polar-orbiting satellite systems as two separate 
programs, called the Geostationary Operational Environmental Satellites 
and the Polar Operational Environmental Satellites (POES), 
respectively. The Air Force is responsible for operating a second 
polar-orbiting environmental satellite system--the Defense 
Meteorological Satellite Program (DMSP).
    Polar-orbiting environmental satellites obtain environmental data 
that are processed to provide graphical weather images and specialized 
weather products. These satellite data are also the predominant input 
to numerical weather prediction models, which are a primary tool for 
forecasting weather 3 or more days in advance--including forecasting 
the path and intensity of hurricanes. The weather products and models 
are used to predict the potential impact of severe weather so that 
communities and emergency managers can help prevent and mitigate their 
effects. Polar satellites also provide data used to monitor 
environmental phenomena, such as ozone depletion and drought 
conditions, as well as data sets that are used by researchers for a 
variety of studies such as climate monitoring. Figure 1 illustrates the 
current operational polar satellite configuration consisting of two 
POES and two DMSP satellites.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Unlike polar-orbiting satellites, which constantly circle the Earth 
in a relatively low polar orbit, geostationary satellites can maintain 
a constant view of the Rarth from a high orbit of about 22,300 miles in 
space. NOAA operates GOES as a two-satellite system that is primarily 
focused on the United States (see fig. 2). These satellites are 
uniquely positioned to provide timely environmental data to 
meteorologists and their audiences on the Earth's atmosphere, its 
surface, cloud cover, and the space environment. They also observe the 
development of hazardous weather, such as hurricanes and severe 
thunderstorms, and track their movement and intensity to reduce or 
avoid major losses of property and life. Furthermore, the satellites' 
ability to provide broad, continuously updated coverage of atmospheric 
conditions over land and oceans is important to NOAA's weather 
forecasting operations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Satellite Acquisition Programs Often Experience Technical Problems, 
        Cost Overruns, and Schedule Delays
    Satellite acquisition programs are often technically complex and 
risky undertakings, and as a result, they often experience technical 
problems, cost overruns, and schedule delays. We and others have 
reported on a historical pattern of repeated missteps in the 
procurement of major satellite systems, including NPOESS, the GOES I-M 
series, the Air Force's Space Based Infrared System High Program 
(SBIRS-High), and the Air Force's Advanced Extremely High Frequency 
Satellite System (AEHF).\2\ Table 1 lists key problems experienced with 
these programs. While each of the programs faced multiple problems, all 
of them experienced insufficient maturity of technologies, overly 
aggressive schedules, insufficient subcontract management, and 
inadequate system engineering capabilities for overseeing contractors.
---------------------------------------------------------------------------
    \2\ GAO-07-498; GAO-06-993; GAO, Defense Acquisitions: Space System 
Acquisition Risks and Keys to Addressing Them, GAO-06-776R (Washington, 
D.C.: June 1, 2006); Polar-orbiting Operational Environmental 
Satellites: Cost Increases Trigger Review and Place Program's Direction 
on Hold, GAO-06-573T (Washington, D.C.: Mar. 30, 2006); Polar-orbiting 
Operational Environmental Satellites: Technical Problems, Cost 
Increases, and Schedule Delays Trigger Need for Difficult Trade-off 
Decisions, GAO-06-249T (Washington, D.C.: Nov. 16, 2005); Polar-
orbiting Environmental Satellites: Information on Program Cost and 
Schedule Changes, GAO-04-1054 (Washington, D.C.: Sept. 30, 2004); 
Defense Acquisitions: Despite Restructuring, SBIRS High Program Remains 
at Risk of Cost and Schedule Overruns, GAO-04-48 (Washington, D.C.: 
Oct. 31, 2003); Military Space Operations: Common Problems and Their 
Effects on Satellite and Related Acquisitions, GAO-03-825R (Washington, 
D.C.: June 2, 2003); Defense Acquisitions: Assessments of Major Weapon 
Programs, GAO-03-476 (Washington, D.C.: May 15, 2003); Weather 
Satellites: Action Needed to Resolve Status of the U.S. Geostationary 
Satellite Program, GAO/NSIAD-91-252 (Washington, D.C.: July 24, 1991). 
Defense Science Board/Air Force Scientific Advisory Board Joint Task 
Force, Report on the Acquisition of National Security Space Programs 
(May 2003).



----------------------------------------------------------------------------------------------------------------



    Table 1: Key Problems Experienced on Selected Major Space Systems
------------------------------------------------------------------------
                                      GOES I-M
         Problem            NPOESS                SBIRS--High      AEHF
------------------------------------------------------------------------
Insufficient technical
 readiness prior to
 critical decision
 points
------------------------------------------------------------------------
Inadequate preliminary    X           X         X
 studies prior to the
 decision to award a
 development contract
------------------------------------------------------------------------
Insufficient technical    X           X         X                X
 maturity prior to the
 decision to move to
 production
------------------------------------------------------------------------
Unrealistic cost and
 schedule estimates
------------------------------------------------------------------------
Optimistic assumptions
 including:
------------------------------------------------------------------------
    <bullet> savings      X           X         X
     from heritage
     systems
------------------------------------------------------------------------
    <bullet> readiness    X           X         X                X
     of technology
     maturity
------------------------------------------------------------------------
    <bullet> constant                           X
     and available
     industrial base
------------------------------------------------------------------------
    <bullet> no weight    X                     X                X
     growth
------------------------------------------------------------------------
    <bullet> no                                                  X
     requirements growth
------------------------------------------------------------------------
    <bullet> savings                            X
     from lot buys
     versus single-unit
     purchase
------------------------------------------------------------------------
    <bullet> overly       X           X         X                X
     aggressive schedule
------------------------------------------------------------------------
Poor program and
 contractor management
------------------------------------------------------------------------
Quality and               X           X         X                X
 subcontractor issues
------------------------------------------------------------------------
Inadequate systems        X           X         X                X
 engineering
 capabilities
------------------------------------------------------------------------
Inadequate earned value   X                     X                X
 management capabilities
------------------------------------------------------------------------
Insufficient management   X                                      X
 reserve
------------------------------------------------------------------------
Ineffective contract      X           X         X
 award fee structure
------------------------------------------------------------------------
Poor senior executive
 level oversight
------------------------------------------------------------------------
Infrequent meetings       X
------------------------------------------------------------------------
Inability to make timely  X
 decisions
------------------------------------------------------------------------
Other
------------------------------------------------------------------------
Unstable funding stream   X                     X                X
------------------------------------------------------------------------
Unstable requirements                           X                X
------------------------------------------------------------------------
Source: GAO analysis of NOAA and DOD data.

NPOESS: Overview, Issues, and Prior GAO Recommendations
    With the expectation that combining the POES and DMSP programs 
would reduce duplication and result in sizable cost savings, a May 1994 
Presidential Decision Directive required NOAA and DOD to converge the 
two satellite programs into a single satellite program capable of 
satisfying both civilian and military requirements.\3\ The converged 
program, NPOESS, is considered critical to the United States' ability 
to maintain the continuity of data required for weather forecasting and 
global climate monitoring through the year 2026. To manage this 
program, DOD, NOAA, and NASA formed a tri-agency Integrated Program 
Office, located within NOAA.
---------------------------------------------------------------------------
    \3\ Presidential Decision Directive NSTC-2 (May 5, 1994).
---------------------------------------------------------------------------
    Within the program office, each agency has the lead on certain 
activities: NOAA has overall program management responsibility for the 
converged system and for satellite operations; DOD has the lead on the 
acquisition; and NASA has primary responsibility for facilitating the 
development and incorporation of new technologies into the converged 
system. NOAA and DOD share the costs of funding NPOESS, while NASA 
funds specific technology projects and studies. The NPOESS program 
office is overseen by an Executive Committee, which is made up of the 
Administrators of NOAA and NASA and the Under Secretary of the Air 
Force.
    NPOESS is a major system acquisition that was originally estimated 
to cost about $6.5 billion over the 24-year life of the program from 
its inception in 1995 through 2018. The program was to provide 
satellite development, satellite launch and operation, and ground-based 
satellite data processing. When the NPOESS engineering, manufacturing, 
and development contract was awarded in August 2002, the estimated cost 
was $7 billion. Acquisition plans called for the procurement and launch 
of six satellites over the life of the program, as well as the 
integration of 13 instruments--consisting of 10 environmental sensors 
and 3 subsystems (see table 2).



------------------------------------------------------------------------



  Table 2: Expected NPOESS Instruments as of August 31, 2004 (critical
                         sensors are in italic)
------------------------------------------------------------------------
        Instrument                          Description
------------------------------------------------------------------------
Advanced technology        Measures microwave energy released and
 microwave sounder (ATMS)   scattered by the atmosphere and is to be
                            used with infrared sounding data from
                            NPOESS's cross-track infrared sounder to
                            produce daily global atmospheric
                            temperature, humidity, and pressure
                            profiles.
------------------------------------------------------------------------
Aerosol polarimetry        Retrieves specific measurements of clouds and
 sensor                     aerosols (liquid droplets or solid particles
                            suspended in the atmosphere, such as sea
                            spray, smog, and smoke).
------------------------------------------------------------------------
Conical-scanned microwave  Collects microwave images and data needed to
 imager/sounder (CMIS)      measure rain rate, ocean surface wind speed
                            and direction, amount of water in the
                            clouds, and soil moisture, as well as
                            temperature and humidity at different
                            atmospheric levels.
------------------------------------------------------------------------
Cross-track infrared       Collects measurements of the earth's
 sounder (CrIS)             radiation to determine the vertical
                            distribution of temperature, moisture, and
                            pressure in the atmosphere.
------------------------------------------------------------------------
Data collection system     Collects environmental data from platforms
                            around the world and delivers them to users
                            worldwide.
------------------------------------------------------------------------
Earth radiation budget     Measures solar short-wave radiation and long-
 sensor                     wave radiation released by the earth back
                            into space on a worldwide scale to enhance
                            long-term climate studies.
------------------------------------------------------------------------
Ozone mapper/profiler      Collects data needed to measure the amount
 suite (OMPS)               and distribution of ozone in the earth's
                            atmosphere.
------------------------------------------------------------------------
Radar altimeter            Measures variances in sea surface height/
                            topography and ocean surface roughness,
                            which are used to determine sea surface
                            height, significant wave height, and ocean
                            surface wind speed and to provide critical
                            inputs to ocean forecasting and climate
                            prediction models.
------------------------------------------------------------------------
Search and rescue          Detects and locates aviators, mariners, and
 satellite aided tracking   land-based users in distress.
 system
------------------------------------------------------------------------
Space environmental        Collects data to identify, reduce, and
 sensor suite               predict the effects of space weather on
                            technological systems, including satellites
                            and radio links.
------------------------------------------------------------------------
Survivability sensor       Monitors for attacks on the satellite and
                            notifies other instruments in case of an
                            attack.
------------------------------------------------------------------------
Total solar irradiance     Monitors and captures total and spectral
 sensor                     solar irradiance data.
------------------------------------------------------------------------
Visible/infrared imager    Collects images and radiometric data used to
 radiometer suite (VIIRS)   provide information on the earth's clouds,
                            atmosphere, ocean, and land surfaces.
------------------------------------------------------------------------
Source: GAO, based on NPOESS program office data.

    In addition, a demonstration satellite (called the NPOESS 
Preparatory Project or NPP) was planned to be launched several years 
before the first NPOESS satellite in order to reduce the risk 
associated with launching new sensor technologies and to ensure 
continuity of climate data with NASA's Earth Observing System 
satellites.

NPOESS Experienced Cost Increases, Schedule Delays, and Technical 
        Problems Over Several Years
    Over the last few years, NPOESS experienced continued cost 
increases and schedule delays, requiring difficult decisions to be made 
about the program's direction and capabilities. In 2003, we reported 
that changes in the NPOESS funding stream led the program to develop a 
new program cost and schedule baseline.\4\ After this new baseline was 
completed in 2004, we reported that the program office increased the 
NPOESS cost estimate from about $7 billion to $8.1 billion, delaying 
key milestones, including the launch of the first satellite, and 
extending the life of the program until 2020.\5\ In mid-November 2005, 
we reported that NPOESS continued to experience problems in the 
development of a key sensor, resulting in schedule delays and 
anticipated cost increases. This was due in part, to problems at 
multiple levels of management--including subcontractor, contractor, 
program office, and executive leadership. Recognizing that the budget 
for the program was no longer executable, the NPOESS Executive 
Committee planned to make a decision in December 2005 on the future 
direction of the program--what would be delivered, at what cost, and by 
when. This involved deciding among options involving increased costs, 
delayed schedules, and reduced functionality. We noted that continued 
oversight, strong leadership, and timely decisionmaking were more 
critical than ever, and we urged the Committee to make a decision 
quickly so that the program could proceed.
---------------------------------------------------------------------------
    \4\ GAO; Polar-Orbiting Environmental Satellites: Project Risks 
Could Affect Weather Data Needed by Civilian and Military Users, GAO-
03-987T (Washington, D.C.: July 15, 2003).
    \5\ GAO-04-1054.
---------------------------------------------------------------------------
    However, we subsequently reported that, in late November 2005, 
NPOESS cost growth exceeded a legislatively mandated threshold that 
requires DOD to certify the program to Congress.\6\ This placed any 
decision about the future direction of the program on hold until the 
certification took place in June 2006. In the meantime, the program 
office implemented an interim program plan for Fiscal Year 2006 to 
continue work on key sensors and other program elements using Fiscal 
Year 2006 funding.
---------------------------------------------------------------------------
    \6\ GAO, Polar-orbiting Operational Environmental Satellites: Cost 
Increases Trigger Review and Place Program's Direction on Hold, GAO-06-
573T (Washington, D.C.: Mar. 30, 2006).
---------------------------------------------------------------------------
Nunn-McCurdy Process Led To a Decision To Restructure the NPOESS 
        Program
    The Nunn-McCurdy law requires DOD to take specific actions when a 
major defense acquisition program exceeds certain cost increase 
thresholds.\7\ The law requires the Secretary of Defense to notify 
Congress when a major defense acquisition is expected to overrun its 
project baseline by 15 percent or more and to certify the program to 
Congress when it is expected to overrun its baseline by 25 percent or 
more.\8\ In late November 2005, NPOESS exceeded the 25 percent 
threshold, and DOD was required to certify the program. Certifying the 
program entailed providing a determination that (1) the program is 
essential to national security, (2) there are no alternatives to the 
program that will provide equal or greater military capability at less 
cost, (3) the new estimates of the program's cost are reasonable, and 
(4) the management structure for the program is adequate to manage and 
control costs. DOD established tri-agency teams--made up of DOD, NOAA, 
and NASA experts--to work on each of the four elements of the 
certification process.
---------------------------------------------------------------------------
    \7\ 10 U.S.C Sec. 2433 is commonly referred to as Nunn-McCurdy.
    \8\ 10 U.S.C. Sec. 2433(e)(2).
---------------------------------------------------------------------------
    In June 2006, DOD (with the agreement of both of its partner 
agencies) certified a restructured NPOESS program, estimated to cost 
$12.5 billion through 2026.\9\ This decision approved a cost increase 
of $4 billion over the prior approved baseline cost and delayed the 
launch of NPP and the first two satellites by roughly 3 to 5 years. The 
new program also entailed establishing a stronger program management 
structure, reducing the number of satellites to be produced and 
launched from 6 to 4, and reducing the number of instruments on the 
satellites from 13 to 9--consisting of 7 environmental sensors and 2 
subsystems. It also entailed using NPOESS satellites in the early 
morning and afternoon orbits and relying on European satellites for 
mid-morning orbit data.\10\ Table 3 summarizes the major program 
changes made under the Nunn-McCurdy certification decision.
---------------------------------------------------------------------------
    \9\ DOD estimated that the acquisition portion of the certified 
program would cost $11.5 billion. The acquisition portion includes 
satellite development, production, and launch, but not operations and 
support costs after launch. When combined with an estimated $1 billion 
for operations and support after launch, this brings the program life 
cycle cost to $12.5 billion.
    \10\ The European Organization for the Exploitation of 
Meteorological Satellites' MetOp program is a series of three polar-
orbiting satellites dedicated to operational meteorology. MetOp 
satellites are planned to be launched sequentially over 14 years.



------------------------------------------------------------------------



            Table 3: Summary of Changes to the NPOESS Program
------------------------------------------------------------------------
                   Program before the Nunn-    Program after the Nunn-
     Key area          McCurdy decision           McCurdy decision
------------------------------------------------------------------------
Life cycle range   1995-2020                1995-2026
------------------------------------------------------------------------
Estimated life     $8.4 billion             $12.5 billion
 cycle cost
------------------------------------------------------------------------
Launch schedule    NPP by October 2006      NPP by January 2010
                   First NPOESS by          First NPOESS by January 2013
                    November 2009           Second NPOESS by January
                   Second NPOESS by June     2016
                    2011
------------------------------------------------------------------------
Management         System Program Director  System Program Director is
 structure          reports to a tri-        responsible for day-to-day
                    agency steering          program management and
                    committee and the tri-   reports to the Program
                    agency Executive         Executive Officer
                    Committee               Program Executive Officer
                   Independent program       oversees program and
                    reviews noted            reports to the tri-agency
                    insufficient system      Executive Committee
                    engineering and cost
                    analysis staff
------------------------------------------------------------------------
Number of          6 (in addition to NPP)   4 (in addition to NPP)
 satellites
------------------------------------------------------------------------
Number of orbits   3 (early morning,        2 (early morning and
                    midmorning, and          afternoon; will rely on
                    afternoon)               European satellites for
                                             midmorning orbit data)
------------------------------------------------------------------------
Number and         13 instruments (10       9 instruments (7 sensors and
 complement of      sensors and 3            2 subsystems);
 instruments        subsystems)             4 of the sensors are to
                                             provide fewer capabilities
------------------------------------------------------------------------
Number of EDRs     55                       39 (6 are to be degraded
                                             products)
------------------------------------------------------------------------
Source: GAO analysis of NPOESS program office data.

    The Nunn-McCurdy certification decision established new milestones 
for the delivery of key program elements, including launching NPP by 
January 2010,\11\ launching the first NPOESS satellite (called C1) by 
January 2013, and launching the second NPOESS satellite (called C2) by 
January 2016. These revised milestones deviated from prior plans to 
have the first NPOESS satellite available to back up the final POES 
satellite should anything go wrong during that launch.
---------------------------------------------------------------------------
    \11\ According to program officials, although the Nunn-McCurdy 
certification decision specifies NPP is to launch by January 2010, NASA 
plans to launch it by September 2009 to reduce the possibility of a 
climate data continuity gap.
---------------------------------------------------------------------------
    Delaying the launch of the first NPOESS satellite means that if the 
final POES satellite fails on launch, satellite data users would need 
to rely on the existing constellation of environmental satellites until 
NPP data becomes available--almost 2 years later. Although NPP was not 
intended to be an operational asset, NASA agreed to move it to a 
different orbit so that its data would be available in the event of a 
premature failure of the final POES satellite. However, NPP will not 
provide all of the operational capability planned for the NPOESS 
spacecraft. If the health of the existing constellation of satellites 
diminishes--or if NPP data is not available, timely, and reliable--then 
there could be a gap in environmental satellite data.
    In order to reduce program complexity, the Nunn-McCurdy 
certification decision decreased the number of NPOESS sensors from 13 
to 9 and reduced the functionality of 4 sensors. Specifically, of the 
13 original sensors, 5 sensors remain unchanged, 3 were replaced with 
less capable sensors, 1 was modified to provide less functionality, and 
4 were canceled. Table 4 shows the changes to NPOESS sensors, including 
the 4 identified as critical sensors.



------------------------------------------------------------------------



 Table 4: Changes to NPOESS Instruments (critical sensors are in italic)
------------------------------------------------------------------------
                          Status of
                       instrument after
     Instrument       the Nunn- McCurdy         Change description
                           decision
------------------------------------------------------------------------
ATMS                  Unchanged          Sensor is to be included on NPP
                                          and on the first and third
                                          NPOESS satellites.
------------------------------------------------------------------------
Aerosol polarimetry   Cancelled          Sensor was cancelled, but could
 sensor                                   be reintegrated on future
                                          NPOESS satellites should
                                          another party choose to fund
                                          it.a
------------------------------------------------------------------------
CMIS                  Replaced           CMIS sensor was cancelled, and
                                          the program office is to
                                          procure a less complex
                                          Microwave imager/sounder for
                                          inclusion on the second,
                                          third, and fourth NPOESS
                                          satellites.
------------------------------------------------------------------------
CrIS                  Unchanged          Sensor is to be included on NPP
                                          and on the first and third
                                          NPOESS satellites.
------------------------------------------------------------------------
Data collection       Unchanged          Subsystem is to be included on
 system                                   all four NPOESS satellites.
------------------------------------------------------------------------
Earth radiation       Replaced           Sensor was cancelled, and is to
 budget sensor                            be replaced on the first
                                          NPOESS satellite (and no
                                          others) by an existing sensor
                                          with fewer capabilities called
                                          the Clouds and the Earth's
                                          Radiant Energy System.
------------------------------------------------------------------------
OMPS                  Modified           One part of the sensor, called
                                          OMPS (nadir), is to be
                                          included on NPP and on the
                                          first and third NPOESS
                                          satellites; the remaining
                                          part, called OMPS (limb), was
                                          cancelled on the NPOESS
                                          satellites, but will be
                                          included on NPP a Radar
                                          altimeter Cancelled Sensor was
                                          cancelled, but could be
                                          reintegrated on future NPOESS
                                          satellites should another
                                          party choose to fund it.a
------------------------------------------------------------------------
Search and rescue     Unchanged          Subsystem is to be included on
 satellite aided                          all four NPOESS satellites.
 tracking system
------------------------------------------------------------------------
Space environmental   Replaced           Sensor is to be replaced by a
 sensor suite                             less capable, less expensive,
                                          legacy sensor called the Space
                                          Environment Monitor on the
                                          first and third NPOESS
                                          satellites.
------------------------------------------------------------------------
Survivability sensor  Cancelled          Subsystem contract was
                                          cancelled, but could be
                                          reintegrated on future NPOESS
                                          satellites should another
                                          party choose to fund it.a
------------------------------------------------------------------------
Total solar           Cancelled          Sensor contract was cancelled,
 irradiance sensor                        but could be reintegrated on
                                          future NPOESS satellites
                                          should another party choose to
                                          fund it.a
------------------------------------------------------------------------
VIIRS                 Unchanged          Sensor is to be included on NPP
                                          and on all four NPOESS
                                          satellites.
------------------------------------------------------------------------
Source: GAO analysis of NPOESS program office data.
a Although direct program funding for these instruments was eliminated,
  the instruments could be reintegrated on NPOESS satellites should
  other parties choose to fund them. The Nunn-McCurdy decision requires
  the program office to allow sufficient space on the spacecraft for
  these instruments and to provide the funding needed to integrate them.

    The changes in NPOESS sensors affected the number and quality of 
the resulting weather and environmental products, called environmental 
data records or EDRs. In selecting sensors for the restructured 
program, the agencies placed the highest priority on continuing current 
operational weather capabilities and a lower priority on obtaining 
selected environmental and climate measuring capabilities. As a result, 
the revised NPOESS system has significantly less capability for 
providing global climate measures than was originally planned. 
Specifically, the number of EDRs was decreased from 55 to 39, of which 
6 are of a reduced quality. The 39 EDRs that remain include cloud base 
height, land surface temperature, precipitation type and rate, and sea 
surface winds. The 16 EDRs that were removed include cloud particle 
size and distribution, sea surface height, net solar radiation at the 
top of the atmosphere, and products to depict the electric fields in 
the space environment. The 6 EDRs that are of a reduced quality include 
ozone profile, soil moisture, and multiple products depicting energy in 
the space environment.

NPOESS Acquisition Restructuring Is Well Under Way, but Key Steps 
        Remain To Be Completed
    Since the June 2006 decision to revise the scope, cost, and 
schedule of the NPOESS program, the program office has made progress in 
restructuring the satellite acquisition; however, important tasks 
remain to be done. Restructuring a major acquisition program like 
NPOESS is a process that involves identifying time-critical and high-
priority work and keeping this work moving forward, while reassessing 
development priorities, interdependencies, deliverables, risks, and 
costs. It also involves revising important acquisition documents 
including the Memorandum of Agreement on the roles and responsibilities 
of the three agencies, the acquisition strategy, the system engineering 
plan, the test and evaluation master plan, the integrated master 
schedule defining what needs to happen by when, and the acquisition 
program baseline. Specifically, the Nunn-McCurdy certification decision 
required the Secretaries of Defense and Commerce and the Administrator 
of NASA to sign a revised Memorandum of Agreement by August 6, 2006. It 
also required that the program office, Program Executive Officer, and 
the Executive Committee revise and approve key acquisition documents 
including the acquisition strategy and system engineering plan by 
September 1, 2006, in order to proceed with the restructuring. Once 
these are completed, the program office can proceed to negotiate with 
its prime contractor on a new program baseline defining what will be 
delivered, by when, and at what cost.
    The NPOESS program office has made progress in restructuring the 
acquisition. Specifically, the program office has established interim 
program plans guiding the contractor's work activities in 2006 and 2007 
and has made progress in implementing these plans. The program office 
and contractor also developed an integrated master schedule for the 
remainder of the program--beyond Fiscal Year 2007. This integrated 
master schedule details the steps leading up to launching NPP by 
September 2009, launching the first NPOESS satellite in January 2013, 
and launching the second NPOESS satellite in January 2016. Near-term 
steps include completing and testing the VIIRS, CrIS, and OMPS sensors; 
integrating these sensors with the NPP spacecraft and completing 
integration testing; completing the data processing system and 
integrating it with the command, control, and communications segment; 
and performing advanced acceptance testing of the overall system of 
systems for NPP.
    However, key steps remain for the acquisition restructuring to be 
completed. Although the program office made progress in revising key 
acquisition documents, including the system engineering plan, the test 
and evaluation master plan, and the acquisition strategy plan, it has 
not yet obtained the approval of the Secretaries of Commerce and 
Defense and the Administrator of NASA on the Memorandum of Agreement 
among the three agencies, nor has it obtained the approval of the 
NPOESS Executive Committee on the other key acquisition documents. As 
of June 2007, these approvals are over 9 months past due. Agency 
officials noted that the September 1, 2006, due date for the key 
acquisition documents was not realistic given the complexity of 
coordinating documents among three different agencies.
    Finalizing these documents is critical to ensuring interagency 
agreement and will allow the program office to move forward in 
completing other activities related to restructuring the program. These 
other activities include completing an integrated baseline review with 
the contractor to reach agreement on the schedule and work activities, 
and finalizing changes to the NPOESS development and production 
contract. Program costs are also likely to be adjusted during upcoming 
negotiations on contract changes--an event that the Program Director 
expects to occur in July 2007. Completion of these activities will 
allow the program office to lock down a new acquisition baseline cost 
and schedule. Until key acquisition documents are finalized and 
approved, the program faces increased risk that it will not be able to 
complete important restructuring activities in time to move forward in 
Fiscal Year 2008 with a new program baseline in place. This places the 
NPOESS program at risk of continued delays and future cost increases.

Progress Has Been Made in Establishing an Effective NPOESS Management 
        Structure, but Executive Turnover Increases Risks and Staffing 
        Problems Remain
    The NPOESS program has made progress in establishing an effective 
management structure, but--almost a year after this structure was 
endorsed during the Nunn-McCurdy certification process--the Integrated 
Program Office still faces staffing problems. Over the past few years, 
we and others have raised concerns about management problems at all 
levels of the NPOESS program, including subcontractor and contractor 
management, program office management, and executive-level 
management.\12\ Two independent review teams also noted a shortage of 
skilled program staff, including budget analysts and system engineers. 
Since that time, the NPOESS program has made progress in establishing 
an effective management structure--including establishing a new 
organizational framework with increased oversight by program 
executives, instituting more frequent subcontractor, contractor, and 
program reviews, and effectively managing risks and performance. 
However, DOD's plans for reassigning the Program Executive Officer in 
the summer of 2007 increase the program's risks. Additionally, the 
program lacks a staffing process that clearly identifies staffing 
needs, gaps, and plans for filling those gaps. As a result, the program 
office has experienced delays in getting core management activities 
under way and lacks the staff it needs to execute day-to-day management 
activities.
---------------------------------------------------------------------------
    \12\ GAO-06-249T; U.S. Department of Commerce, Office of the 
Inspector General, Poor Management Oversight and Ineffective Incentives 
Leave NPOESS Program Well Over Budget and Behind Schedule, OIG-17794-6-
0001/2006 (Washington, D.C.: May 2006). In addition, two independent 
teams reviewed the NPOESS program in 2005: A NASA-led Independent 
Review Team investigated problems with the VIIRS sensor and the impact 
on NPP, and a DOD-led Independent Program Assessment Team assessed the 
broader NPOESS program. The teams briefed the NPOESS Executive 
Committee on their findings in August 2005 and November 2005, 
respectively.
---------------------------------------------------------------------------
NPOESS Program Has Made Progress in Establishing an Effective 
        Management Structure and Increasing Oversight Activities, but 
        Executive Turnover Will Increase Program Risks
    The NPOESS program has made progress in establishing an effective 
management structure and increasing the frequency and intensity of its 
oversight activities. Over the past few years, we and others have 
raised concerns about management problems at all levels of management 
on the NPOESS program, including subcontractor and contractor 
management, program office management, and executive-level management. 
In response to recommendations made by two different independent review 
teams, the program office began exploring options in late 2005 and 
early 2006 for revising its management structure.
    In November 2005, the Executive Committee established and filled a 
Program Executive Officer position, senior to the NPOESS Program 
Director, to streamline decisionmaking and to provide oversight to the 
program. This Program Executive Officer reports directly to the 
Executive Committee. Subsequently, the Program Executive Officer and 
the Program Director proposed a revised organizational framework that 
realigned division managers within the Integrated Program Office 
responsible for overseeing key elements of the acquisition and 
increased staffing in key areas. In June 2006, the Nunn-McCurdy 
certification decision approved this new management structure and the 
Integrated Program Office implemented it. Figure 3 provides an overview 
of the relationships among the Integrated Program Office, the Program 
Executive Office, and the Executive Committee, as well as key divisions 
within the program office.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Operating under this new management structure, the program office 
implemented more rigorous and frequent subcontractor, contractor, and 
program reviews, improved visibility into risk management and 
mitigation activities, and institutionalized the use of earned value 
management techniques to monitor contractor performance. In addition to 
these program office activities, the Program Executive Officer 
implemented monthly program reviews and increased the frequency of 
contacts with the Executive Committee. The Program Executive Officer 
briefs the Executive Committee in monthly letters, apprising committee 
members of the program's status, progress, risks, and earned value, and 
the Executive Committee now meets on a quarterly basis--whereas in the 
recent past, we reported that the Executive Committee had met only five 
times in 2 years.\13\
---------------------------------------------------------------------------
    \13\ GAO-06-249T.
---------------------------------------------------------------------------
    Although the NPOESS program has made progress in establishing an 
effective management structure, this progress is currently at risk. We 
recently reported that DOD space acquisitions are at increased risk due 
in part to frequent turnover in leadership positions, and we suggested 
that addressing this will require DOD to consider matching officials' 
tenure with the development or delivery of a product.\14\ In March 
2007, NPOESS program officials stated that DOD is planning to reassign 
the recently appointed Program Executive Officer in the summer of 2007 
as part of this executive's natural career progression. As of June 
2007, the Program Executive Officer has held this position for 19 
months. Given that the program is currently still being restructured, 
and that there are significant challenges in being able to meet 
critical deadlines to ensure satellite data continuity, such a move 
adds unnecessary risk to an already risky program.
---------------------------------------------------------------------------
    \14\ GAO, Space Acquisitions: Improvements Needed in Space 
Acquisitions and Keys to Achieving Them, GAO-06-626T (Washington, D.C.: 
Apr. 6, 2006).
---------------------------------------------------------------------------
NPOESS Program Has Filled Key Vacancies but Lacks a Programwide 
        Staffing Process
    The NPOESS program office has filled key vacancies but lacks a 
staffing process that identifies programwide staffing requirements and 
plans for filling those needed positions. Sound human capital 
management calls for establishing a process or plan for determining 
staffing requirements, identifying any gaps in staffing, and planning 
to fill critical staffing gaps. Program office staffing is especially 
important for NPOESS, given the acknowledgment by multiple independent 
review teams that staffing shortfalls contributed to past problems. 
Specifically, these review teams noted shortages in the number of 
system engineers needed to provide adequate oversight of subcontractor 
and contractor engineering activities and in the number of budget and 
cost analysts needed to assess contractor cost and earned value 
reports. To rectify this situation, the June 2006 certification 
decision directed the Program Director to take immediate actions to 
fill vacant positions at the program office with the approval of the 
Program Executive Officer.
    Since the June 2006 decision to revise NPOESS management structure, 
the program office has filled multiple critical positions, including a 
budget officer, a chief system engineer, an algorithm division chief, 
and a contracts director. In addition, on an ad hoc basis, individual 
division managers have assessed their needs and initiated plans to hire 
staff for key positions. However, the program office lacks a 
programwide process for identifying and filling all needed positions. 
As a result, division managers often wait months for critical positions 
to be filled. For example, in February 2006, the NPOESS program 
estimated that it needed to hire up to 10 new budget analysts. As of 
September 2006, none of these positions had been filled. As of April 
2007, program officials estimated that they still needed to fill 5 
budget analyst positions, 5 systems engineering positions, and 10 
technical manager positions. The majority of the vacancies--4 of the 5 
budget positions, 4 of the 5 systems engineering positions, and 8 of 
the 10 technical manager positions--are to be provided by NOAA. NOAA 
officials noted that each of these positions is in some stage of being 
filled--that is, recruitment packages are being developed or reviewed, 
vacancies are being advertised, or candidates are being interviewed, 
selected, and approved.
    The program office attributes its staffing delays to not having the 
right personnel in place to facilitate this process, and it did not 
even begin to develop a staffing process until November 2006. Program 
officials noted that the tri-agency nature of the program adds unusual 
layers of complexity to the hiring and administrative functions because 
each agency has its own hiring and performance management rules. In 
November 2006, the program office brought in an administrative officer 
who took the lead in pulling together the division managers' individual 
assessments of needed staff and has been working with the division 
managers to refine this list. This new administrative officer plans to 
train division managers in how to assess their needs and to hire needed 
staff, and to develop a process by which evolving needs are identified 
and positions are filled. However, there is as yet no date set for 
establishing this basic programwide staffing process. As a result of 
the lack of a programwide staffing process, there has been an extended 
delay in determining what staff is needed and in bringing those staff 
on board; this has resulted in delays in performing core activities, 
such as establishing the program office's cost estimate and bringing in 
needed contracting expertise. Additionally, until a programwide 
staffing process is in place, the program office risks not having the 
staff it needs to execute day-to-day management activities.
    In commenting on a draft of our report, Commerce stated that NOAA 
implemented an accelerated hiring model. More recently, the NPOESS 
program office reported that several critical positions were filled in 
April and May 2007. However, we have not yet evaluated NOAA's 
accelerated hiring model and, as of June 2007, about 10 key positions 
remained to be filled.

Major Program Segments Are Under Development, but Significant Risks 
        Remain
    Major segments of the NPOESS program--the space segment and ground 
systems segment--are under development; however, significant problems 
have occurred and risks remain. The program office is aware of these 
risks and is working to mitigate them, but continued problems could 
affect the program's overall cost and schedule. Given the tight time-
frames for completing key sensors, integrating them on the NPP 
spacecraft, and developing, testing, and deploying the ground-based 
data processing systems, it will be important for the NPOESS Integrated 
Program Office, the Program Executive Office, and the Executive 
Committee to continue to provide close oversight of milestones and 
risks.

Space Segment--Progress Made, but Key Sensors Continue To Face Major 
        Risks
    The space segment includes the sensors and the spacecraft. Four 
sensors are of critical importance--VIIRS, CrIS, OMPS, and ATMS--
because they are to be launched on the NPP satellite in September 2009. 
Initiating work on another sensor, the Microwave imager/sounder, is 
also important because this new sensor--replacing the canceled CMIS 
sensor--will need to be developed in time for the second NPOESS 
satellite launch. Over the past year, the program made progress on each 
of the sensors and the spacecraft. However, two sensors, VIIRS and 
CrIS, have experienced major problems. The status of each of the 
components of the space segment is described in table 5.



------------------------------------------------------------------------



Table 5: Status of Selected Components of the Space Segment, as of April
                                  2007
------------------------------------------------------------------------
   Space segment
     component          Risk level                  Status
------------------------------------------------------------------------
VIIRS                High             VIIRS development has continued in
                                       2006 and in early 2007. In
                                       December 2006, the contractor
                                       completed environmental tests of
                                       VIIRS's engineering design unit
                                       (a prototype) and identified
                                       three problems.a While these
                                       problems were being studied, the
                                       program office approved the
                                       delivery of the engineering unit
                                       to the subcontractor responsible
                                       for integration and testing on
                                       NPP. In late February 2007,
                                       program officials determined that
                                       the contractor was able to
                                       mitigate all but one of the
                                       problems, and they approved the
                                       flight unit to proceed to system
                                       level integration with a goal of
                                       resolving the final problem
                                       before a technical readiness
                                       review milestone. VIIRS flight
                                       unit is scheduled to be delivered
                                       to NPP by July 2008.
------------------------------------------------------------------------
CrIS                 High             Development of CrIS was put on
                                       hold in October 2006 when the
                                       flight unit designated to go on
                                       NPP experienced a major
                                       structural failure during its
                                       vibration testing. As of March
                                       2007, a failure review board
                                       established by the contractors
                                       and the NPOESS program office
                                       identified causes for failure and
                                       has planned an approach to
                                       completing flight unit
                                       development and delivery for NPP.
                                       The review board has also
                                       initiated inspections of all
                                       sensor modules and subsystems for
                                       damage. The program office
                                       expects to restart acceptance
                                       testing in July 2007, and the
                                       CrIS flight unit is expected to
                                       be delivered to NPP by February
                                       2008.
------------------------------------------------------------------------
OMPS                 Moderate         As part of the Nunn-McCurdy
                                       certification in June 2006, one
                                       element of the OMPS sensor,
                                       called OMPS (limb), was removed
                                       from the program. In February
                                       2007, program officials agreed to
                                       reintegrate OMPS (limb) on NPP if
                                       NOAA and NASA would fund it. This
                                       funding was approved in early
                                       April 2007. OMPS is currently on
                                       schedule for delivery to NPP by
                                       May 2008; however, there are
                                       concerns that the OMPS flight
                                       unit delivery will be so late in
                                       the integration testing process
                                       that there could be an
                                       insufficient schedule margin
                                       should a problem arise.
------------------------------------------------------------------------
ATMS                 Low              The ATMS flight unit for NPP was
                                       developed by a NASA contractor
                                       and delivered to the program in
                                       October 2005. NASA integrated the
                                       flight unit on the spacecraft and
                                       is awaiting delivery of the other
                                       sensors in order to complete
                                       integration testing.
------------------------------------------------------------------------
Microwave imager/    Not yet rated    A new microwave imager/sounder
 sounder                               sensor is being planned to
                                       replace the cancelled CMIS
                                       sensor. It is planned to be ready
                                       for the launch on the second
                                       NPOESS satellite. In October
                                       2006, the program office issued a
                                       request for information seeking
                                       industry ideas for the design of
                                       the new sensor. The program
                                       office anticipates awarding a
                                       contract to develop the sensor by
                                       October 2008.
------------------------------------------------------------------------
Spacecraft           Low              The development of the spacecrafts
                                       for NPP and NPOESS are on track.
                                       The NPP spacecraft was completed
                                       in June 2005. Integration testing
                                       will be conducted once the NPP
                                       sensors are delivered.
                                      Early issues with the NPOESS
                                       spacecraft (including issues with
                                       antennas and a data storage unit)
                                       have been resolved; however,
                                       risks remain that could delay the
                                       completion of the spacecraft. A
                                       key risk involves delays in the
                                       delivery of the solar array,
                                       which may arrive too late to be
                                       included in some key testing.
                                       Other risks associated with the
                                       electrical power subsystem are
                                       taking longer than anticipated to
                                       resolve.
------------------------------------------------------------------------
Source: GAO analysis of NPOESS Integrated Program Office data.
a The three problems are (1) band-to-band co-registration, an issue in
  which band registration shifts with different temperatures; (2) cross-
  talk, which involves information from sensor cells leaking into other
  cells; and (3) line-spread function issues, in which the instrument's
  focus changes with changes in temperature.

    Managing the risks associated with the development of VIIRS and 
CrIS is of particular importance because these components are to be 
demonstrated on the NPP satellite, currently scheduled for launch in 
September 2009. Any delay in the NPP launch date could affect the 
overall NPOESS program, because the success of the program depends on 
the lessons learned in data processing and system integration from the 
NPP satellite. Additionally, continued sensor problems could lead to 
higher final program costs.

Ground Segment--Progress Has Been Made, but Work Remains
    Development of the ground segment--which includes the interface 
data processing system, the ground stations that are to receive 
satellite data, and the ground-based command, control, and 
communications system--is under way and on track. However, important 
work pertaining to developing the algorithms that translate satellite 
data into weather products within the integrated data processing 
segment remains to be completed. Table 6 describes each of the 
components of the ground segment and identifies the status of each.



------------------------------------------------------------------------



     Table 6: Status of Ground Segment Components, as of April 2007
------------------------------------------------------------------------
   Ground segment
     component/         Risk level                  Status
     description
------------------------------------------------------------------------
Interface Data        Moderate       IDPS is being developed in a series
 Processing                           of builds. Currently, IDPS build
System (IDPS):                        1.4 has been delivered for testing
A ground-based                        and recently passed two key data
 system that is to                    transfer tests. Contractors are
 process the                          currently working to develop IDPS
 sensors' data so                     build 1.5, which is expected to be
 that they are                        the build that will be used with
 usable by the data                   NPP. However, work remains in
 processing centers                   three areas: system latency,
 and the broader                      algorithm performance, and
 community of                         calibration and validation
 environmental data                   planning.
 users. IDPS will be                 Latency--IDPS must process volumes
 deployed at the                      of data within 65 minutes to meet
 four weather data                    NPP requirements. The contractor
 processing centers.                  has made progress in reducing the
                                      latency of the system's data
                                      handling from 93 minutes to 73
                                      minutes and is working to reduce
                                      it by 8 minutes more by resolving
                                      data management issues, increasing
                                      the number of processors, and
                                      increasing algorithm efficiency.
                                     Algorithm performance--IDPS
                                      algorithms are the mathematical
                                      functions coded into the system
                                      software that transform raw data
                                      into data products, including
                                      sensor data records and
                                      environmental data records. IDPS
                                      build 1.4 contains provisional
                                      algorithms, which are being
                                      refined as the sensors complete
                                      various stages of testing. Because
                                      some sensors are delayed, full
                                      characterization of those sensors
                                      in order to refine the algorithms
                                      has also been delayed and may not
                                      be completed in time for the
                                      delivery of IDPS build 1.5 in
                                      early 2009. If this occurs, agency
                                      officials plan to improve the
                                      algorithms in build 1.5 during a
                                      planned maintenance upgrade prior
                                      to NPP launch. Calibration/
                                      validation--Calibration/validation
                                      is the process for tweaking
                                      algorithms to provide more
                                      accurate observations. The
                                      contractor has documented a
                                      detailed schedule for calibration
                                      and validation during IDPS
                                      development and is developing a
                                      postlaunch task list to drive
                                      prelaunch preparation efforts.
                                      However, much work and uncertainty
                                      continue to exist in the
                                      calibration and validation area. A
                                      program official noted that, while
                                      teams can do a lot of preparation
                                      work, including building the
                                      infrastructure to allow sensor
                                      testing and having a good
                                      understanding of the satellite,
                                      sensors, and available data for
                                      calibration, many issues need to
                                      take place after launch.
------------------------------------------------------------------------
Ground stations for   Low            NOAA is working with domestic and
 receiving                            foreign authorities to gain
satellite data:                       approval to operate ground
15 unmanned ground                    stations to receive satellite
 stations around the                  data. According to agency
 world (called                        officials, the full complement of
 SafetyNetTM) are to                  ground stations will not be in
 receive satellite                    place in time for the C1 launch:
 data and send these                  however, the ground stations will
 to the four data                     be phased in by the launch of C2.
 processing centers.                  To date, the program office has
                                      reached agreement with 4 of 15
                                      ground station sites.
------------------------------------------------------------------------
Source: GAO analysis of NPOESS program office data.

    Managing the risks associated with the development of the IDPS 
system is of particular importance because this system will be needed 
to process NPP data.
Implementation of GAO Recommendations Should Reduce Risk
    Because of the importance of effectively managing the NPOESS 
program to ensure that there are no gaps in the continuity of critical 
weather and environmental observations, in our April 2007 report,\15\ 
we made recommendations to the Secretaries of Defense and Commerce and 
to the Administrator of NASA to ensure that the responsible executives 
within their respective organizations approve key acquisition 
documents, including the Memorandum of Agreement among the three 
agencies, the system engineering plan, the test and evaluation master 
plan, and the acquisition strategy, as quickly as possible but no later 
than April 30, 2007. We also recommended that the Secretary of Defense 
direct the Air Force to delay reassigning the recently appointed 
Program Executive Officer until all sensors have been delivered to the 
NPOESS Preparatory Program; these deliveries are currently scheduled to 
occur by July 2008. We also made two additional recommendations to the 
Secretary of Commerce to (1) develop and implement a written process 
for identifying and addressing human capital needs and for streamlining 
how the program handles the three different agencies' administrative 
procedures and (2) establish a plan for immediately filling needed 
positions.
---------------------------------------------------------------------------
    \15\ GAO-07-498.
---------------------------------------------------------------------------
    In written comments, all three agencies agreed that it was 
important to finalize key acquisition documents in a timely manner, and 
DOD proposed extending the due dates for the documents to July 2, 2007. 
DOD subsequently extended the due dates to September and October 2007 
and March 2008 in the case of the test and evaluation master plan. 
Because the NPOESS program office intends to complete contract 
negotiations in July 2007, we remain concerned that any further delays 
in approving the documents could delay contract negotiations and thus 
increase the risk to the program.
    In addition, the Department of Commerce agreed with our 
recommendation to develop and implement a written process for 
identifying and addressing human capital needs and to streamline how 
the program handles the three different agencies' administrative 
procedures. The Department also agreed with our recommendation to plan 
to immediately fill open positions at the NPOESS program office. 
Commerce noted that NOAA identified the skill sets needed for the 
program and has implemented an accelerated hiring model and schedule to 
fill all NOAA positions in the NPOESS program. Commerce also noted that 
NOAA has made NPOESS hiring a high priority and has documented a 
strategy--including milestones--to ensure that all NOAA positions are 
filled by June 2007.
    DOD did not concur with our recommendation to delay reassigning the 
Program Executive Officer, noting that the NPOESS System Program 
Director responsible for executing the acquisition program would remain 
in place for 4 years. The Department of Commerce also noted that the 
Program Executive Officer position is planned to rotate between the Air 
Force and NOAA. Commerce also stated that a selection would be made 
before the departure of the current Program Executive Officer to 
provide an overlap period to allow for knowledge transfer and ensure 
continuity. However, over the last few years, we and others (including 
an independent review team and the Commerce Inspector General) have 
reported that ineffective executive-level oversight helped foster the 
NPOESS program's cost and schedule overruns. We remain concerned that 
reassigning the Program Executive at a time when NPOESS is still facing 
critical cost, schedule, and technical challenges will place the 
program at further risk.
    In addition, while it is important that the System Program Director 
remain in place to ensure continuity in executing the acquisition, this 
position does not ensure continuity in the functions of the Program 
Executive Officer. The current Program Executive Officer is experienced 
in providing oversight of the progress, issues, and challenges facing 
NPOESS and coordinating with Executive Committee members as well as the 
Defense acquisition authorities. Additionally, while the Program 
Executive Officer position is planned to rotate between agencies, the 
Memorandum of Agreement documenting this arrangement is still in draft 
and should be flexible enough to allow the current Program Executive 
Officer to remain until critical risks have been addressed.
    Further, while Commerce plans to allow a period of overlap between 
the selection of a new Program Executive Officer and the departure of 
the current one, time is running out. The current Program Executive 
Officer is expected to depart in early July 2007, and as of early July 
2007, a successor has not yet been named. NPOESS is an extremely 
complex acquisition, involving three agencies, multiple contractors, 
and advanced technologies. There is not sufficient time to transfer 
knowledge and develop the sound professional working relationships that 
the new Program Executive Officer will need to succeed in that role. 
Thus, we remain convinced that given NPOESS current challenges, 
reassigning the current Program Executive Officer at this time is not 
appropriate.

GOES-R: Overview, Issues, and Prior GAO Recommendations
    To provide continuous satellite coverage, NOAA acquires several 
satellites at a time as part of a series and launches new satellites 
every few years (see table 7). To date, NOAA has procured three series 
of GOES satellites and is planning to acquire a fourth series, called 
GOES-R.



------------------------------------------------------------------------



           Table 7: Summary of the Procurement History of GOES
------------------------------------------------------------------------
     Series name        Procurement durationa           Satellites
------------------------------------------------------------------------
Original GOESb        1970-1987                  1, 2, 3, 4, 5, 6, 7
------------------------------------------------------------------------
GOES I-M              1985-2001                  8, 9, 10, 11, 12
------------------------------------------------------------------------
GOES-N                1998-2011                  13, O, P, Qc
------------------------------------------------------------------------
GOES-R                2007-2020                  R, S, T, Ud
------------------------------------------------------------------------
Source: GAO analysis of NOAA data.
a Duration includes time from contract award to final satellite launch.
b The procurement of these satellites consisted of four separate
  contracts for (1) two early prototype satellites and GOES-1, (2) GOES-
  2 and -3, (3) GOES-4 through -6, and (4) GOES-G (failed on launch) and
  GOES-7.
c NOAA decided not to exercise the option for this satellite.
d NOAA recently decided to drop satellites T and U from this series, but
  is now reconsidering that decision.

Original GOES Satellites
    In 1970, NOAA initiated its original GOES program based on 
experimental geostationary satellites developed by NASA. While these 
satellites operated effectively for many years, they had technical 
limitations. For example, this series of satellites was ``spin-
stabilized,'' meaning that the satellites slowly spun while in orbit to 
maintain a stable position with respect to the Earth. As a result, the 
satellite viewed the Earth only about 5 percent of the time and had to 
collect data very slowly, capturing one narrow band of data each time 
its field-of-view swung past the Earth. A complete set of sounding data 
took 2 to 3 hours to collect.

GOES I-M Series
    In 1985, NOAA and NASA began to procure a new generation of GOES, 
called the GOES I-M series, based on a set of requirements developed by 
NOAA's National Weather Service, NESDIS, and NASA, among others. GOES 
I-M consisted of five satellites, GOES-8 through GOES-12, and was a 
significant improvement in technology from the original GOES 
satellites. For example, GOES I-M was ``body-stabilized,'' meaning that 
the satellite held a fixed position in orbit relative to the Earth, 
thereby allowing for continuous meteorological observations. Instead of 
maintaining stability by spinning, the satellite would preserve its 
fixed position by continuously making small adjustments in the rotation 
of internal momentum wheels or by firing small thrusters to compensate 
for drift. These and other enhancements meant that the GOES I-M 
satellites would be able to collect significantly better quality data 
more quickly than the older series of satellites.

GOES-N Series
    In 1998, NOAA began the procurement of satellites to follow GOES I-
M, called the GOES-N series. This series used existing technologies for 
the instruments and added system upgrades, including an improved power 
subsystem and enhanced satellite pointing accuracy. Furthermore, the 
GOES-N satellites were designed to operate longer than its 
predecessors. This series originally consisted of four satellites, 
GOES-N through GOES-Q. However, the option for the GOES-Q satellite was 
canceled based on NOAA's assessment that it would not need the final 
satellite to continue weather coverage. In particular, the agency found 
that the GOES satellites already in operation were lasting longer than 
expected and that the first satellite in the next series could be 
available to back up the last of the GOES-N satellites. As noted 
earlier, the first GOES-N series satellite--GOES-13--was launched in 
May 2006. The GOES-O and GOES-P satellites are currently in production 
and are expected to be launched in July 2008 and July 2011, 
respectively.

Planned GOES-R Series
    NOAA is currently planning to procure the next series of GOES 
satellites, called the GOES-R series. NOAA is planning for the GOES-R 
program to improve on the technology of prior GOES series, both in 
terms of system and instrument improvements. The system improvements 
are expected to fulfill more demanding user requirements and to provide 
more rapid information updates. Table 8 highlights key system-related 
improvements that GOES-R is expected to make to the geostationary 
satellite program.



------------------------------------------------------------------------



           Table 8: Summary of Key GOES-R System Improvements
------------------------------------------------------------------------
        Key feature            GOES-N (current)            GOES-R
------------------------------------------------------------------------
Total products              41                      152
------------------------------------------------------------------------
Downlink rate of raw data   2.6 Mbps                132 Mbps
 collected by instruments
 (from satellite to ground
 stations)
------------------------------------------------------------------------
Broadcast rate of           2.1 Mbps                17-24 Mbps
 processed GOES data (from
 satellite to users)
------------------------------------------------------------------------
Raw data storage (the       0 days                  30 days
 length of time that raw
 data will be stored at
 ground stations)
------------------------------------------------------------------------
Source: GAO analysis of NOAA data.

    The instruments on the GOES-R series are expected to increase the 
clarity and precision of the observed environmental data. Originally, 
NOAA planned to acquire 5 different instruments. The program office 
considered two of the instruments--the Advanced Baseline Imager and the 
Hyperspectral Environmental Suite--to be the most critical because they 
would provide data for key weather products. Table 9 summarizes the 
originally planned instruments and their expected capabilities.



------------------------------------------------------------------------



      Table 9: Expected GOES-R Series Instruments, as of June 2006
------------------------------------------------------------------------
    Planned instrument                      Description
------------------------------------------------------------------------
Advanced Baseline Imager   Expected to provide variable area imagery and
                            radiometric information of the earth's
                            surface, atmosphere, and cloud cover. Key
                            features include
                             <bullet> monitoring and tracking severe
                            weather,
                             <bullet> providing images of clouds to
                            support forecasts, and
                             <bullet> providing higher resolution,
                            faster coverage, and broader coverage
                            simultaneously.
------------------------------------------------------------------------
Hyperspectral              Expected to provide information about the
 Environmental Suite        earth's surface to aid in the prediction of
                            weather and climate monitoring. Key features
                            include
                             <bullet> providing atmospheric moisture and
                            temperature profiles to support forecasts
                            and climate monitoring,
                             <bullet> monitoring coastal regions for
                            ecosystem health, water quality, coastal
                            erosion, and harmful algal blooms, and
                             <bullet> providing higher resolution and
                            faster coverage.
------------------------------------------------------------------------
Space Environmental In-    Expected to provide information on space
 Situ Suite                 weather to aid in the prediction of particle
                            precipitation, which causes disturbance and
                            disruption of radio communications and
                            navigation systems. Key features include
                             <bullet> measuring magnetic fields and
                            charged particles,
                             <bullet> providing improved heavy ion
                            detection, adding low energy electrons
                            andprotons, and
                             <bullet> enabling early warnings for
                            satellite and power grid operation, telecom
                            services, astronauts, and airlines.
------------------------------------------------------------------------
Solar Imaging Suite        Expected to provide coverage of the entire
                            dynamic range of solar X-ray features, from
                            coronal holes to X-class flares, as well as
                            estimate the measure of temperature and
                            emissions. Key features include
                             <bullet> providing images of the sun and
                            measuring solar output to monitor solar
                            storms and
                             <bullet> providing improved imager
                            capability.
------------------------------------------------------------------------
Geostationary Lightning    Expected to continuously monitor lightning
 Mapper                     activity over the United States and provide
                            a more complete dataset than previously
                            possible. Key features include
                             <bullet> detecting lightning strikes as an
                            indicator of severe storms and
                             <bullet> providing a new capability to GOES
                            that only previously existed on polar
                            satellites.
------------------------------------------------------------------------
Source: GAO analysis of NOAA data.

    After our report was issued, NOAA officials told us that the agency 
decided to cancel its plans for the development of the Hyperspectral 
Environmental Suite, but expected to explore options to ensure the 
continuity of data provided by the current GOES series. Additionally, 
NOAA reduced the number of satellites in the GOES-R series from four to 
two satellites.

The GOES-R Series Procurement Activities Are Under Way, but System 
        Requirements and Cost Estimates May Change
    NOAA is nearing the end of the preliminary design phase of its 
GOES-R system, which was initially estimated to cost $6.2 billion and 
scheduled to have the first satellite ready for launch in 2012. At the 
time of our most recent review in September 2006,\16\ NOAA had issued 
contracts for the preliminary design of the overall GOES-R system to 
three vendors and expected to award a contract to one of these vendors 
in August 2007 to develop the satellites. In addition, to reduce the 
risks associated with developing new instruments, NOAA issued contracts 
for the early development of two instruments and for the preliminary 
designs of three other instruments.
---------------------------------------------------------------------------
    \16\ GAO-06-993.
---------------------------------------------------------------------------
    However, analyses of the GOES-R program cost--which in May 2006 the 
program office estimated could reach $11.4 billion--led the agency to 
consider reducing the scope of requirements for the satellite series. 
In September 2006, NOAA officials reported that the agency had made a 
decision to reduce the scope and complexity of the GOES-R program by 
reducing the number of satellites from 4 to 2 and canceling a 
technically complex instrument--called the Hyperspectral Environmental 
Suite. As of July 2007, agency officials reported that they are 
considering further changes to the scope of the program, which are 
likely to affect the overall program cost. We have work under way to 
evaluate these changes.

Steps Taken To Reduce GOES-R Risk, More Work Remains
    NOAA has taken steps to implement lessons learned from past 
satellite programs, but more remains to be done. As outlined 
previously, key lessons from these programs include the need to (1) 
establish realistic cost and schedule estimates, (2) ensure sufficient 
technical readiness of the system's components prior to key decisions, 
(3) provide sufficient management at government and contractor levels, 
and (4) perform adequate senior executive oversight to ensure mission 
success. NOAA established plans to address these lessons by conducting 
independent cost estimates, performing preliminary studies of key 
technologies, placing resident government offices at key contractor 
locations, and establishing a senior executive oversight committee. 
However, many steps remain to fully address these lessons. 
Specifically, at the time of our review, NOAA had not yet developed a 
process to evaluate and reconcile the independent and government cost 
estimates. In addition, NOAA had not yet determined how it will ensure 
that a sufficient level of technical maturity will be achieved in time 
for an upcoming decision milestone, nor had it determined the 
appropriate level of resources it needs to adequately track and oversee 
the program using earned value management.\17\ Until it completes these 
activities, NOAA faces an increased risk that the GOES-R program will 
repeat the increased cost, schedule delays, and performance shortfalls 
that have plagued past procurements.
---------------------------------------------------------------------------
    \17\ Earned value management is a method that compares the value of 
work accomplished during a given period with that of the work expected 
in that period.
---------------------------------------------------------------------------
Implementation of GAO Recommendations Should Reduce GOES-R Acquisition 
        Risk
    To improve NOAA's ability to effectively manage the GOES-R 
procurement, in our September 2006 report,\18\ we made recommendations 
to the Secretary of Commerce to direct its NOAA Program Management 
Council to establish a process for objectively evaluating and 
reconciling the government and independent life cycle cost estimates 
once the program requirements are finalized; to establish a team of 
system engineering experts to perform a comprehensive review of the 
Advanced Baseline Imager instrument to determine the level of technical 
maturity achieved on the instrument before moving the instrument into 
production; and to seek assistance in determining the appropriate 
levels of resources needed at the program office to adequately track 
and oversee the contractor's earned value management data. In written 
comments at that time, the Department of Commerce agreed with our 
recommendations and provided information on its plans to implement our 
recommendations.
---------------------------------------------------------------------------
    \18\ GAO-06-993.
---------------------------------------------------------------------------
    In summary, both the NPOESS and GOES-R programs are critical to 
developing weather forecasts, issuing severe weather warnings for 
events such as hurricanes, and maintaining continuity in environmental 
and climate monitoring. Over the last several years, the NPOESS program 
experienced cost, schedule, and technical problems, but has now been 
restructured and is making progress. Still, technical and programmatic 
risks remain. The GOES-R program has incorporated lessons from other 
satellite acquisitions, but still faces challenges in establishing the 
management capabilities it needs and in determining the scope of the 
program. We have work under way to evaluate the progress and risks of 
both NPOESS and GOES-R in order to assist with Congressional oversight 
of these critical programs.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or members of the Committee may have at 
this time.

    Senator Nelson. Thanks, Mr. Powner. And we'll have a number 
of questions to follow up on your observations of the system, 
as well as the management.
    Dr. Holland, let's hear your perspective from the National 
Center for Atmospheric Research.

         STATEMENT OF GREG J. HOLLAND, Ph.D., DIRECTOR,

         MESOSCALE AND MICROSCALE METEOROLOGY DIVISION,

                   EARTH SYSTEMS LABORATORY,

            NATIONAL CENTER FOR ATMOSPHERIC RESEARCH

    Dr. Holland. Thank you, Mr. Chairman. And, in particular, 
thank you for the opportunity to address the Committee on the 
importance of hurricane observations. And I'm going to focus on 
the hurricane observations, and I'm going to take those as part 
of the complete forecast process, because I think it is 
important that we do that.
    As you've correctly noted, we came out of a period of low 
hurricane activity in the 1970s and 1980s, into an enhanced 
period starting in 1995. And looking back on that period, it is 
now--it seems inevitable that 2004 and 2005 would eventually 
happen. I think that what it has done is brought us to a 
position where there is genuinely a crisis of hurricane 
proportions in regard to the total observing and forecasting 
process for the country.
    And I might add, also, that this affects all of the 
country. New York--let me take New Orleans, for a start. That 
was an extremely bad disaster, but it pales in significance of 
what could happen with New York if a 
Category<plus-minus>or<greek-b>hurricane came through and 
generated the storm surge that would flood the subways and the 
underground communications and electronics systems. You could 
actually have the situation where the entire city was 
essentially uninhabitable for weeks, or perhaps months, without 
there being any real visible sign of damage above the ground.
    We have--for every dollar that gets spent in coastal 
regions to improve--to repair hurricane damage, there are 
bridges and other facilities in another part of the country 
that did not get built. And our port facilities are all--almost 
all located in hurricane-impacted areas. So, it's a problem 
that really does affect the country from Puerto Rico to Guam 
and from Florida to Alaska.
    It's also a problem that is projected to continue for some 
period. There is no evidence that the problem is going to go 
away in the next decade or two, and is, therefore, something 
that we will see an increasing need to address.
    So, my testimony addresses the entire process, from the 
observing through to the response.
    The observing part has been taken up here, and I 
congratulate and thank the Committee for taking their valuable 
time to address the hurricane--the satellite observing process, 
in general--but it only--also includes how we actually put 
those data into the numerical models and into the analysis 
system. It includes the actual models that are actually used 
for the forecasting. It includes the research that is 
underpinning all of the work that is happening. It includes the 
communications of the result to the general public. And it also 
includes us doing the work that allows us to make projections 
out into the future which are both rational and as accurate as 
possible, so that our children, and our children's children, 
will not have to live with some of the mistakes that we're 
seeing from our parents today.
    So, in specific reference to satellites, I have referred to 
three or four different satellites in there, but I want to 
start by saying that it's often easy to focus on a satellite 
and focus on, say, the North Atlantic or a particular hurricane 
and say, ``What observations have we got on that hurricane?'' 
But I put it to you that the real advantage of the satellite 
system is not the observations taken in the vicinity of the 
hurricane, they are the global observations for which the 
satellites stand alone and shine, that are absolutely essential 
to the forecast process. If an error is made in the analysis in 
China, and, 7 days later, a tropical cyclone is coming into 
Florida, the errors from that analysis can propagate through 
the entire system so that there is actually an error in the 
track of the tropical cyclone coming into Florida simply 
because there were bad data in China. And that is just simply a 
fact of life of the way in which meteorology works.
    So, I've referred to various instruments in there. I'll 
leave it to you and your colleagues to read the details. But I 
do want to go, in my last few minutes, to emphasize the need 
for a integrated approach to this problem.
    After the disastrous 2005 hurricane season, there was--
several peak scientific bodies got together, of which, somehow, 
I was on some, and these included the Hurricane Intensity 
Research Working Group, reporting to the NOAA Science Board, 
the large group of people that reported to the National Science 
Board on the hurricane problem, an AGU meeting of experts, and 
a ad hoc grouping of general experts in tropical cyclones 
across the whole board, that got together and looked at the 
problem. They all came to the same conclusions, and these 
conclusions are embodied in the National Hurricane Research 
Initiative Act of 2007 which is before this Committee. And I 
thank Senator Nelson and your colleagues for having brought it 
to the Committee.
    I urge that you not just address the observing problem, 
that you take the entire problem and give priority attention to 
this important Act.
    [The prepared statement of Dr. Holland follows:]

  Prepared Statement of Greg J. Holland, Ph.D.,<SUP>*</SUP> Director, 
Mesoscale and Microscale Meteorology Division, Earth Systems Laboratory 
         National Center for Atmospheric Research <SUP>**</SUP>

Introduction
    I thank Chairman Inouye, Vice Chairman Stevens, and the other 
members of the Committee for the opportunity to speak with you today on 
the importance of observations in reducing the impacts of hurricanes. 
My name is Greg J. Holland and I am Director of the Mesoscale and 
Microscale Meteorology Division in the Earth Sun Systems Laboratory at 
the National Center for Atmospheric Research (NCAR) in Boulder, 
Colorado. I commenced my career as a weather forecaster and my personal 
research has centered on severe weather, especially hurricanes, and has 
covered all aspects: basic theory; conduct of major field programs; 
development of new observing systems; computer modeling and direct 
operational applications. I have authored or co-authored more than 110 
peer-reviewed scientific journal articles and book chapters. I have 
given several hundred invited talks worldwide, as well as many 
contributed presentations at national and international conferences on 
hurricanes and related events. I have convened several national and 
international workshops, and I have served on several national and 
international science-planning efforts, including Chairmanship of the 
World Meteorological Organization's Tropical Meteorology Research 
Program. Currently, I am serving on the National Research Council Study 
Committee: New Orleans Hurricane Protection and I am a Lead author on 
the U.S. Climate Change Science Program (CCSP) Draft Synthesis and 
Assessment Product 3.3: Weather and Climate Extremes in a Changing 
Climate.
---------------------------------------------------------------------------
    \*\ Any opinions, findings, conclusions, or recommendations 
expressed in this publication are those of the author and do not 
necessarily reflect those of the National Science Foundation.
    \**\ The National Center for Atmospheric Research (NCAR) is 
sponsored by the National Science Foundation.
---------------------------------------------------------------------------
    The work in my division at NCAR (www.mmm.ucar.edu/index.php) 
includes research on the modeling and prediction of hurricanes. We 
developed and are continuously improving the Advanced Weather Research 
and Forecasting (WRF) Model, which is in widespread use for both 
research and operations in over 70 countries. Our scientists have lead 
the development of innovative observing systems extending from 
specialized field instruments to the Constellation Observing System for 
Meteorology, Ionosphere and Climate (COSMIC) satellite system, an 
innovative and inexpensive system to obtain very accurate vertical 
profiles of temperature and water vapor in the global atmosphere for 
use in weather forecasting. And we are currently collaborating with the 
climate community on bringing the best of weather and climate models 
together into a system capable of analysis and prediction across all 
time and space scales.
    In this testimony I address observing systems as a component of a 
complex hurricane forecasting and warning process. The forecast process 
is a delicately balanced chain, starting with the observations of many 
types, moving through analysis and data assimilation, computer 
modeling, preparation of forecasts and warnings, and dissemination to 
the public. It is sometimes unfortunate that debate tends toward 
defense of one observing instrument over another, when in reality it 
should be on maintaining the best possible integrated process. All 
parts of the complex forecast chain are critical to the outcome, which 
must be focused very clearly on providing the best possible forecasts 
and warnings to the American public.
    The U.S. has never been more vulnerable to hurricanes and the 
scientific community is of the strong and considered view that this 
vulnerability will not decrease in the medium term. A warming climate 
also may well create more and more intense hurricanes, although this is 
not certain. Accurate forecasts and warnings of hurricanes are 
therefore a national priority. I urge that the Committee give the 
highest priority to the passage of the National Hurricane Research 
Initiative (NHRI) Act of 2007, as this presents an excellent, well-
considered plan for improving hurricane forecasting through the entire 
chain from observations to warnings and reducing the impacts of these 
dangerous storms.

Background Considerations
U.S. Hurricane Responsibility Regions
    As shown in the accompanying figure from the Interagency Strategic 
Research Plan for Tropical Cyclones: The Way Ahead (ISRP), U.S. 
facilities have responsibility for forecasting in all parts of the 
globe affected by hurricanes. The NOAA Tropical Prediction Center/
National Hurricane Center (NHC) has sole responsibility for the North 
Atlantic and eastern North Pacific Basins. The NOAA Central Pacific 
Hurricane Center (CPHC) has similar responsibilities for the central 
North Pacific region. The remainder of the hurricane globe is routinely 
monitored and warned by the DOD Joint Typhoon Warning Center (JTWC). 
While this is done primarily for DOD interests, JTWC forecasts are also 
included in the suite of advices used by other domestic forecast 
services, and by commercial services for both mobile and fixed assets 
around the world. Thus the United States has global responsibilities 
for forecasting hurricanes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This global responsibility has important implications for our 
observational priorities in support of hurricane forecasting. Satellite 
observations are the foundation for our present global observing 
system. Certain regions, such as the eastern Pacific and North Atlantic 
have the additional very substantial advantage of aircraft 
reconnaissance. As you are well aware, the U.S. satellite system, as 
described by the recent National Research Council Report Earth Science 
Applications from Space: National Imperatives for the Next Decade and 
Beyond, ``is at risk of collapse.'' Since accurate forecasts of 
hurricanes beyond a day or so depend upon global observations, this 
degradation of the satellite system has significant implications for 
the accuracy of future hurricane forecasts, at a time when the U.S. has 
never been so vulnerable.

Forecast System Requirements
    Hurricane observing and forecast requirements are defined by the 
major offshore, coastal and inland impacts:

  <bullet> Offshore, hurricanes impact high-seas shipping and oil and 
        gas rigs through high winds, waves and ocean currents, 
        including those in the deep ocean. The forecast requirements 
        therefore focus on the future track, the intensity, the overall 
        wind structure, and the oceanic response to its passage.

  <bullet> On approaching a coast, the scale of hurricanes impacts rise 
        sharply and now include communities and commercial facilities, 
        local ecosystems, and port facilities. In addition to the high 
        winds, waves and ocean currents undergo complex interactions in 
        a variable coastline to generate storm surges that can exceed 
        30 ft, be accompanied by large waves and remove substantial 
        barrier islands. Flooding and potential for landslip add to the 
        concerns. Forecasts therefore now also must include details of 
        the rain structure, including that occurring in outer rainbands 
        and the amplifying effect of orography.

  <bullet> As a hurricane proceeds inland its high winds diminish 
        rapidly, but this does not completely remove the danger. Now 
        the impacts largely arise from heavy rain and flooding, with 
        high-winds associated with squalls and tornadoes also bringing 
        the potential for local devastation.

    The forecast lead times vary according to the time taken to 
effectively respond to the approaching threat. Most coastal communities 
require 48 hours notice of the onset of high winds (which can be many 
hours before the arrival of the hurricane core), some require 72 hours. 
Major port and offshore facilities can require up to 4-5 days to 
prepare for a hurricane passage. For this reason, NHC forecasts were 
extended to 5 days in 2001. Accurate forecasts at this extended time 
period are dependent on the global observing system, which again 
emphasizes the importance of maintaining and improving satellite 
observing systems.
    These long lead times place great stress on the forecast system to 
anticipate sudden or sharp changes in hurricane characteristics, 
especially near vulnerable communities and facilities. The former 
Director of the Hurricane Center Max Mayfield was quite clear in 
stating that the nightmare scenario was un-forecast rapid 
intensification or decay on approaching the coast. Rapid 
intensification leaves communities poorly prepared for a major 
catastrophe, whereas rapid decay can lead to a false sense of security 
and lack of adequate response the next time a threat is forecast.

Data Usage
    Both the global and local data that are collected are used in two 
major ways. A subset is passed directly to the relevant hurricane 
warning center, where they are used to analyze current details of the 
storm, such as its intensity, size, current track, etc. The warning 
center also produces local statistical forecasts of parameters such as 
track and intensity. The full data set is fed into the computer 
forecasting system where the relevant data are assimilated into the 
suite of models that produce both short and extended range hurricane 
forecasts.
    Thus, the observing system is one component of a complex 
forecasting and warning process. This entire process must be taken into 
account when considering changes to the observing system, as changes at 
one end often require changes throughout the process to be fully 
effective. This system also best operates in a dynamic fashion, one 
where mobile resources (such as aircraft) can be redeployed on the fly 
to cover deficiencies or uncertainties that appear in the forecast 
model calculations.

Current Deficiencies in the Forecast System
    There is no doubt that the quality of the forecast can never be 
better than the observations that are used to develop it. However, 
before focusing on the observations several deficiencies in the rest of 
the forecast system require consideration. Hurricane track forecasts 
and warnings have been improving rapidly over the past 25 years due to 
(1) improved global observations from satellites, especially satellite 
atmospheric temperature and water vapor sounders, (2) improved computer 
models, (3) improved methods of assimilating the many observations into 
the models, and (4) improved understanding of physical processes for 
inclusion in the models. These improvements have undoubtedly saved 
hundreds of thousands of lives and billions of dollars of property. 
However, our experience here shows that all four components need 
additional attention and support in order for us to arrive at the 
desired outcome of increasing the accuracy of forecasts and warnings. 
Forecasts of hurricane intensity have shown less improvement, but there 
are good scientific reasons for hope.
    Our current approaches to assimilating the data into the forecast 
models are not up to international standards, especially for intensity 
and structure forecasts. Important data, such as land-based and 
aircraft radar, are not used. The assimilation occurs by collecting all 
data over a time period into a single snapshot rather than being 
incorporated at the time they are collected. This deficiency is well-
recognized and is being addressed in NCAR and the Joint Center for 
Satellite Data Assimilation. But the national investments do not match 
the importance of this effort. Assimilation research and application is 
relatively inexpensive compared to the cost of new observing systems, 
and it is important that adequate and stable funding be maintained for 
this work. A good working model should be that 15 percent of all 
observing system budgets be devoted to ensuring the data are optimally 
used in the forecast models by both observing system sampling 
strategies and improved data assimilation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Current operational forecast models and the computing facilities 
that they run on are simply not adequate for intensity and hurricane 
wind and rain structure forecasting, as emphasized by the report of the 
recent NOAA Science Board Hurricane Intensity Research Working Group 
(HIRWG). Research results and experimental forecast trials over the 
past few years have clearly demonstrated this. An example is shown in 
the accompanying figure (from S. Chen University of Miami). In the top 
left is a radar observation for Hurricane Floyd (1999). The other 
panels (in clockwise order) are forecast precipitation patterns 
obtained from a high-definition (1.6 km) research model, from the 
typical resolution used by current hurricane models (15 km), and from 
current global operational models (45 km). The top right-hand corner of 
each panel shows the scale of the model grids relative to the 
hurricane. Clearly the lower resolution models are incapable of 
predicting critical details in the hurricane core region. The required 
computer power increases by 5-10 times for each halving of the grid 
resolution, so this requires a substantial investment in computing. But 
there are clever ways of reducing this. Moving to fine definition also 
requires an investment in applied research to further develop the 
manner in which air-sea interactions and the internal workings of 
clouds are incorporated. Clearly, investing in improved computer models 
and hardware is an investment that has to be made if we are to make 
substantive progress on predicting hurricane intensity and structure.

The Observing System
    A full analysis of the observing system is beyond this brief 
testimony, so I will concentrate on several areas of greatest need and 
potential return for the investment for both research and operational 
requirements. I will also mention promising new observing systems that 
are in need of research investigations for potential future use. This 
analysis assumes that the current suite of operational systems will be 
retained. In particular the geostationary satellite coverage and the 
aircraft reconnaissance programs are essential for maintaining the 
quality of analysis and short-term forecasting of hurricanes, whereas 
the entire satellite program including polar orbiters contributes 
substantially to the longer-term forecasts that are critical to 
planning and response.
    In my opinion, the areas of greatest need and potential return are 
for satellite observations of:

  <bullet> The full structure of the surrounding atmosphere, including 
        winds, moisture and temperature;

  <bullet> The available ocean energy for hurricane development, 
        including the manner in which hurricanes extract this energy 
        from the ocean;

  <bullet> The surface wind structure and particularly the extent of 
        destructive winds in hurricanes.

Full Structure of the Surrounding Atmosphere
    Forecasts of hurricanes beyond about a day relay heavily on 
numerical models of the atmosphere. These models in turn are dependent 
upon accurate measurements of atmospheric temperatures, winds, pressure 
and water vapor, not only in the immediate vicinity of the hurricane, 
but over the much larger environment of the storms, which extends 
thousands of miles in all direction from the hurricane center. The only 
feasible way of obtaining these global observations is from satellites, 
although weather balloons, aircraft and surface-based observations make 
significant contributions. The U.S. has been the world leader in 
providing the satellites in both geostationary and polar orbits that 
contribute the vital data needed by the forecast models.
    However, as has been documented by the NRC Decadal Survey and other 
reports and testimonies, the U.S. satellite system is in serious 
trouble---problems that threaten the number and quality of atmospheric 
and ocean data needed by the forecast models. For example, the future 
planned polar-orbiting NPOESS system has been reduced from six 
satellites to four and from three orbits to two. The NPOESS atmospheric 
sounding system has been degraded, and the ocean altimeter removed. In 
addition to this degradation of the NPOESS sounding capability, the 
planned Hyperspectral Environmental Sensor (HES) has been removed from 
the next geostationary satellite, GOES-R. Thus the Decadal Survey 
recommended that NOAA develop a strategy to restore the planned 
capability to make high temporal and vertical-resolution soundings from 
geosynchronous orbit.
    Currently, atmospheric wind observations from satellite are 
obtained by measuring the movement of clouds and water vapor elements. 
These have been a considerable boon to forecasting in general, but they 
lack vertical detail and are not obtainable in areas where high cloud 
obscures the lower levels. I support the NRC Decadal Survey 
recommendation that NASA launch and test a lidar wind observing system 
from space to test the ability to provide comprehensive wind 
observations for the globe--such wind measurements would be expected to 
have a significant positive effect on hurricane forecasts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There is a new, exciting technique to make atmospheric soundings of 
temperature and water vapor from space at a relatively low cost of 
approximately $3 per sounding. The new technique called radio 
occultation, or RO, uses the global GPS satellite signals to obtain 
highly accurate vertical profiles of temperature and water vapor in 
both cloudy and clear regions, at a very low price compared to other 
observing systems. In an ongoing proof-of-operational-concept mission, 
COSMIC, RO data have been shown to have a positive impact on hurricane 
forecasting. The potential sounding coverage of a full system over the 
North Atlantic hurricane basin is shown in the accompanying figure. For 
these, and a number of other reasons, the recent NRC Decadal Survey has 
recommended that NOAA implement an operational constellation of RO 
satellites beginning toward the end of the present research COSMIC 
mission, in 2010 or 2011. RO data are also very useful climate 
benchmark data and contribute to space weather. As recommended by the 
NRC Decadal Study, NOAA should begin planning for this operational 
constellation immediately, while ensuring that the COSMIC mission is 
continued for as long as the satellites are producing good data.

Ocean Energy
    The available ocean energy dictates how intense a hurricane can 
become. As hurricanes move across changes in this ocean energy they can 
rapidly intensify or decay and this can be poorly forecast if we have 
not adequately observed such changes. The observing system must be able 
to include subsurface conditions, as hurricanes extract energy from 
below the ocean surface and can mix cold-subsurface water up to the 
surface. A good example was provided by Hurricane Katrina, as shown in 
the accompanying figure (from ISRP). A deep warm pool of water 
associated with the Gulf Stream Loop Current (right panel) was 
completely hidden below generally uniform sea surface temperatures 
(left panel). Katrina developed rapidly on moving over this deep warm 
pool then weakened substantially as it moved toward the coast.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Oceanic instruments previously deployed to drift over long periods 
or expendable bathythermographs targeted to the expected hurricane 
track by hurricane aircraft provide one important means of observing 
this structure. But these can only be applied locally and in special 
circumstances and aircraft reconnaissance is only available routinely 
in the North Atlantic and eastern North Pacific, with special missions 
to the Central Pacific. A much more robust and generally applicable 
approach is to utilize satellite radar altimetry observations. Because 
the warm water expands the subsurface warm pools appear as local bulges 
in the sea surface. Observations of these bulges can be used in ocean 
models to provide a definition of the subsurface structure that is 
sufficient for hurricane forecasting.
    The loss of the NPOESS altimeter in recent cutbacks is a serious 
step backward for observing such an important oceanic feature. 
Satellite altimeter measurements are a cost-effective method obtaining 
critical information on the upper-ocean energy storage and location of 
ocean currents.

Surface Wind Structure
    Surface wind observations from conventional data, such as surface 
ships, are patchy and often missing from the vicinity of hurricanes, 
due to the ships staying well clear. Such surface wind data are 
important for several reasons: (1) Locating and identifying the initial 
wind swirl that indicates the development of a new hurricane; (2) 
Correctly identifying the extent of destructive winds, which is used to 
warn shipping and emergency managers of the timing of arrival of, for 
example, gale force winds (these winds may occur many hours before the 
destructive core to substantially disrupt preparations and 
evacuations); and (3) assimilating of the correct cyclone surface 
structure in forecast models impacts the forecasts of track and 
structure over the full forecast cycle. The only way to obtain such 
information over the global oceans is via satellite scatterometer 
observations and the Sea Winds instrument on QuickSCAT has demonstrated 
real skill in improving hurricane track forecasts as summarized by the 
IRSP. It is notable that this improvement occurs mostly 2-3 days into 
the forecast, which clearly indicates the importance of the global 
nature of the QuickSCAT observations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Hurricane Reconnaissance
    The requirements of an observing system are varied. I have already 
indicated the importance of global coverage by satellites, especially 
for the longer-range hurricane forecasts. But these global systems do 
not provide the depth of detail, spatial density and time resolution 
required in severe weather systems, such as tropical cyclones. Indeed, 
it would be a waste of resources to provide such coverage globally, as 
in many cases it is simply not needed. These data are best provided by 
adaptive and mobile observing systems that can go to the system of 
interest and take the required observations.
    The U.S.A. has been fortunate to have had routine aircraft 
reconnaissance in the North Atlantic since soon after WWII. This 
reconnaissance program has produced a comprehensive long-period record 
of hurricane structure and intensity that enables current research into 
the impacts of climate variability and climate change on future risk. 
It has also ensured the best possible forecast and warning service at a 
cost that is a fraction of the direct savings. The reconnaissance 
system has been steadily upgraded, with addition of new platforms and 
instrumentation. Of particular importance are: the Doppler radar 
capacity, and particularly coordinated flight plans that enable dual 
Doppler observations of the total wind structure; GPS dropsondes that 
provide detailed vertical structure, especially in the poorly observed 
near ocean layer; and the stepped-frequency microwave radiometer 
(SFMR), which provides excellent details of the core region surface 
winds. The addition of the G4 to the aircraft suite, together with GPS 
dropsondes has provided near environmental information that has 
demonstrably improved forecast performance. I recommend in the 
strongest possible terms that this aircraft reconnaissance strategy be 
retained and further upgraded. Initially upgrades should concentrate 
not on new instrumentation, but on more effective utilization of the 
data that are currently collected, through effective assimilation into 
computer models, and on the design of new sampling strategies best 
suited to support the evolving forecast requirement.
    In recent times, adaptive approaches have evolved in research mode 
to a stage where the computer models are used to define where the best 
data can be obtained, and the aircraft are directed to obtain these 
data. An excellent recent example of the effectiveness of this approach 
in a research field experiment can be seen in the recent NSF-sponsored 
Hurricane Rainband Experiment (RAINEX).
    The aircraft reconnaissance system is now 60 years old and based 
entirely on manned aircraft. Recent developments with Unmanned Aerial 
Vehicles (UAVs) and Autonomous Underwater Vehicles (AUVs) have raised 
the potential for substantial supplementation to the manned aircraft 
approach. Advantages offered by UAVs is the very long endurance and the 
capacity to take observations in areas that are too dangerous for 
manned aircraft and not able to be observed by remote sensing. An 
example is the near surface atmospheric layer. This is where the 
hurricane gathers its energy and is the layer that directly impacts 
coastal and offshore structures through high winds, waves and storm 
surge. Yet this is also the most under-observed part of the hurricane. 
There is similar capacity and need for AUVs to be targeted to areas of 
prime interest for oceanic observations. Such capacity would complement 
very nicely the operational satellites and drifting or specially 
deployed buoys. I do caution that care needs to be taken here as some 
UAV systems cost substantially more than equivalent manned aircraft and 
this additional cost would need to be justified in terms of the 
expected forecast improvements.
    I fully support the recommendations of an Interagency workshop on 
UASs, sponsored by NOAA, NASA, and the DOE and held in Las Vegas, 
Nevada, in February 2006, that an initial demonstration should be 
conducted for low-level observations, by a UAV in a hurricane. The 
objective of the demonstration should be to obtain detailed 
observations of the near-surface tropical cyclone boundary layer 
environment and to provide information on key questions of whether such 
observations could: supply data that will improve tropical cyclone 
intensity forecasts; help improve our understanding of the rarely 
observed tropical cyclone boundary layer environment; and provide 
information that successfully fills gaps in the current observing 
system.

Conclusion
    The Nation has entered a difficult and dangerous period of 
vulnerability to hurricane impacts arising from a combination of 
sustained enhanced hurricane activity and increasing development in 
coastal regions. We must respond and I thank the Committee for taking 
your valuable time to consider an important part of this required 
response. Satellites are a mainstay of the hurricane forecast process. 
But this process extends well beyond the taking of observations and 
other areas are also in need of serious consideration. In my testimony 
I considered observing systems within the overall hurricane forecasting 
and warning process. I have identified several areas that should be 
given priority attention:

  <bullet> Data Assimilation and Sampling Strategies: Every new 
        instrument should be matched with an appropriate level of 
        support for ensuring the data enter the forecast process in an 
        optimal manner. A good working model should be that 15 percent 
        of all observing system budgets be devoted to both observing 
        system sampling strategies and improved data assimilation;

  <bullet> Computer Modeling Capacity: Without sufficient resources to 
        improve the resolution of hurricane forecast models and their 
        capacity to handle cloud-scale and air-sea interaction 
        processes, our capacity to advance the forecasting of intensity 
        and structure will be severely limited;

  <bullet> Satellite Observing Systems: I have identified three 
        specific priority areas:

    <ctr-circle> Lidar measurements of the complete structure of 
            atmospheric winds;

    <ctr-circle> Use of GPS Radio Occultation to provide comprehensive 
            atmospheric temperature and moisture observations;

    <ctr-circle> Radar altimetry to provide information on the ocean 
            heat energy storage that is available for hurricane 
            intensification;

    <ctr-circle> Scatterometer observations of the surface winds to 
            improve location and structure information on hurricanes 
            and to improve longer range forecasts.

  <bullet> Aircraft Reconnaissance: I have stressed the importance of 
        this to the national warning service and have noted several 
        instruments that have been of immense worth in improving 
        forecasts. I also have noted the promising potential of new 
        approaches using UAVs and AUVs to monitor hitherto unobservable 
        components of the hurricane.

    Of greatest priority in my view is for there to be a coordinated, 
well-funded research and system development approach focused on 
reducing the impacts of hurricanes on vulnerable communities. The 
review committees that were formed after the disastrous 2005 hurricane 
season have gathered views and information widely and across all 
components of the research, operational, engineering, social science 
and emergency management community. While there are differences of 
detail, these groups have been unanimous in their call for urgent 
action and in the general thrust of the actions that are required. 
These are embodied in the National Hurricane Research Initiative Act of 
2007 that is before you for consideration. History has shown that a 
full partnership between academia and operations with adequate funding 
will result in substantial forecast advances, including identification 
of critical observing needs. I urge you to give this urgent and serious 
attention.
    Thank you for the opportunity to address the Committee on the 
importance of hurricane observations as part of a complete forecast and 
warning process--a topic that is has taken on increasing urgency as the 
impact of hurricanes on our vulnerable communities is rising.

    Senator Nelson. Thank you, Dr. Holland.
    Dr. Busalacchi, who is representing University of Maryland, 
where he is the director of the Earth System Science 
Interdisciplinary Center, we want to hear your perspective.

         STATEMENT OF ANTONIO J. BUSALACCHI, JR, Ph.D.,

        CHAIRMAN, CLIMATE RESEARCH COMMITTEE; CHAIRMAN,

          COMMITTEE ON EARTH SCIENCE AND APPLICATION:

   ENSURING THE CLIMATE MEASUREMENTS FROM NPOES AND GOES-R, 
                 NATIONAL RESEARCH COUNCIL; AND

        DIRECTOR, EARTH SYSTEM SCIENCE INTERDISCIPLINARY

             CENTER (ESSIC), UNIVERSITY OF MARYLAND

    Dr. Busalacchi. Thank you, Mr. Chairman, members of the 
Committee for this opportunity to testify.
    In addition, I'm a Professor of Atmospheric and Oceanic 
Science in the University of Maryland, and past graduate of 
Florida State University. I also serve as Chair of the National 
Academies' Climate Research Committee and of the Academies' 
Panel on Options to Ensure the Climate Record from the NPOESS 
and GOES-R Spacecraft. This latter study is in response to a 
NASA-NOAA request to the National Research Council for a 
follow-on report to the Decadal Survey in Earth Science that 
focuses on recovery of lost measurement capabilities, 
especially those related to climate research which occurred as 
a result of changes to the NPOESS and GOES-R satellite 
programs.
    Three weeks ago, our NRC panel convened a 3-day workshop 
titled ``Options to Ensure the Climate Record from the NPOESS 
and GOES-R Spacecraft.'' This workshop attracted some 100 
scientists and engineers from academia, government, and 
industry. The workshop gave participants a chance to review and 
comment on the NASA-NOAA assessments of the climate impacts 
associated with the instrument cancellations and de-scopes to 
NPOESS which occurred following the June 2006 Nunn-McCurdy 
review, as well as offer input on a variety of suggested 
mitigation strategies. A report of the workshop will be 
available later this summer. A final report, with findings and 
recommendations, will be issued in January.
    As the study is still underway, my remarks this morning 
will be of my own.
    The climate community has three basic observational needs. 
One, sustain continuous and often overlapping measurements of 
certain key climate parameters critical to monitoring long-term 
climate trends and to validate climate models. Two, 
observations to initialize and force global climate prediction 
models. And, three, new or improved measurements of additional 
key parameters to advance climate science and reduce 
uncertainty in our understanding of the climate system.
    It is the first and second category of needs which are now 
threatened by the current NPOESS program, though the third 
category--indeed, all of Earth science--is implicitly 
threatened by the cost overruns of NPOESS.
    Access to uninterrupted space-based global observations of 
the atmosphere, oceans, and land surface has enabled 
breakthroughs in predicting natural climate variability beyond 
the day-to-day weather time-scale. Today's coupled climate 
models, initialized by global satellite observations, now 
routinely issue short-term climate forecasts from seasons out 
to a year in advance, with the realistic prospect of extension 
to years and decades.
    To discriminate between natural climate variability and 
anthropogenic climate change requires instrument accuracy and 
stability greater than that which is normally required--to 
support weather prediction. Interruptions to the continuity of 
these climate data records without such accuracy and stability 
can induce uncertainty that may be as large or larger than the 
climate signal being monitored.
    The present certified NPOESS program will mean a loss or 
discontinuity of critical climate data records, of total solar 
irradiance, the Earth's radiation budget, ocean surface 
topography--that is, sea level--stratospheric ozone, 
atmospheric aerosol properties, and precise ocean wind speed 
and direction. These observations are essential to our ability 
to monitor and predict climate variability and change, and will 
have a significant impact on the goals of a U.S. climate change 
research program.
    Given the present NPOESS program, our climate monitoring 
capabilities are neither adequate to meet the needs of the 
climate research community nor the needs of decisionmakers. The 
NPOESS de-scopes highlight what has, for too long, been the 
precarious and loosely coordinated series of climate 
observations in which the long-term generation and support of 
climate data records are left out of key agencies' long-term 
planning.
    The Nunn-McCurdy certification of NPOESS has exposed the 
fact that we do not have an agreed-upon national strategy for 
long-term, continuous, and stable observations of the Earth 
system. As the recent NRC Decadal Survey Committee pointed out, 
sustained measurements with both research and operational 
applications do not fall clearly into one agency's charter. 
This results in a metaphorical relay race between NASA and 
NOAA, where no runner is waiting to be passed the baton.
    As it pertains to climate monitoring, then, the relative 
roles and responsibilities of NASA and NOAA remain uncertain. 
As a direct consequence, we are faced with a likely gap in 
critical long-term climate records and a diminished capability 
to understand and predict climate and related changes on our 
planet for generations to come.
    As we seek to mitigate this situation, applying a Band-Aid, 
if you will, I urge members of this Committee to carefully 
consider how we might avoid having a similar hearing in the 
not-too-distant future.
    Right now, we are in a reactive mode with respect to what 
can only be referred to as the NPOESS debacle. Our Nation needs 
a deliberate, forward-looking, and cost-effective strategy for 
satellite-based environmental monitoring. The Nation requires a 
coherent strategy for Earth observations which provides for 
operational climate monitoring and prediction, scientific 
advances, and the continuation of long-term measurements. Our 
Nation deserves such a strategy.
    Thank you for the opportunity to appear before you today, 
and, at the appropriate time, I will be prepared to take any 
questions.
    [The prepared statement of Dr. Busalacchi follows:]

  Prepared Statement of Antonio J. Busalacchi, Jr., Ph.D., Chairman, 
 Climate Research Committee; Chairman, Committee on Earth Science and 
     Application: Ensuring the Climate Measurements from NPOES and 
 GOES-R, National Research Council; and Director, Earth System Science 
        Interdisciplinary Center (ESSIC), University of Maryland

    Mr. Chairman, Mr. Vice Chairman, and members of the Committee, 
thank you very much for this opportunity to testify. I am Dr. Tony 
Busalacchi, Director of the Earth System Science Interdisciplinary 
Center and Professor of Atmospheric and Oceanic Science at the 
University of Maryland. I also serve as the Chair of The National 
Academies' Climate Research Committee and of the Academies' ``Panel on 
Options to Ensure the Climate Record from the NPOESS and GOES-R 
Spacecraft.'' This latter study is in response to a NASA and NOAA 
request to the National Research Council (NRC) for a follow-on report 
to the Decadal Survey in Earth Science that focuses on recovery of lost 
measurement capabilities, especially those related to climate research, 
which occurred as a result of changes to the NPOESS and GOES-R 
satellite programs.
    On June 19, 2007, our NRC Panel convened a three-day workshop, 
``Options to Ensure the Climate Record from the NPOESS and GOES-R 
Spacecraft.'' The workshop attracted some 100 scientists and engineers 
from academia, government, and industry. The workshop gave the climate 
community a chance to review and comment on the NASA/NOAA assessments 
of the climate impacts associated with Nunn-McCurdy descopes of NPOESS, 
as well as offer input on a variety of suggested mitigation scenarios. 
A report of the workshop will be available later this summer. 
Presentations from the workshop are available for download at: (http://
www7.nationalacademies.org/ssb/SSB_NPOESS2007_Presentations.html). A 
final report, with findings and recommendations, will be issued in 
January. As this study is still underway, the views I express today are 
my own.
    As requested, I will use my time this morning to summarize my views 
on the status and direction of the Nation's current and planned 
constellation of weather and environmental satellites. In particular, I 
will focus on your request for information on the ``budgetary, 
management, and schedule risks of these [weather and environmental] 
satellite systems, as well as the potential lost capabilities in 
climate monitoring, modeling, and forecasting that are possible under 
the current program.''
    This hearing takes place against the backdrop of significant 
developments in NOAA weather and environmental monitoring programs and 
NASA's Earth Science Program:

  <bullet> In June 2006, the next-generation National Polar-orbiting 
        Operational Environmental Satellite System (NPOESS) completed 
        its ``Nunn-McCurdy'' certification.\1\ As a result, the planned 
        acquisition of six spacecraft was reduced to four, the launch 
        of the first spacecraft was delayed until 2013, and several 
        sensors were canceled or descoped in capability as the program 
        was re-focused on ``core'' requirements related to the 
        acquisition of data to support numerical weather prediction. 
        ``Secondary'' sensors that would provide crucial continuity to 
        some long-term climate records and other sensors that would 
        have provided new data are not funded in the new NPOESS 
        program.
---------------------------------------------------------------------------
    \1\ NPOESS was created by Presidential Decision Directive/National 
Science and Technology Council (NSTC)-2 of May 5, 1994 wherein the 
military and civil meteorological programs were merged into a single 
program. Within NPOESS, NOAA is responsible for satellite operations, 
the Department of Defense (DOD) is responsible for major acquisitions, 
and NASA is responsible for the development and infusion of new 
technologies. In 2000, the NPOESS program anticipated purchasing six 
satellites for $6.5 billion, with a first launch in 2008. Costs have 
since escalated dramatically and the expected date of first launch 
slipped to 2013. By November 2005, it became apparent NPOESS would 
overrun its cost estimates by at least 25 percent, triggering a so-
called Nunn-McCurdy review by the Department of Defense.

  <bullet> Costs for NOAA's next generation of geostationary weather 
        satellites, GOES-R, have risen dramatically and late last year 
        NOAA canceled plans to incorporate a key instrument on the 
        spacecraft--HES (Hyperspectral Environmental Suite). HES was to 
        provide GOES-R spacecraft with significantly advanced three-
        dimensional vertical profiles of atmospheric temperature and 
        humidity, and coastal waters imagery to help scientists monitor 
        events like harmful algal blooms or to assist in fisheries 
---------------------------------------------------------------------------
        management.

  <bullet> The 2005 National Research Council report, Earth Science and 
        Applications from Space: Urgent Needs and Opportunities to 
        Serve the Nation \2\ described the national system of 
        environmental satellites as ``at risk of collapse.'' That 
        judgment was based on the observed precipitous decline in 
        funding for Earth-observation missions and the consequent 
        cancellation, descoping, and delay of a number of critical 
        missions and instruments.\3\ The report also identified the 
        need to evaluate plans for transferring capabilities from some 
        canceled or scaled back NASA missions to the NOAA-DOD NPOESS 
        satellites. Since the publication of that report, NPOESS and 
        NOAA have experienced the problems noted above and NASA has 
        canceled additional missions, delayed the Global Precipitation 
        Mission (GPM) another 2.5 years, and made substantial cuts in 
        its Research and Analysis program.\4\
---------------------------------------------------------------------------
    \2\ National Research Council, Earth Science and Applications from 
Space: Urgent Needs and Opportunities to Serve the Nation, Washington, 
D.C.: The National Academies Press, 2005.
    \3\ Ibid, Table 3.1, p. 17.
    \4\ Total R&A for NASA science missions was cut by about 15 percent 
in the President's 2007 budget (relative to 2005). In addition, the 
cuts were made retroactive to the start of the current fiscal year. 
Over the last 6 years, NASA R&A for the Earth sciences has declined in 
real dollars by some 30 percent.

    This hearing also occurs shortly after the completion of the first 
National Academies Decadal Survey in Earth Science and Applications 
from Space and the recent release by the Intergovernmental Panel on 
Climate Change of their Fourth Assessment Report. In addition, as you 
are all aware, there have been numerous news accounts in recent days 
regarding the fate of a particular spacecraft--QuikSCAT, which measures 
sea surface wind speed and direction.
Sustained Earth Observations for Operations, Research, and Monitoring
    Scientific breakthroughs are often the result of new exploratory 
observations, and therefore new technology missions stimulate and 
advance fundamental knowledge about the planet. Analysis of new 
observations can both test hypotheses developed to elucidate 
fundamental mechanisms and lead to the development of models that 
explain or predict important Earth processes. The data from these new 
technology missions sometimes provide early warning of changes in the 
Earth system that are critical to our well-being, such as declining ice 
cover in the Arctic Ocean, developing holes in the protective ozone 
layer, or rising sea level. To determine the long-term implications of 
the changes or to uncover slowly evolving dynamics, the measurements 
must be continued, usually with one or more follow-on missions.
    Access to uninterrupted space-based global observations of the 
atmosphere, oceans, and land surface have enabled breakthroughs in 
predicting natural climate variability beyond the day-to-day weather 
time scale. Today's coupled climate models, initialized by global 
satellite observations, now routinely issue short-term climate 
forecasts from seasons out to a year in advance with the realistic 
prospect of extension to years and decades. To discriminate between 
natural climate variability and anthropogenic climate change requires 
instrument accuracy and stability greater than is normally required to 
support weather prediction. Interruptions to the continuity of these 
climate data records without such accuracy and stability can induce 
uncertainty that may be as large, or larger, than the climate signal 
being monitored.
    Sometimes data from a new technology mission become critical to an 
operational system, such as the wind speed and direction measurements 
from NASA's QuikSCAT mission and precipitation measurements from NASA's 
Tropical Rainfall Measurement Mission (TRMM), both of which are used in 
weather and climate forecasting. An obvious but often difficult 
consequence is that these research measurements need to be transitioned 
into operational systems and continued for many years. This is a 
recognized and well-studied challenge, but, the record of transitioning 
new technology into the operational system is, at best, mixed.\5\ More 
often than not, the operational utility of data from these research 
missions is realized toward the end of the design life of the 
instruments. By then however, it is usually too late to begin the 
planning of a follow-on operational mission if continuity is to be 
maintained.
---------------------------------------------------------------------------
    \5\ Transition failures have been exhaustively described in 
previous NRC reports. See National Research Council, Extending the 
Effective Lifetimes of Earth Observing Research Missions, Washington, 
D.C.: The National Academies Press, 2005 and National Research Council, 
Satellite Observations of the Earth's Environment: Accelerating the 
Transition from Research to Operations, Washington, D.C.: The National 
Academies Press, 2003. These publications are also available on-line at 
<http://www.nap.edu/catalog/11485.html> and <http://www.nap.edu/
catalog/10658.html>, respectively.
---------------------------------------------------------------------------
    The difficulties in combining the climate and weather requirements 
on NPOESS as well as the problem in executing what is sometimes 
referred to as the transition from NASA ``research'' missions to NOAA 
operations (which, is effectively the source of the current controversy 
surrounding the aging QuikSCAT spacecraft) are different aspects of an 
overarching problem: the United States lacks a coherent strategy to 
manage its Earth observation programs in general and its climate 
observations in particular. The Nunn-McCurdy certification of NPOESS 
exposed the difficulty in sustaining long-term climate observations 
within a program managed by agencies with different priorities and 
missions. Whereas NOAA and DOD have complementary priorities with 
respect to weather prediction, the same does not hold for climate. 
Moreover, the stability, calibration, and technology refresh 
requirements for climate observations call for a flexible systems 
approach consisting of a mix of small climate-specific satellites, 
formation flying, and single sensor ``free flyers'', as opposed to the 
(small school bus) one-size fits all series of ``Battlestar 
Gallactica'' NPOESS platforms.
    Our ability as a nation to sustain climate observations has also 
been complicated by the fact that no single agency has the mandate and 
requisite budget for providing routine climate observations, 
prediction, and services. As stated in the January 2007 National 
Research Council pre-publication of the ``Decadal Survey,'' Earth 
Science and Applications from Space: \6\
---------------------------------------------------------------------------
    \6\ National Research Council, Earth Science and Applications from 
Space: National Imperatives for the Next Decade and Beyond, The 
National Academies Press, Washington, D.C., 2007. Available online at: 
<http://www.nap.edu/catalog/11820.html>.

        The Committee is concerned that the Nation's institutions 
        involved in civil space (including NASA, NOAA, and USGS) are 
        not adequately prepared to meet society's rapidly evolving 
        Earth information needs. These institutions have 
        responsibilities that are in many cases mismatched with their 
        authorities and resources: institutional mandates are 
        inconsistent with agency charters, budgets are not well-matched 
        to emerging needs, and shared responsibilities are supported 
        inconsistently by mechanisms for cooperation. These are issues 
        whose solutions will require action at high-levels of the 
---------------------------------------------------------------------------
        government.

    For example, in a recent NRC review of NASA's 2006 Draft Science 
Plan \7\ the Committee noted that the ``NASA/SMD (Science Mission 
Directorate) should develop a science strategy for obtaining long-term, 
continuous, stable observations of the Earth system that are distinct 
from observations to meet requirements by NOAA in support of numerical 
weather prediction.'' Accordingly, the Decadal Survey committee 
recommended that, ``The Office of Science and Technology Policy, in 
collaboration with the relevant agencies, and in consultation with the 
scientific community, should develop and implement a plan for achieving 
and sustaining global Earth observations. This plan should recognize 
the complexity of differing agency roles, responsibilities, and 
capabilities as well as the lessons from implementation of the Landsat, 
EOS, and NPOESS programs.''
---------------------------------------------------------------------------
    \7\ National Research Council, A Review of NASA's 2006 Draft 
Science Plan: Letter Report, The National Academies Press, Washington, 
D.C., 2006. Available online at: <http://www.nap.edu/catalog/
11751.html>.
---------------------------------------------------------------------------
    I will now turn to the specific questions about the programs under 
consideration:
    What are the potential lost capabilities in climate monitoring, 
modeling, and forecasting?
    NPOESS: As noted in a recent NASA-NOAA report, which was performed 
at the request of the White House Office of Science and Technology 
Policy, ``For more than thirty years, NASA research-driven missions, 
such as the EOS, have pioneered remote sensing observations of the 
Earth's climate, including parameters such as solar irradiance, the 
Earth's radiation budget, ozone vertical profiles, and sea surface 
height. Maintaining these measurements in an operational environment 
provides the best opportunity for sustaining the long-term, consistent, 
and continuous data records needed to understand, monitor, and predict 
climate variability and change.'' \8\ However, the Nunn-McCurdy 
certification placed a priority on the continuity of operational 
weather measurements at the expense of climate measurements. In 
addition, the post-certification constellation eliminated the ``mid-
morning'' orbit and reduced the planned acquisition of six spacecraft 
to four. NASA and NOAA have completed their preliminary assessments of 
the impacts of these changes, focused primarily on the de-manifested 
sensors. Their assessment is documented in a white paper prepared for 
OSTP. Rather than go into the details of their assessment or repeat it 
here, a brief summary of the climate impacts associated with de-
manifestation of these sensors is included in the Appendix.
---------------------------------------------------------------------------
    \8\ ``Impacts of NPOESS Nunn-McCurdy Certification on Joint NASA-
NOAA Climate Goals,'' NOAA-NASA Draft White Paper, January 8, 2007.
---------------------------------------------------------------------------
    QuikSCAT: QuikSCAT continues to function well and provide all-
weather observations of ocean surface wind speed and direction, 
although it is five-years beyond its design lifetime and it is 
operating on a backup communication system. Should QuikSCAT fail, the 
United States would have to rely on the ASCAT instrument on the 
European MetOp system and on data currently provided by the WindSat 
spacecraft. Both of these systems have drawbacks compared to QuikSCAT--
ASCAT has large gaps in coverage compared to QuikSCAT and analyses to 
date of WindSat data expose serious concerns about the utility of 
passive polarimetric measurements of surface wind speed and direction 
in low and high wind regimes for research and operational applications. 
Further, the capabilities of the successor to Windsat, the MIS 
instrument planned for NPOESS, are still unknown and NOAA does not plan 
to incorporate the instrument on NPOESS until launch of the second 
spacecraft in 2016 at the earliest. The National Academies Decadal 
Survey recommended a follow-on mission to QuikSCAT--XOVWM--to be 
launched in the 2013-2016 time frame. It is my understanding that the 
Survey's choice of this time period, versus one sooner, was based on an 
examination of expected resources and the need to launch other priority 
missions.
    GOES-R: the loss of HES is of higher priority for numerical weather 
prediction and monitoring of coastal waters than it is for climate. The 
impact to climate research is the loss of ability to track changes in 
the intensity and frequency of extreme events such as hurricanes, 
floods, wildfires, and harmful algal blooms as modulated by climate 
variability and change.

Overview of Climate Needs
    The climate community has three basic observational needs: (1) 
sustained (continuous, and often overlapping) measurements of certain 
key climate parameters critical to monitor long-term climate trends and 
to validate climate models, (2) observations to initialize and force 
coupled climate prediction models, and (3) new or improved measurements 
of additional key parameters to advance climate science and reduce 
uncertainty in our understanding of climate processes and interactions 
within the coupled climate system. It is the first and second category 
of needs which are now threatened by NPOESS, though the third 
category--and indeed all of Earth science--is implicitly threatened by 
the cost overruns of NPOESS, which have had great impact on already-
tight Earth Science budgets. This impact will increase as the agencies 
attempt to assure continuity of the most critical of climate records by 
altering upcoming flight manifests, restoring instruments to NPOESS, or 
designing ``gap-filler'' missions.

Mitigation Challenges
    Any strategy to mitigate the impacts of the loss of these sensors 
begins with a prioritization of their importance and an assessment of 
the cost and risk of various recovery options. Such an assessment is 
the subject of the ongoing National Research Council study that I 
chair; it is also the subject of an Office of Science and Technology 
Policy (OSTP)-requested study that is being executed by NASA and NOAA. 
The range of options under study include re-manifesting selected 
sensors to the NPOESS platforms, making use of ongoing and planned 
missions by international partners, launching selected sensors on 
missions of opportunity or on new spacecraft, and assimilating data 
from multiple sources to help reconstruct the lost data.
    It is also important to recognize the limitations of some of the 
climate sensors on NPOESS even before the Nunn-McCurdy actions. For 
example, from its sun-synchronous orbit, altimeter measurements of sea-
surface height (SSH) via the ALT instrument would contend with the 
effects of tidal aliasing. The precise record of SSH that began with 
the Topex/Poseidon mission (and continues with Jason-1 mission, which 
should overlap with the 2008 of Jason-2) derives from instruments on 
spacecraft that are not in sun-synchronous orbit. Moreover, as 
emphasized repeatedly in recent NRC studies, the generation of credible 
climate records requires investments in pre-launch instrument 
characterization, on-orbit calibration and validation, and a ground 
support system that has the requisite resources to archive, 
disseminate, analyze, and periodically re-analyze the data. Appropriate 
investments in this critical part of the chain from raw data to climate 
data record were never part of the NPOESS program. Indeed, their 
absence is indicative of the problem that arises when the very 
different needs of the climate community are effectively piggybacked on 
the needs of numerical weather forecasters from both the DOD and civil 
communities.
    Recovery strategies also must take account of plans for execution 
of the NRC Decadal Survey. The Decadal Survey was sponsored by NASA 
(Office of Earth Science), NOAA (NESDIS), and the USGS (Geography). 
While cognizant that space-based observations were only part of a 
credible Earth observing system, it was charged with:

  <bullet> Articulating priorities for Earth system science and the 
        space-based observational approaches to address those 
        priorities.

  <bullet> Establishing individual plans and priorities within the sub-
        disciplines of the Earth sciences as well as providing an 
        integrated vision and plan for the Earth sciences as a whole.

    The relevance of the recommended Decadal Survey missions mapped 
against de-manifested NPOESS sensors is shown in Table 1 below. It is 
important to note that the decadal strategy covers all of Earth 
science, including but not limited to climate science. Though I am 
limiting my remarks here to discuss those elements related to climate 
and of relevance to the NPOESS and GOES-R considerations, I support the 
report's call for a balanced Earth Science program. Of particular 
interest for NPOESS mitigation strategies in the near-term is the 
recommendation for an early start of the CLARREO radiance mission. A 
more capable ocean vector wind follow-on to QuikSCAT--XOVWM--is also 
called out to start in the period from 2013-2016.
    In summary, our climate monitoring capabilities are neither 
adequate to meet the needs of the climate research community nor the 
needs of decisionmakers. The NPOESS descopes highlight what has for 
too-long been a precarious and loosely coordinated series of climate 
observations in which the long-term generation and support of climate 
data records are left out of key agency's long-term planning. The Nunn-
McCurdy certification of NPOESS has exposed the fact that we do not 
have an agreed upon national strategy for long-term, continuous, and 
stable observations of the Earth system. As the recent Decadal Survey 
committee pointed out, sustained measurements with both research and 
operational applications do not fall clearly into any one agency's 
charter. This results in a metaphorical relay race between NASA and 
NOAA, where no runner is waiting to be passed the baton.
    As it pertains to climate monitoring, the relative roles and 
responsibilities of NASA and NOAA remain uncertain. As a direct 
consequence, we are faced with a likely gap in critical long-term 
climate records and a diminished capability to understand and predict 
climate and related changes on our planet for generations to come. As 
we seek to mitigate this situation, applying a band-aid if you will, I 
urge members of this Committee to carefully consider how we might avoid 
having a similar hearing in the not too distant future. Right now, we 
are in a reactive mode with respect to what can only be referred to as 
the NPOESS debacle. Our nation needs a deliberate, forward looking, and 
cost-effective strategy for satellite-based environmental monitoring. 
The Nation requires a coherent strategy for Earth observations which 
provides for operational climate monitoring and prediction, scientific 
advances, and the continuation of long-term measurements. The Nation 
deserves such a strategy. Thank you for the opportunity to appear 
before you today on this important topic. I am prepared to answer any 
questions you may have.

    Table 1. Contributions of recommended Decadal Survey missions to
    continuation or expansion of Environmental Data Records (EDRs) as
   defined by the NPOESS Integrated Operational Requirements Document
  (2001). Current status of NPOESS's planned capabilities to obtain the
                           EDRs is also shown.
------------------------------------------------------------------------
                                                       Relevant decadal
     Descoped/degraded EDR         NPOESS status            survey
                                                         contribution
------------------------------------------------------------------------
Soil moisture                   Degraded             SMAP
Aerosol refractive index/       Demanifested         ACE
 single-scattering albedo and
 shape
Ozone total column/profile      Reduced Capability   GACM
                                (Column only)
Cloud particle size             Demanifested         ACE
 distribution
Downward LW radiation           Demanifested         CLARREO
 (surface)
Downward SW radiation           Demanifested         CLARREO
 (surface)
Net solar radiation at TOA      Demanifested         CLARREO
Outgoing LW radiation (ToA)     Demanifested         CLARREO
Solar irradiance                Demanifested         CLARREO
Ocean wave characteristics/     Reduced Capability   XOVWM
 significant wave height
Sea surface height/topography-- Demanifested         SWOT
 basin scale/global scale/
 mesoscale
------------------------------------------------------------------------



------------------------------------------------------------------------
     EDR dependent on CMIS                              Relevant ESAS
          replacement              NPOESS sensor         contribution
------------------------------------------------------------------------
Atmospheric vertical moisture   CrIS/ATMS/CMIS       PATH, GPSRO,
 profile                        (replacement)         CLARREO
Atmospheric vertical            CrIS/ATMS/CMIS       PATH, GPSRO,
 temperature profile            (replacement)         CLARREO
Global sea surface winds        CMIS (replacement)   XOVWM
Imagery                         VIIRS/CMIS           HyspIRI
                                (replacement)
Sea surface temperature         VIIRS/CMIS           PATH
                                (replacement)
Precipitable water/Integrated   CMIS (replacement)   ACE
 water vapor
Precipitation type/rate         CMIS (replacement)   PATH
Pressure (surface/profile)      CrIS/ATMS/CMIS       GPSRO, CLARREO
                                (replacement)
Total water content             CMIS (replacement)   ACE
Cloud ice water path            CMIS (replacement)   ACE
Cloud liquid water              CMIS (replacement)   ACE
Snow cover/depth                VIIRS/CMIS           SCLP
                                (replacement)
Global sea surface wind stress  CMIS (replacement)   XOVWM
Ice surface temperature         VIIRS/CMIS
                                (replacement)
Sea ice characterization        VIIRS/CMIS           SCLP, ICESat-II
                                (replacement)
------------------------------------------------------------------------
NOTE: MetOp contributions to EDRs and space weather-related EDRs are not
  listed here.

           Appendix: Brief Summary of Climate Impacts Due To 
                    De-Manifested NPOESS Sensors \9\
---------------------------------------------------------------------------
    \9\ Adapted from ``Impacts of NPOESS Nunn-McCurdy Certification on 
Joint NASA-NOAA Climate Goals,'' NOAA-NASA Draft White Paper, January 
8, 2007.
---------------------------------------------------------------------------
    The certification eliminated five key NPOESS ``climate'' sensors--
TSIS, ERBS, ALT, OMPS-Limb, and APS. Either as result of an instrument 
descope or as a result of the reduction from three orbits to two, the 
certification also impacted the capability of CMIS, VIIRS, and CrIS 
measurements that support climate research.

    1. Total Solar Irradiance Sensor (TSIS), a de-manifested sensor:

    Impact: These measurements monitor the energy of the sun incident 
on Earth. Measurements of TSI are essential to discriminate between 
natural and anthropogenic causes of climate change. Further, these 
measurements can be accurately determined only above the atmosphere. 
Any interruption of the 28-year data record of Total Solar Irradiance 
jeopardizes our ability to confidently resolve small changes in this 
most fundamental variable and adds uncertainty to climate change 
attribution.

    2. Earth Radiation Budget Sensor (ERBS), a de-manifested sensor:

    Impact: This measurement monitors the incoming and outgoing energy 
to the Earth-atmosphere system that maintains climate and it can be 
accurately determined only above the atmosphere. Overlap between space-
based sensors is critical to confidently detect and monitor the small 
changes in the Earth's radiation balance capable of affecting climate.

    3. OCEAN Altimeter (ALT), a de-manifested sensor:

    Impact: Ocean topographical data are vital to study the role of 
ocean circulation and the associated thermal transport in the climate 
system, sea level rise, assessing the severity of hurricanes, tracking 
costal ocean currents, and aiding in the forecasting of natural 
disasters. Sea level measurements are the climate change indicators of 
most direct concern for a substantial proportion of the U.S. and the 
world's population, most of whom live near the coast. These 
observations provide critical input to El Nino and short-term climate 
forecasts.

    4. Ozone Mapping and Profiler Suite Limb Subsystem (OMPS-Limb), a 
demanifested sensor:

    Impact: Stratospheric ozone absorbs incoming solar ultraviolet 
radiation that can be harmful to humans and other organisms. 
Anthropogenic emissions of halogen-containing gases (e.g., Freon) are 
now known to destroy stratospheric ozone. The Montreal Protocol on 
Substances Depleting the Ozone Layer has resulted in successful 
international actions to reduce atmospheric concentrations of halogen-
containing gases. The continuation of stratospheric ozone observations 
is crucial to monitor and evaluate the recovery of the ozone layer.

    5. Aerosol Polarimetry Sensor (APS), a de-manifested sensor:

    Impact: Aerosol properties are a high priority in the U.S. Climate 
Change Science Program. The effects of aerosols on global temperature 
and cloud properties are significant and may be comparable in 
importance to the role played by ``greenhouse'' gases, such as carbon 
dioxide and methane, which contribute to the warming of the Earth's 
surface. Given the expected continued industrialization of developing 
nations such as China and India, aerosol observations are a critical 
climate variable.

    6. Conical Microwave Imaging Scanner (CMIS), a de-scoped sensor:

    Impact: The original CMIS design was to provide information on the 
following essential climate variables: sea surface temperature (SST), 
sea ice and snow cover extents, vegetation, ocean surface wind speed, 
water vapor, and precipitation rates. Specifications for the reduced 
capability MIS will not be available until September. Serious concern 
exists regarding the SST and wind vector retrievals from such an 
instrument.

    Senator Nelson. Thank you, Dr. Busalacchi.
    Senator Sununu, you have to leave, so you are recognized.
    Senator Sununu. Well, I'll start with you, Dr. Busalacchi. 
You talk about the need for a more integrated strategy, better 
coordination between NASA and NOAA, but in your statement you 
didn't actually make any recommendations as to how the system 
or the approach can be improved. Do you have any 
recommendations for us as to specific changes, modifications in 
either the planning process or the technology use?
    Dr. Busalacchi. That is what our Committee is going to be 
taking on over the next 6 months. Among the issues are: How do 
you maintain the long-term climate record and insert new 
technology? And so, there needs to be a phasing and better 
collaboration between the two agencies, where we can insert new 
technology into the data stream while maintaining the current 
record.
    This also requires us--that we start looking at, in 
advance--the issue we have right now is--once the research 
satellite is up, and is proven valuable--even though it's a 
research satellite, by the time that satellite passes its 
design lifetime, it's almost too late to start planning the 
replacement operations. And so, at the very beginning of the 
research satellite mode, NASA and NOAA need to be getting 
together--and that's begun within the past 2 years as a result 
of a working group between the two agencies--to start looking 
at the follow-on before the data record is broken; start 
planning, where appropriate, the follow-on operational sensor.
    Senator Sununu. Well, I hope your Committee will forward 
its recommendations when you have them. Thank you.
    Dr. Freilich, you talked a little bit about the VIIRS 
sensor, maybe some of the problems that you've had with that 
sensor. I missed that part of your testimony, or--you know, I 
don't know a great deal about the technology. Could you 
describe, in a little bit more detail, what the issues are with 
the VIIRS?
    Dr. Freilich. The primary outstanding issue--and there have 
been many issues that have been solved so far--the primary 
outstanding issue is, one, related to the accuracy of the 
radiometer measurements at high spatial resolution that are 
specifically used to measure ocean color and productivity near 
the coast. And it's especially clear near the coastline. It's 
called ``optical crosstalk.'' And----
    Senator Sununu. Well, will that--will those issues be 
resolved, or will that capability not be included in the final 
product?
    Dr. Freilich. At present, we are testing the first flight 
unit, which is to fly on NPP, the NPOESS Preparatory Program. 
That test is being done in the Integrated Project Office. NOAA-
DOD are providing that instrument. Based on those tests, and 
NASA, NOAA, and IPO analyses of those tests, we are moving 
forward--or they are moving forward to try and find mitigation 
strategies. Some may involve changes to the design of the 
instrument, some may involve smaller changes. At the moment, 
that's where we are, though, we're testing the first flight----
    Senator Sununu. Understood. Do you think that the GAO 
assessment was a fair assessment? And was there anything in the 
GAO study that you think either overstated problems or were--
was there anything left out of the GAO evaluation that you 
would have liked to have seen?
    Dr. Freilich. I thought that it--overall, that it was a 
fair assessment of the NPOESS program.
    Senator Sununu. You talked a little bit about QuikSCAT in 
your statement. I think you indicated that there was a 
proposal, at this point, for a 2013 mission to replace, or 
build on, some of these capabilities. Does a sensor for these 
wind currents at ocean level need its own platform, or could 
sensing equipment for that--those parameters be included on 
other platforms in the future?
    Dr. Freilich. Let me clarify, sir. The Decadal Survey 
recommended two things for NOAA. One of them is that they--that 
NOAA continue the QuikSCAT-level time series of measurements of 
ocean surface wind speed and direction over the ocean under all 
weather conditions. And the second recommendation was that, 
starting in the 2013-2016 time frame, the NRC recommended, that 
NOAA operationalize an advanced scatterometer instrument.
    Senator Sununu. And my question is, would that advanced 
scatterometer equipment need its own platform, or could it be 
incorporated onto another platform?
    Dr. Freilich. It does not need its own platform.
    Senator Sununu. QuikSCAT is an independent platform right 
now, correct?
    Dr. Freilich. It is. Actually, I was the principal 
investigator for--mission principal investigator for QuikSCAT. 
I also helped to design NASA's other two recent scatterometers. 
Those other two--NSCAT and SeaWinds--were instruments that were 
provided to another platform, and QuikSCAT is its own 
integrated single mission. So, we've actually flown 
scatterometers both as instruments on other platforms and as a 
dedicated mission, like QuikSCAT.
    Senator Sununu. One final question for, Dr. Holland. You 
just made a reference that I didn't quite understand. You said, 
in your statement, that if there was a tropical storm off the 
coast of Florida today, and we were trying to predict its path, 
the forecast of that path would be dependent on observations in 
China from 7 days ago. That doesn't seem to make sense to me. 
It seems that the projection of its path today, for the coming 
days, would be dependent on existing conditions, not just in 
Florida, but around the world today, but not on conditions from 
7 days ago.
    Dr. Holland. The problem is--and we found this out very 
early on, when we started doing computer-based modeling of the 
atmosphere--that if there is--an error gets into the modeling 
system, when that error is in there, and we bring new data into 
the system, the data are used to modify the monitoring system. 
And let's take an almost trivial example. Say there was no data 
between where that error occurred--no additional data brought 
in--and, when you got the hurricane, an error would still be 
there by the time it got there. There are other data along the 
way, and there are modifications to that error. But the point, 
nevertheless, remains that you can't have a significant--
significant error in the analysis--not just the forecast, the 
analysis and the ongoing forecast over Florida or over the East 
Coast or in other parts of the North Atlantic, based on 
problems that have occurred earlier on in the forecast analysis 
process.
    A good example of this is that when we first started 
computer-based modeling of the atmosphere here, we started 
doing it on a regional basis. We found that didn't work. We 
then went to a hemispheric basis, and we found that didn't 
work. And we found we actually had to go to a global basis even 
just to run the regional models for the Florida region.
    And I think it's an important point that is often 
overlooked in this, this overall process. The local 
observations in the vicinity of the hurricane are extremely 
important, but so are the observations taken elsewhere in the 
globe over the longer periods, and especially as you go out to 
4 or 5 day time periods.
    Senator Sununu. Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    Would you put up this chart, please?
    This is what has happened to the sensors that were 
originally planned on the combination NOAA and DOD, (Department 
of Defense) satellite, called NPOESS. Several of the sensors 
that were canceled, four that were canceled. We had four that 
were degraded. There are only 5 remaining sensors that will go 
on the new NPOESS.
    The aerosol polarimetry sensor, radar altimeter, 
survivability sensor, total solar irradiance sensor--they're 
gone. The conical scan, the microwave, the Earth radiation belt 
sensor, the ozone mapper, the space environmental sensor--
they're degraded.
    Now, if the community--between the Defense establishment 
and the weather establishment, thinks that all of these things 
are needed, but we are down to the point at which we're 
canceling two-thirds of the sensors on this thing, I want to 
ask Dr. Holland and Dr. Busalacchi, what's going to be the 
impact to weather forecasting if those de-manifested sensors 
are not restored to NPOESS?
    Dr. Holland. Thank you, Mr. Chairman.
    Senator Nelson. And then, I want you to answer, what's 
going to be the impact on climate study?
    Dr. Holland. I will address the impact on the weather 
sensors. I'll leave it to my colleague to address the climate 
study.
    Senator Nelson. OK. And let me just say, I've got to end 
this hearing at 11:30, because we've got a major vote that's 
going to occur at that point. So, if you will keep your answers 
very concise.
    Dr. Holland. I'll be very brief. I can say that there have 
been a number of peak bodies that have met and discussed this 
topic from the weather perspective. The impact will be 
substantial. I don't want to go into the details of the 
substantial nature of that. To some extent, the current 
observing system can be stretched to accommodate some of the 
impact. It cannot accommodate all of the impact. And the 
reality is that there will be forecasts and warnings of severe 
weather and other atmospheric phenomena that are not as good as 
they should be; indeed, not even up to the--to what we would 
have expected to be happening in the future. And, as some 
research instruments degrade and disappear, that problem will 
only get worse.
    Senator Nelson. Dr. Busalacchi?
    Dr. Busalacchi. With respect to climate, that chart up 
there really illustrates--to abuse the words of Neil 
Armstrong--right now we're taking one giant leap backward for 
mankind. Five of those sensors--total solar irradiance, the 
major driving energy force for the planet--we'd be breaking a 
20 year record. In terms of the debate between anthropogenic 
forcing and natural variability, we've seen that these changes 
are small. They actually have been decreasing, but we still 
need to continually monitor.
    Earth radiation budget, we need to monitor what's coming 
into our planet, what's going out, so we can, again, understand 
how the temperature is rising on our planet.
    Ocean surface topography, we need to monitor, globally, 
sea-level rise. And these observations are the major input that 
drives short-term climate forecasts and our ability to predict 
the El Nino phenomenon.
    Stratospheric ozone looks at the vertical resolution of 
stratospheric ozone, the depletion of the ozone layer, and now 
the recovery, post-Montreal Protocol. Without that Limb 
sounder, we will not have that ability to resolve the vertical 
abundance of ozone.
    Atmospheric aerosol properties is another--once you get 
beyond greenhouse gases, one of the largest uncertainties is--
in the coupled climate system is atmospheric aerosols. With the 
continued industrialization of China and India, as a Nation we 
need to be monitoring and understanding, What are these direct, 
and these indirect, effects of aerosols?
    And we've already discussed the issue of surface winds from 
scatterometry. From the climate perspective, the surface winds 
are the major forcing function that moves heat around the 
ocean, and that's what modulates the coupled climate system and 
allows us to have this predictive capability.
    So, without those five sensors, we're going to be going 
blind with respect to our ability to monitor and predict 
climate in the years to come.
    Senator Nelson. All right.
    Ms. Kicza, you've heard the statements of these two 
gentlemen. Why did we let our--do you agree with those 
statements? And why did NOAA and NASA let it get into this 
condition?
    Ms. Kicza. Yes, sir, I do agree with the statements, in 
terms of the severity of the impact of the decisions, relative 
to the NPOESS Nunn-McCurdy certification. What I will also 
acknowledge is that it is critically important that we maintain 
continuity with the NPOESS platform. And the tri-agency 
Executive Committee jointly came to the conclusion that, in 
order to preserve weather continuity and to maintain a 
technical complexity of the system to allow us to deliver in 
the 2013 time frame, that we had to reduce the number of 
sensors on the platform.
    In the wake of that decision, NOAA and NASA, with the 
Administration, have been actively engaged in identifying 
options to mitigate this current situation. And, in fact, as 
Dr. Busalacchi had indicated, we're working closely with the 
research community to examine those options so that, as we move 
forward, we move forward with the right decisions.
    Senator Nelson. So, the bottom-line answer is, we let 
ourselves get into this position, there is no way out, except 
to cancel these and then try to make up for lost time later.
    Ms. Kicza. We got into a position, with the NPOESS program, 
where we could not meet the continuity objective. That was due, 
in large part, to the maturity of the instruments, not being as 
mature as had been anticipated, and to the late understanding 
of that situation. As David Powner has indicated, that was 
recognized, as part of the Nunn-McCurdy process, and we have 
put steps in place, on both NPOESS and lessons learned in GOES-
R, to avoid that situation in the future. That does not suggest 
that the decisions that were made do not have significant 
impact, and that's why we're also working very closely to 
identify how to mitigate the impacts of those decisions.
    Senator Nelson. The Administration comes out with 5 year 
plans. Do we have, in the next 5 years, the plan to start the 
restoration of these instruments that have been canceled or 
degraded?
    Ms. Kicza. Sir, as we indicated in the FY07 budget, we've 
already made decisions to begin to restore those capabilities. 
NASA and NOAA have jointly funded the OMPS-Limb sensors so that 
a full ozone suite can be available on the NPP spacecraft, 
which is scheduled for launch in 2009. As an integral part of 
the 2009 budget, we're actively engaged in looking at every one 
of those sensors, to identify options to either re-manifest 
them on the NPOESS platform or to look to other platforms where 
those sensors can be manifested so as to maintain the 
continuity of the climate record.
    Senator Nelson. So, in the next 5 years, are we going to 
see all of those start to be restored?
    Ms. Kicza. Those are the decisions that are being 
discussed, as we speak, as part of the 2009 budget development 
process.
    Senator Nelson. I'm going to turn to my colleague here, but 
let me just ask this. The GAO has reported that there are too 
many cooks in the kitchen. You've got a hydra-headed monster 
here who can't decide which way it wants to go. What is your 
proposal for that?
    Ms. Kicza. I can provide you my personal observations. I've 
been in this position a relatively short time, but what I have 
seen is, in the wake of the Nunn-McCurdy decision, the level of 
management attention and the level of agreement and cooperation 
and rapid response to any issues that have been brought forward 
with NOAA has been quite impressive. The Executive Committee, 
consisting of Dr. Sega, Dr. Griffin, and Vice Admiral 
Lautenbacher, meet on a regular basis formally, and they have 
teleconference discussions in between those formal discussions 
in order to make sure that decisions are made in a timely 
fashion.
    Senator Nelson. It's been said, in NASA circles, that NASA 
knows how to design, build, launch, and operate satellites, and 
NOAA doesn't, but NOAA was given this responsibility. What do 
you say to that?
    Ms. Kicza. I say that we have taken close heed to the 
lessons learned with the NPOESS program, and we've recently 
made decisions on the forward strategy for the GOES-R program, 
in terms of the management and acquisition, in which each of us 
relies on our inherent strengths and competencies. As a result 
of that, we've made the decision to have NASA be responsible 
for the development of the instruments, the development of the 
spacecraft, and the support of the launch vehicle systems. 
NOAA, that has an operational record for ground systems since 
the early 1960s, as you've identified, has responsibility for 
the ground segment.
    So, yes, we are paying attention to the concerns that have 
been expressed about falling back on where our strengths are.
    Senator Nelson. So, the long and short of that is, NASA's 
going to take back the building and launching of the satellite, 
and NOAA is going to operate it.
    Ms. Kicza. In the GOES-R arena, yes, that is the direction 
we've moved to.
    Senator Nelson. How about the follow-on to NPOESS?
    Ms. Kicza. In terms of the follow-on to NPOESS, that's a 
future discussion, sir. We have not yet addressed that.
    Senator Nelson. Well, it might be instructive to hear, 
then, if you've decided that on GOES-R, are you going to do 
that on NPOESS?
    OK, Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for holding this hearing and conducting such a thorough review 
of such an important area. I know that it's of specific 
interest to your region of the country. It is not of any less 
significance in our region, as weather and climate play an 
incredible role in everything from our hydro system to our 
coastline to a variety of things. So, getting this information 
right is important.
    I hope I can enter a longer statement in the record.
    Senator Nelson. Without objection.
    Senator Cantwell. I also am concerned today, I don't know 
where, in this short period of time we have left, to dig in, 
because I think that this is an issue of management and 
management oversight, or failure of management oversight. Maybe 
even from the pure structural level; failure in oversight on 
this budget as it relates to this contractor and the way the 
contract is run, and the cost overrun on this contract. The 
fact that a recent reassessment in baseline is now being moved 
away from, and it was just done last month, shows me that 
people haven't come with a realistic certainty here about what 
it's going to take to get this right. And then, there is the 
science itself. I could launch into the whole question of 
whether the Administration is even serious about getting access 
to this information, given what I think it means, and the 
importance of what it means in climate change. But I'll try to 
be more specific, because, first of all, I don't want anybody 
out there to get lost in all our acronyms.
    And I want to start with you, Dr. Busalacchi, is that 
correct, Busalacchi? Thank you. About these national polar 
environmental satellites. They're there for a reason. And my 
understanding is, we're trying, on the climate side, I'll leave 
the other assessments to my colleague from Florida, but we're 
trying to assess, through these various sensors that are now 
not being funded, the change in sea-surface temperature that we 
know has been linked to climate change, and it also has been 
correlated with the intensity of hurricanes. Is that not 
correct? I mean, I don't know if it's all conclusive yet, but 
we're trying to understand that correlation. The reason why 
we're trying to understand that, and that the sensors that we 
now won't have, to better understand it, is that these sea-
surface changes have dramatic impacts on the intensity, or the 
potential intensity, of hurricanes. And that's what we want to 
study and understand. Is that correct?
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington

    Thank you, Senator Nelson.
    Our Nation's climate and weather satellites are among the most 
vital services our government provides.
    By supplying critical data, satellites allow forecasters to predict 
dangerous weather and enable climate scientists to foresee dangerous 
long-term trends like global warming.
    The bottom line is, satellites help protect us all.
    Hurricanes threaten the Southeast and Gulf of Mexico regions. 
Tornados tear through towns and cities in the Midwest. And dangerous 
coastal storms frequent my home State of Washington.
    Because of moments like these, we rely on our climate and weather 
satellites every day.
    Our Nation's fleet of climate and weather satellites should be the 
best in the world, and maintaining that fleet is essential. Our 
citizens deserve no less.

The Problem
    We are not here today, however, to simply praise the importance of 
our climate and weather satellites. That fact is self-evident.
    We are here because the future of our climate and weather 
satellites is in serious doubt.
    Faced with massive cost overruns and schedule delays, it is 
uncertain which satellite capabilities our government will be providing 
in the future. It is also uncertain whether the satellites of the 
future will protect us as much as our current satellites.
    I believe that in order to fix a problem, we must first agree on 
what that problem is--and precisely how serious it is.

Climate Change Sensors Cut
    From an initial look at the satellite program, I am particularly 
concerned about the elimination of key climate sensors vital to our 
national interest.
    During a recent review of the NPOESS satellite system, most of the 
climate sensors were eliminated because of the program's multi-billion 
dollar cost overruns.
    I understand that for both the National Oceanic and Atmospheric 
Administration (NOAA) and the Department of Defense, maintaining the 
weather sensors is a higher priority than climate sensors.
    I am extremely concerned to see, however, that we are cutting our 
climate monitoring capabilities at the exact moment when we should be 
increasing them.
    Climate change is a dangerous threat with enormous implications for 
our Nation. The notion that we are cutting sensors that monitor climate 
change--precisely when we need them the most--is unacceptable.

Poor Program Management
    I am also extremely concerned about the poor management of our 
satellites programs.
    Our climate and weather satellites were being bought under a system 
called ``Shared System Program Responsibility''. Under this system, 
responsibility for oversight was given to a single lead private 
contractor.
    Senator Snowe and I have extensive experience with this type of 
management system through our oversight of the Coast Guard. The Coast 
Guard's troubled Deepwater program used a similar management system 
called a lead systems integrator.
    The parallels between these programs' failures are extremely 
troubling.
    For example, in both programs the lead contractors consistently 
received massive award fees despite repeated failures.
    In the case of the NPOESS satellite program, the lead contractor 
has received over $123 million in award fees for ``success,'' despite 
running the program billions of dollars over-budget and years behind 
schedule.
    If that is success, I would hate to see what failure looks like.

Conclusion
    When dealing with precious taxpayer dollars and the safety of our 
citizens, we have an obligation to do far better.
    I appreciate the optimistic assessments put forth by the satellite 
programs, but optimism can also be very dangerous.
    I believe that in this circumstance, what we need most is a candid 
discussion about the realities of where we're at and where we're 
headed. Only by directly and aggressively facing problems up-front, can 
we move forward successfully and responsibly.
    I thank you all for being here and I look forward to your 
testimony.

    Dr. Busalacchi. That is correct. And that's why it's so 
important--that's why it's so important we not have a break in 
the record, because continuity is so important, because we're 
looking at the time rate of change, how these extreme events 
may be changing on the time scales from years to decades. And 
so, that's why, again, it's so important that we not have these 
breaks in the record. And, as that chart shows, that's what 
we're up against.
    And with respect to the previous discussion, as it pertains 
to NPOESS, the NPOESS priority ended up being weather. What 
we've learned for climate, we need more of an adaptive systems 
approach, a much more flexible approach, where we not rely on 
the one-size-fits-all Battlestar Galactica sorts of platforms 
that have really boxed us into and reduced our flexibility to 
continue some of these sensors.
    Senator Cantwell. But we're cutting that now. Is that----
    Dr. Busalacchi. That's correct.
    Senator Cantwell.--right? We're cutting that information 
availability.
    Dr. Busalacchi. That--we're cutting that. But then, we----
    Senator Cantwell. But----
    Dr. Busalacchi.--don't know what we're replacing it with.
    Senator Cantwell. For us in the Northwest, we know that--we 
know that every 300 years we're going to have a tsunami. To 
know that, analyze it, study that, study that impact and have 
plans in our community, is critically important. to not have 
continuity in climate change information, to me it is 
shortsighted and absurd, to be throwing out this information at 
a time when we know that climate change is having an impact and 
that we need to understand its impact on our weather.
    Now, to the contract, because I think this is very 
important. This contract included an award fee incentive making 
it possible for contractors to earn up to 20 percent of the 
total estimated cost. Is that not correct, Mr. Powner or Ms. 
Kicza?
    Ms. Kicza. Yes, the contract, prior to the Nunn-McCurdy, 
did have a 20 percent total fee.
    Senator Cantwell. And usually, I think GAO, you did an 
analysis that determined that less than 1 percent of DOD-
awarded contracts provided award fees in excess of 15 percent?
    Mr. Powner. Yes, there was also--if you look at this, the 
IG actually did some very detailed work on this award fee 
structure. And the bottom line on all this, Senator Cantwell, 
is that the contractor was receiving award fees at a time when 
this program was performing quite poorly. And that since has 
changed, but there was a long stretch where award fees were 
paid when performance was quite poor.
    Senator Cantwell. How is that possible?
    Mr. Powner. One item that we pointed out in our many 
reviews of NPOESS is the lack of contractor oversight. When you 
start looking at oversight of contractors and oversight of 
subcontractors below prime--below the prime contractor, there 
were a lot of issues there, from the oversight of the prime 
contractor all the way down to subs.
    Senator Cantwell. Well, I might come to this hearing with a 
little less anger about that situation if I hadn't sat through 
so many Deepwater oversight hearings about lead systems 
integrators, and lead system integrators writing their own 
ticket. To me, this shared system performance responsibility is 
very similar to a lead systems integrator. The fact that we 
awarded bonus contracts on top of the nonperformance, in 
addition to the nonperformance, in and of itself, that is now 
leading us to this conclusion that we are going to cut sensors 
on vital climate change information, is just a failure. And we 
need to correct this.
    I want to get back to the agency individuals who are 
testifying here today. Do you believe that the, either Dr. 
Freilich or Ms. Kicza, do you believe the agency, in light of 
the Northrop Grumman performance, profit award fee of $123 
million, was justified? Do you believe that was justified, the 
award bonus?
    Ms. Kicza. Ma'am, I believe that there were failures in the 
award fee process. And, in fact, in response to recommendations 
from both the GAO and IG, we have changed both the structure of 
the award fee process, as well as the Fee-Determining Official. 
And, in fact, the last two award fees for the contractor have 
been substantially less, and/or zero, as a direct result of the 
failures that resulted in the Nunn-McCurdy process.
    Senator Cantwell. But there was a profit award fee of $123 
million.
    Ms. Kicza. I acknowledge that that fee was paid, yes. And--
--
    Senator Cantwell. Was that justified, yes or no?
    Ms. Kicza. Ma'am, I would have to defer that to the Air 
Force that has the acquisition responsibility.
    Senator Nelson. But you all have a responsibility for 
NPOESS.
    Ms. Kicza. And, as I indicated, in response to the failures 
that were recognized and that led to the Nunn-McCurdy process, 
the last two award fees have been reduced and--and, in fact the 
last one has been zero----
    Senator Nelson. But the----
    Ms. Kicza.--in direct response----
    Senator Nelson.--original one that----
    Ms. Kicza.--to the failure.
    Senator Nelson.--Senator Cantwell brought up was paid.
    Ms. Kicza. That is correct.
    Senator Nelson. Even though this thing was a disaster, they 
still got, how much, Senator Cantwell? $123----
    Senator Cantwell. $123 million.
    Senator Nelson.--million award fee.
    Senator Cantwell. We started at a $6.5 billion cost 
estimate, and then it went to $12.5 billion. And I think, in 
and of itself, we could digest that. But I think we are far 
from understanding, in addition to the fact that we aren't 
going to get sensors on climate change, that costs are going to 
be contained at this level. Are you willing to guarantee that 
this new baseline cost estimate is the true cost estimate and 
we're not going to see any additions in an increase in that? Do 
you think that's a realistic estimate?
    Ms. Kicza. Ma'am, what I can tell you, is that, in the last 
18 months, the NPOESS program has significantly increased the 
government oversight. In fact, we've added a 32 percent larger 
staff, both technical and program control staff. And in the 
past 18 months, this program has been on budget and on 
schedule.
    Now, as Mr. Powner acknowledged, we have significant risk 
ahead. We are not through this yet. But I will assure you that 
continued vigilance in management oversight and in technical 
oversight will be applied to this program.
    Senator Cantwell. I'm looking for information here, but it 
appears that, even though you had new deadlines that were just 
set recently, I think, in the last month, that those deadlines 
won't be met, that the DOD Under Secretary for Acquisition 
issued a memo extending these deadlines from a few months to 
even a year past the new targets. Is that correct, from the 
June date?
    Ms. Kicza. Ma'am, you're referring to some deadlines for 
documents, and the Defense Acquisition Executive within the DOD 
did recently extend those documents to a later due date. And 
the fact of the matter is that the program was focusing on 
dealing with the issues, and the Defense Acquisition Executive 
acknowledged that, and, as a result, extended the due date for 
specific key documents.
    Senator Cantwell. And what do those documents entail?
    Ms. Kicza. If I could take that question for the record, I 
have it here, but I'd have to search through my things. One is 
the MOU. There are four key documents, and I'll provide that 
information for the record.
    Senator Cantwell. I think that'll be very important, 
because it appears to me that several deadlines are going to be 
revised, only from a month ago, and that we are already behind 
schedule. Now, I'm happy to see those documents, and happy to 
see, but I think you can see where my concern is, is that, what 
safeguards we have in place now that we are going to prevent 
further cost overruns, that are going to have the program on 
target and on budget. I don't know, Mr. Powner, if you have 
ideas about the additional risk and oversight that we should be 
implementing.
    Mr. Powner. One comment about those documents. We're 
about--we're getting ready to ink a new contract on NPOESS, and 
some of those documents include an integrated master schedule, 
an overall testing plan. Those are types of things you want 
solidified before you enter into a new contract, because what 
does that mean? That means that there are likely contract mods, 
and that typically equates to cost increases. So, if you look 
at our latest report, we think it's very important that they 
actually get those documents approved as quickly as possible. 
In fact, we recommended that they be approved in April. And, as 
you're pointing out, it's been extended even further.
    Senator Cantwell. But you want those documents to be 
correct, as well----
    Mr. Powner. Absolutely.
    Senator Cantwell.--correct? So, basically, submitting a 
schedule that's not realistic or hasn't answered the questions 
about technology, simply for the purposes of saying that you 
have a schedule, is not valid, as well as maybe not even just 
having done the homework, in and of itself.
    Mr. Powner. And if you look at the approval of those 
documents, it's basically just calling for an adherence to DOD 
policy. When you come out of a Nunn-McCurdy review, it--those 
dates were set, basically, on a template that's followed based 
on other DOD programs. So, that's one of the concerns we have 
about this interagency cooperation, because if we can't agree 
to a simple Memorandum of Understanding on how the program's 
going to be run, going forward, that's an issue.
    Senator Cantwell. Senator Nelson, if you would like, I'm 
sorry, thank you, I know I was over my limit.
    Senator Nelson. Well, you're welcome. And you brought out 
very, very important information here. I am mindful of the fact 
that we're supposed to have this vote at 11:30.
    I want to put into the record, following up your 
conversation from the Department of Defense Acquisition, 
Technology, and Logistics, Kenneth Krieg, a memo dated June 
2007, of which all of the Nunn-McCurdy replanned dates for 
various action items for this NPOESS satellite that have 
already been late, every one of them have been given a new date 
that is further delayed by at least a year, and, in most 
cases--in some cases, a one-year delay.
    The most recent document, which we will enter into the 
record, on the status of the acquisition decision, memorandum 
documents, also from Mr. Krieg's office, that's pointing out 
that three of those that were given a September 2007 completion 
date, that are now behind schedule in their work.
    [The information previously referred to follows:]

                                 ______
                                 
                                                       June 7, 2007
The Under Secretary of Defense
Washington, DC.
Memorandum for Program Executive Officer for Environmental Satellites
    Subject: National Polar-orbiting Operation Environmental Satellite 
System (NPOESS) Acquisition Decision Memorandum (ADM) Amendment

    After considering your April 2, 2007, request for an amendment to 
the June 5, 2006, NPOESS ADM, I am resetting the delivery date for 
selected acquisition documents to the following:

------------------------------------------------------------------------
          Action item              Original date           New date
------------------------------------------------------------------------
#1 Alternate Management Plan    June 2007            Sept. 1, 2007
#3 Award Fee Plan               Unspecified          Oct. 1, 2007
#7 Acquisition Program          Sept. 1, 2006        Dec. 1, 2007
 Baseline
#7 Acquisition Strategy Report  Sept. 1, 2006        Sept. 1 2007
#7 Test and Evaluation Master   Sept. 1, 2006        Mar. 1, 2008
 Plan
#7 Systems Engineering Plan     Sept. 1, 2006        Sept. 1, 2007
#8 Two Orbit Plan               Nov. 15, 2006        Oct. 1, 2007
#10 Fill IPO Vacancies          Aug. 4, 2006         Sept. 1, 2007
#15 LSP/PMSP COORD              Sept. 2006           Sept. 1, 2007
#16 DMS/POI Plan COORD          Sept. 2006           Sept. 1, 2007
#17 Tri-Agency MOA Coord        Aug. 4, 2006         Sept. 1, 2007
#18 SME Review of IMP/IMP       Apr. 2007            Sept. 1, 2007
#19 Quarterly IBR Status        Sept. 2006           Sept. 1, 2007
 Report to MDA
------------------------------------------------------------------------

    As provided above, the Acquisition Program Baseline must be 
completed and signed by December 1, 2007, to support the annual 
delivery of the Selected Acquisition Report. The Test and Evaluation 
Master Plan (TEMP) shall complete coordination and be signed by March 
1, 2008. To ensure that this March I, 2008, due date is satisfied, a 
draft submission of the TEMP should be provided to DOT&E and NSSO DT 
for review and comment by September 1, 2007.
                                          Kenneth J. Krieg,
        Under Secretary of Defense for Acquisition, Technology and 
                                                         Logistics.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Nelson. So, if it is this hydra-headed monster that 
the GAO tells us is unable to crack the whip and keep this 
going, we'd like you all to come back to us with additional 
information as to how you're going to get it on schedule.
    Senator Cantwell. Mr. Chairman, I think we should go even 
further, having a second to look over these memorandum 
documents, I think you're pointing to the very issue, the fact 
that there are several agencies involved here.
    But, now that there has been intensity and light shown on 
this issue, I would hate to see the agencies continue to try to 
post dates that aren't realistic. And there is just something 
striking about the fact that we are less than 30 days from when 
the plan was originally made, and we're already submitting date 
changes to that plan. It says to me the original plan and 
proposal wasn't accurate or thought out in the details, to say 
nothing of the larger discussion, which I think we should be 
having in the U.S. Senate, and that is, do we want to do 
without these sensors? I would say no. I would say that we need 
to find a way to move forward on these climate change sensors, 
particularly to the continuity and the vital information that 
we are getting from this.
    I think that we, and the Nation, have all been shocked by 
the impact that Hurricanes Rita and Katrina had on our coastal 
regions, and the significant amount of damage and impact of 
storm intensity. And to have good data about correlations and 
impacts of that, the difference between the various causes of 
those issues, are vitally important. So, I would hope, besides 
just scrubbing the oversight and management and delivery dates 
of the current contract, we'd look at this larger issue.
    Senator Nelson. Before we have to adjourn I will submit, 
for the record, on my behalf and on other members of the 
Committee behalf, detailed questions that we would like you to 
respond in writing.
    But before we have to adjourn because of the vote, I want 
to get into the loss of climate monitoring capability. The 
downgrading of this monitoring of, not only NPOESS, but also 
the GOES-R, this is occurring, very interestingly, at a time 
when the international scientific community has reached a 
consensus that: human activity is the cause for increasing 
atmospheric carbon dioxide concentrations, and that these 
elevated CO<INF>2</INF> concentrations have resulted in 
significant global warming.
    It's interesting that all this is going on at the same time 
that this is happening with these satellites. From these 
assessments, it's clear that continued research and monitoring, 
as well as aggressive action to limit greenhouse gases, is 
needed. We're going through this daily. We just went through it 
last month with regard to the energy bill. But, at the same 
time, the Administration has refused to limit these greenhouse 
gases. And the decreases in the Federal climate science budget, 
reports of political appointees that are interfering with 
dissemination and discussion of Federal climate science, and 
the lack of an effective national assessment of climate change 
impacts, point to an Administration's silence in this global 
climate change debate. And so, the decommissioning of these 
climate sensors scheduled for NPOESS and the GOES-R satellite 
is another indication of the lack of interest in the 
Administration or the political will to deal with this.
    So, I want to ask some questions. The National Research 
Council, the American Association for the Advancement of 
Science, and NOAA and NASA raise concerns about the loss of 
climate data and climate monitoring capability as a result of 
decommissioning of these sensors. So, other than what you've 
already told us on a budget issue, what's going on here? Were 
these sensors cut from these programs because of a lack of 
emphasis on climate change and global warming?
    Dr. Freilich?
    Dr. Freilich. Well, sir, let me say that in the FY08 budget 
request that you're looking at right now, on the research side 
NASA will be launching seven research missions--not NPOESS, but 
seven research missions--between now and 2013 to address many 
of the climate science questions that have been raised. Among 
those are the ocean surface topography mission to measure--
continue the measurements of global sea-surface elevation and 
sea-level rise; the orbiting carbon observatory, to make first-
ever measurements of sources and sinks on 1,000 kilometer sort 
of scales, globally; and several others. NPP is one of those--
--
    Senator Nelson. All right. Well----
    Dr. Freilich.--but we have many other research missions 
that will be launched.
    Senator Nelson. All right. Let me ask you about the radar 
altimeter. This is a sensor that would provide critical data on 
the health of the coastlines and prediction sea-level rise, 
something that the two Senators here have a considerable 
interest in for the people that live along the coastline of 
this country. So, could you tell me why that sensor was 
decommissioned?
    Dr. Freilich. I cannot say why it was decommissioned, in 
detail, for NPOESS, except as part of the refocusing of NPOESS 
on its weather focus. However--again, to point out--NASA 
started out with the TOPEX/Poseidon radar altimeter mission. We 
are now flying the Jason-1 radar altimeter mission. And, in 
June 2008, we will be launching the follow-on to that, the 
ocean surface topography mission, with our international 
partner, the French Space Agency. So, we have established, and 
continue to launch, through OSTM, these high-precision radar 
altimeters to measure global sea-level rise.
    Senator Cantwell. Mr. Chairman?
    Senator Nelson. Ms. Kicza, why was the radar altimeter 
decommissioned?
    Ms. Kicza. Dr. Freilich correctly assessed it, we kept our 
focus on maintaining weather continuity.
    I would like to add to what Dr. Freilich has indicated. 
This next mission is the Ocean Surface Topography Mission. It's 
the follow-on to Jason-1. NOAA, in fact, is a partner in that 
effort, and we're supporting the ground system as part of a 
research-to-operations activity. And we're now actively engaged 
with EUMETSAT for looking at Jason-3, which is the follow-on to 
the OSTM mission. And that, too, is part of the dialogue that 
we're having with the Administration on continuity of this 
critical measurement.
    Senator Nelson. Senator Cantwell?
    Senator Cantwell. Well, I just wanted to jump in there on 
this question, because I heard Dr. Freilich's testimony 
earlier, and we're talking about different information, aren't 
we, Dr. Busalacchi? I mean, the fact that you would say, ``OK, 
we're going to solve this problem by having, a measurement on a 
certain time and basis from these airplanes, versus the 
constant continuity of information on temperature over a long 
period of time, and changes to that temperature, is what is 
essential in measuring this impact of climate change surface 
temperature on sea level to the intensity.'' That's what we're 
trying to measure. So, to think that you're going to have some 
missions, which I think also have been underfunded, and say 
that that is a substitute for this, I think, is not 
understanding, or not portraying the science in the right way.
    Senator Nelson. And before you answer that, let me just 
corroborate what the Senator has said. The President's budget 
for NASA's Earth Science program was $1.5 billion for Fiscal 
Year 2008, the one that we're planning for. That's $500 million 
less than was recommended by the Earth Decadal Survey.
    Dr. Busalacchi. That is correct.
    As I said in my written testimony, right now we do not have 
a single agency within this country that has the mandate, nor 
the budget, for operational climate monitoring, operational 
climate prediction, and the offering of operational climate 
services. It's like during World War II--coming out of World 
War II we developed numerical weather prediction and 
operational sense. Within the past 20 years, we're moving into 
that direction for the country with respect to operational 
climate.
    Two years ago, the interim report of the Decadal Survey 
indicated that this system of environmental satellites is at 
risk of collapse. That was very prescient. That was 1 year in 
advance of the Nunn-McCurdy certification process. Earlier this 
year, the Decadal Survey stated that, in the short period since 
this interim report, budgetary constraints and programmatic 
difficulties at NASA have greatly exacerbated this concern. At 
a time of unprecedented need, the Nation's Earth observation 
programs, once the envy of the world, are in disarray. And, as 
Senator Nelson pointed out, the FY08 budget request is not 
adequate to implement the recommendations of the Decadal 
Survey.
    Senator Cantwell. But, Dr. Busalacchi, I was being more 
specific. Are these planes a substitute?
    Dr. Busalacchi. As Dr. Holland said, we need to look at the 
total system. It's not either/or. It's planes, it's in situ, 
and it's the satellites. We need to take a systems approach, 
and we haven't been doing that. That's part of the national 
strategy that we need to have, that I was alluding to in my 
testimony.
    Senator Nelson. Well, I----
    Senator Cantwell. Well, I'll--go ahead, Mr. Chairman.
    Senator Nelson. Well, I want to ask both of you--Dr. 
Holland and Dr. Busalacchi--what is your opinion? Is politics 
driving some of these technical decisions that is lessening the 
emphasis on instruments that are measuring climate change?
    Dr. Busalacchi. Well, I'll--I'd have to say that I was a 
NASA employee for 19 years, and moved to the university in 
2000. I've seen--since I joined the agency, in 1982--since I 
joined NASA, in 1982, I've seen a distinct change in the 
emphasis on the science. And whether or not you want to call it 
politics or not, clearly there has been a shift in the emphasis 
within the agency for exploration, turning our eyes and ears of 
satellites to outer space, and defocusing the emphasis on 
planet Earth. That is a stated fact.
    Senator Nelson. Dr. Holland?
    Dr. Holland. I think it's fair to say that there are 
political decisions being made which negatively impact our 
capacity to understand the weather system. Whether that is a 
deliberate policy or not, I'm not in a position to know.
    I would, however, like to just address the altimeter, since 
you also addressed that. We've focused on the climate side of 
things. That altimeter is absolutely crucial, from a hurricane 
forecasting point of view, because without it we don't have the 
information of the subsurface ocean energy which is critical to 
understanding and predicting, in particular, the rapid 
intensification of hurricanes, as we've seen in the last few 
years, with Hurricane Rita and Hurricane Katrina, moving over 
that deep, warm pool in the Gulf of Mexico.
    Senator Nelson. That was the radar altimeter that you're 
talking about. That begs the question; the decision to remove 
those sensors, that would have increased our capability to 
monitor climate change and tracking the hurricanes. What do you 
think we ought to do?
    Dr. Holland. I guess I'm a fan of Satchel Paige, and I 
don't think we should spend too much time looking backward, 
because they might be catching up. What I'd rather say is, what 
has happened has happened, and I think it now behooves us to 
make sure that we take the best possible technical and 
scientific decisions, without any political interference, to be 
able to move forward.
    Senator Nelson. Do you think, with all of these studies 
that are coming up, that we're going to be in a position where 
we can make those decisions without political interference?
    Dr. Holland. I really am not in a position to be able to 
answer that. I think it behooves you and your colleagues to 
also make sure that happens. I come from the scientific side. 
All I can say is that the best science and the best technology 
is not being applied fully to the problem, at present.
    And I want to emphasize a point, here, and that is, it's 
very easy to concentrate on a specific instrument or a specific 
type of instrument. What--there are significant problems with 
the entire forecast and warning process, and that it is like a 
chain. And if one link is weakest, that's where the chain 
disappears. And I think what we really need to do--and I'm sure 
we're not doing this, at present--is taking a proper integrated 
look at the entire process and how all of the relevant elements 
fit within that.
    Senator Nelson. Well, hopefully that will occur. But, in 
case some of you feel like we've been too rough on you, let me 
just assure you, there is a lot at stake, and there are 
millions of people that live close to the coast in this country 
that are depending on the U.S. Government to get it right. And 
the hard questions need to be asked, and they need to be 
answered.
    We'll go back, this will be the concluding thought, the 
GAO, which is a nonpolitical and it's not only a bipartisan, 
it's a nonpartisan group of people who analyze what went wrong 
and what to do about it. They've clearly stated, and we see 
some evidence, since there is still slippage in this program, 
that the decisionmaking has not been coalesced around a 
significant point, but that it's still split up, which is part 
of the reason that GAO has testified that it's gotten us into 
the fix that we're in, in the first place. So, what we would 
like you to do, since we have the responsibility of looking 
over the shoulder of the Executive Branch, is to make sure that 
you report to us on how that's been fixed, the new time 
schedules that you're on, what instruments are going to be 
ready and when, and give us a realistic time schedule, as well 
as a cost estimate, because it's this branch of government that 
has to appropriate the money. And then, hopefully we can get 
this problem straightened out.
    I want to thank you all for your testimony. I want to thank 
you for your patience. I would love to come up and greet you, 
but we are down to 7 minutes to vote.
    So, with that, the meeting is adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Daniel K Inouye, U.S. Senator from Hawaii

    Observations from our weather and environmental satellites are 
critically important for the Nation's weather forecasting and research, 
as well as climate change science. I come from a state that is 
surrounded by the ocean, and my constituents rely on these eyes in the 
sky to provide accurate and timely information.
    Both the Central Pacific Hurricane Center in Honolulu and the 
National Hurricane Center in Miami rely on satellite data to improve 
storm watches and warnings. Hawaii is at risk for hurricanes, and while 
storm frequency seems to be reduced when compared to the Atlantic, it 
only takes one major storm to wreak havoc on an island.
    These two centers track these devastating storms from start to 
finish and issue warnings for all our coastal communities that are at 
risk from landfall.
    Weather and environmental satellite observations also contribute to 
our increased understanding of the impacts of climate change--another 
topic of critical importance to the Nation.
    In Hawaii, satellite-derived measurements of sea surface 
temperature, for example, can be used to predict the health of coral 
reefs--particularly coral bleaching events.
    The scientific community is concerned that the United States is 
losing key satellite observing capabilities, particularly for climate 
research and accurate weather forecasts. A number of satellite programs 
have experienced difficulties, including cost overruns and schedule 
delays.
    We need to be proactive in addressing these problems and employing 
the technologies necessary to ensure accuracy in forecasting and 
research. The citizens of Hawaii and other coastal states deserve no 
less.
                                 ______
                                 
  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman, for holding this hearing on the state of 
our Nation's environmental and weather satellite infrastructure. Given 
that satellites provide over 90 percent of our Nation's weather 
prediction capabilities, it is critical that we ensure our forecasters 
have nothing less than the best available data so they can provide 
precise, advance warnings of impending storms. Today's discussion is 
particularly timely, in light of this week's leadership change at the 
National Hurricane Center and the ongoing debate regarding the 
replacement of the QuickSCAT satellite.
    I would like to thank our witnesses, Administrator Kizca, Mr. 
Powner, and Doctors Freilich, Holland, and Busalacchi, for appearing 
before this committee today to discuss this vital concern. I look 
forward to hearing your testimony about how we can improve our Nation's 
weather and environmental satellite systems and continue providing 
accurate and timely weather and climate predictions for the American 
people.
    This hearing coincides with a change in leadership at the National 
Hurricane Center announced by NOAA just 2 days ago amid conflicting 
reports about the Center's ability to continue providing precise 
hurricane tracking and other vital predictions. I look forward to the 
release later this month of a NOAA report detailing the circumstances 
that led to this decision, and in the meantime, it is imperative not 
only that our forecasters have the tools they need to develop accurate 
hurricane track projections, but also that the public has enough 
confidence to heed those warnings once issued. We all saw the 
devastation wrought upon the Gulf Coast during Hurricane Katrina nearly 
2 years ago. We must not lose sight of the Hurricane Center's 
remarkable precision of prediction and rapid dissemination of 
information that resulted in wide-scale evacuations and preparations 
that saved thousands of lives during that terrible storm.
    I commend NOAA's scientists for their extraordinary accomplishments 
in improving the forecasts of hurricanes. Over the past 15 years our 2 
day forecasts have improved by 50 percent--cutting the difference 
between the forecast and the actual landfall to an average of 111 
miles. This is a reflection of the dedicated researchers throughout 
NOAA. Quite frankly, this work has saved resources and lives. It has 
been estimated that each mile of evacuated coastline costs reach $1 
million dollars and with the improved forecast state and Federal 
officials have been able to reduce the economic and human repercussions 
of hurricanes both before they hit, and in their aftermath.
    However, our instruments are aging, and development of their 
replacements--notably the National Polar-orbiting Operational 
Environmental Satellite System, or NPOESS (EN-pose)--has been plagued 
by cost overruns and setbacks to vital instruments. This program, 
initially budgeted at $6.5 billion, has swelled to nearly twice that 
cost, reduced the number of satellites by a third, and suffered 
significant reductions in instrumentation. If the trend of forecasting 
improvements is to continue as it has in the past several decades, we 
cannot allow these development setbacks to continue.
    The next generation of satellites is capable of providing 
additional forecasting information that will not only improve our 
Nation's weather and climate forecasting, but also accrue societal 
benefits in agriculture, energy, and the mitigation of climate change. 
Unfortunately, the investment into this infrastructure has not been 
commensurate with the potential dividends. In a 2007 report, the 
National Research Council of the National Academies stated that, ``the 
United States' extraordinary foundation of global observations is at 
great risk.'' Furthermore, the report called it ``imperative'' NOAA 
fill the data gap that would result from the demise of its QuikSCAT 
satellite, which contributes to the forecasting of hurricanes, as well 
as other storms like the one that battered the Coast of Maine on 
Patriot's Day. With the failure of QuickSCAT's main transmitter last 
year, a medium and long-term plan must be established to replace this 
information before the backup transmitter fails as well.
    The GAO has suggested that NOAA must incorporate lessons from past 
mistakes in developing realistic costs and schedules, and government 
officials must provide unwavering oversight to hold the agency 
accountable. I strongly agree with this assessment and look forward to 
hearing from our witnesses today to determine how our Nation's 
environmental satellites can upgrade to the next generation in an 
effective and financially responsible manner.
            Thank you, Mr. Chairman.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        Dr. Michael H. Freilich

    Question 1. What are the options for replacing QuikSCAT in terms of 
the various levels of capability that such a replacement could provide, 
and the trade-offs in terms of timing for making such a replacement 
operational?
    Answer. The National Oceanic and Atmospheric Administration (NOAA) 
is evaluating several options for addressing its ocean vector wind 
requirements and has contracted with NASA's Jet Propulsion Laboratory 
(JPL) to support NOAA in these endeavors, which includes examination of 
QuikSCAT replacement and QuikSCAT enhancement options. NASA stands 
ready to assist NOAA.

    Question 2. Do you have good cost estimates for such various 
options?
    Answer. NASA is supporting NOAA in the development of the options. 
Cost estimates on the preferred option will be developed by NASA's JPL 
as study products and released by NOAA at the appropriate time.

    Question 3. When will NOAA and NASA make a decision regarding a 
replacement for QuikSCAT?
    Answer. The Decadal Survey identifies a sea surface wind vector 
scatterometry mission, the Extended Ocean Vector Winds Mission (XOVWM), 
as a mid-decadal priority for NOAA. NASA continues to work closely with 
NOAA to support an efficient transition of ocean surface vector wind 
measurements from research to operations. NOAA will make the decision 
regarding the preferred option for a QuikSCAT replacement based on its 
analysis of competing options and priorities.

    Question 4. NASA and NOAA released a report in January of this year 
with recommendations for recovering from the descopes of the Nunn-
McCurdy process. What are your two agencies doing to implement those 
recommendations and are those plans part of your current operating 
plans and budgets?
    Answer. NASA is a member of the NPOESS Executive Committee (EXCOM) 
and continues to participate in the management and oversight of the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) program. From a programmatic standpoint, in the Agency's 
support role to the NPOESS Program, NASA has provided five extra full-
time technical staff to the NPOESS Integrated Program Office to lend 
increased monitoring support.
    In April 2007, NASA and NOAA provided resources from core programs 
to allow the OMPS-Limb instrument to be re-manifested on NPP, thus 
restoring the full set of nadir total ozone measurements and the limb 
profiling capabilities for NPP. As the Earth Science Decadal Survey 
committee was finalizing its notional mission set and sequence, the 
full impact of the removal of the climate sensors from the NPOESS 
program was just coming to light. NASA and NOAA, in consultation with 
the National Research Council, have structured a follow-on activity 
wherein a subset of the Decadal Survey committee, augmented by others 
they may deem necessary, would hold a workshop and provide input on how 
the agencies might mitigate the impact of the changes to NPOESS. The 
NRC workshop was held in June, in time to provide recommendations 
useful for helping to determine the FY 2009 budget requirements.

    Question 5. NASA has a satellite, Deep Space Climate Observatory 
(DSCOVR), with a space weather monitoring instrument. DSCOVR sits in a 
storage container at the Goddard Space Flight Center with no plans for 
flight. Why doesn't NASA make DSCOVR available to NOAA for its space 
weather mission?
    Answer. Although it is possible to refurbish a satellite that began 
development 9 years ago, there are certain hurdles to pursuing this 
course: (1) the DSCOVR payload does not provide all of the capabilities 
needed by NOAA for operational space weather predictions; (2) the 
DSCOVR measurements also would do nothing to replace the de-manifested 
NPOESS climate sensors nor satisfy recommendations of the Decadal 
Survey, and (3) refurbishment funding requirements are estimates only 
based on there being no problems with a stored, decade-old spacecraft 
and instruments. We will now expand on these two issues.
    A NASA technical study conducted from mid-May through June 2007 
examined the documentation related to the state of the DSCOVR 
spacecraft and instruments when placed into storage in November 2001, 
the tasks required to refurbish and launch the DSCOVR mission to the 
Earth-Sun L1 point, the availability of people having the necessary 
skills to conduct the refurbishment activities given the state of the 
available documentation, and the approximate durations of the 
refurbishment and launch campaign activities. The study concluded that 
refurbishment of the spacecraft could be completed within 15 months of 
initiation. The fifteen months refurbishment period estimate does not 
include time to acquire and accommodate the low energy ion sensor, 
which was not part of the original DSCOVR payload and which is required 
by NOAA for space weather predictions. The study assumed no schedule or 
cost estimate for problems which might have occurred during the decade 
of storage. The cost was then estimated at $23 million in FY 2007 
dollars for refurbishment alone. The study also estimated the mission 
operations and data analysis costs to be an additional $23 million for 
the baseline two-year mission. Launch vehicle costs for a delivery to 
the L1 orbit are estimated to be approximately $150 million.
    Discussions between NASA and NOAA through much of July identified 
the fact that the existing DSCOVR space weather instrument suite does 
not include a low-energy ion sensor which is part of the ACE complement 
and which is required by NOAA for their operational space weather 
predictions. These discussions also addressed possible mechanisms for 
transfer of the DSCOVR assets from NASA to NOAA, and mechanisms for 
reimbursement of NASA for refurbishment of DSCOVR by the Goddard Space 
Flight Center development team.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Dr. Michael H. Freilich

    Question 1. Will the loss of climate science sensors have a 
significant impact on the goals of the U.S. Climate Change Science 
Program (CCSP)?
    Answer. Absolutely. The U.S. Climate Change Science Program (CCSP) 
is critically dependent on the availability of long-term, stable data 
sets that allow it to address the extent to which the Earth system is 
changing over long (multi-decadal) time periods. Any gaps or 
termination of data records will be critical. As an external 
verification, the recently released National Research Council (NRC) 
report reviewing CCSP, ``Evaluating Progress of the U.S. Climate Change 
Science Program: Methods and Preliminary Results'' (released September 
13, 2007) says the following in its summary (page 5): ``The loss of 
existing and planned satellite sensors is perhaps the single greatest 
threat to the future success of CCSP.''

    Question 2. Will the loss of climate science sensors have a 
significant impact on the goals of the International Panel on Climate 
Change?
    Answer. Absolutely. The success of the International Panel on 
Climate Change (IPCC) process is critically dependent on the 
availability of good data, especially the long-term data sets needed to 
document the evolution of climate forcing and Earth system response. 
Without such long-term data sets, the IPCC scientists will have to deal 
with less certain estimates of changes in Earth system forcing as well 
as in overall response.

    Question 3. What data gaps do you expect and how will they affect 
climate change research in the U.S.--particularly with regard to the 
multi-decadal data sets that are critical for understanding global 
warming?
    Answer. NASA and National Oceanic and Atmospheric Administration 
(NOAA) are looking for ways to minimize data gaps in several areas, as 
detailed below:

  <bullet> Total Solar Irradiance: NASA's top priority for data 
        continuity is to maintain the 30-year record of total solar 
        irradiance data. To that end, NASA will launch the Total 
        Irradiance Monitor (TIM) on the Glory spacecraft in December 
        2008. Approximately 6-12 month overlap between orbiting solar 
        irradiance instruments is essential for consistent mission-to-
        mission calibration and the resulting monitoring of solar input 
        to the climate system.

  <bullet> Atmospheric Ozone Composition: NASA and the National Oceanic 
        and Atmospheric Administration (NOAA) have jointly agreed to 
        fund the Ozone Mapping and Profiling Suite (OMPS)-Limb 
        instrument as part of the NPOESS Preparatory Project (NPP) 
        mission, scheduled for launch in September 2009. This addition 
        will allow the first vertically resolved ozone measurements.

  <bullet> Moderate Resolution Land Surface Imagery: The currently 
        operational Landsat 7 spacecraft is expected to last through 
        2010. NASA is attempting to minimize the gap in the 30-year 
        record of moderate resolution land surface imagery through the 
        Landsat Data Continuity Mission (LDCM), scheduled for launch in 
        July 2011.

  <bullet> Ocean Altimetry: Current ocean altimetry data is provided by 
        the Topographic Experiment for ocean circulation (TOPEX)/
        Poseidon and Jason-1 missions. Future data will be acquired by 
        the Ocean Surface Topography Mission (OSTM), scheduled to 
        launch in June 2008. Plans for continuing the precision 
        measurement of global sea level change beyond the Ocean Surface 
        Topography Mission (OSTM) are not firm, putting the presently 
        15-year time series in jeopardy beyond the lifetime of OSTM.

  <bullet> Surface Vector Winds: NASA's Quick Scatterometer (QuikSCAT) 
        satellite has been on-orbit for over 8 years, 5 years longer 
        than its baseline mission. Responsibility for developing an 
        operational satellite to continue these measurements was 
        assigned to NOAA in the recent Earth Science Decadal Survey. 
        NASA is providing its expertise to support NOAA as that agency 
        makes its decisions about a follow-on mission. In addition to 
        contributions to weather prediction and marine hazard 
        forecasting, scatterometer wind measurements are fundamental 
        for the calculation of wind-forced ocean circulation (ocean 
        transport accounts for approximately half of the total equator-
        to-pole meridional heat transport on Earth).

    Question 4. The recertified NPOESS program is costing more to do 
less: the cost estimate increased from $6.5 billion to $12.5 billion, 
and the planned acquisition of 6 spacecraft was reduced to 4, with 
several sensors canceled or reduced in capability. Are you certain that 
the new cost of $12.5 billion is a realistic, firm estimate for the 
total cost of the program?
    Answer. The restructured NPOESS program was certified by the Under 
Secretary of Defense (Acquisition, Technology, and Logistics). Part of 
this certification is that the cost estimates for the program are 
reasonable. The Office of the Secretary of Defense (OSD) Cost Analysis 
Improvement Group (CAIG) made this determination based on their review 
of the program plans, schedules, and program risks. NOAA and the 
Department of Defense (DOD) share the NPOESS costs equally and have 
developed budgets to support this revised estimate. The development of 
advanced remote sensing instruments and spacecraft will always contain 
some risk and uncertainty however, based on the insight available to 
NASA, the budget estimates should be considered reasonable.
    Question 5. Can you guarantee me that the actual, full cost of the 
NPOESS satellites will be $12.5 billion?
    Answer. NASA will provide all the support we can to assist the U.S. 
Air Force and NOAA achieve the Nunn-McCurdy recertified NPOESS baseline 
of $12.5 billion.

    Question 6. What safeguards are in place to prevent costs from 
escalating further?
    Answer. NASA believes that the U.S. Air Force and NOAA have 
implemented the appropriate contractual safeguards to prevent cost 
escalation. In our support role to the NPOESS Program, NASA has 
provided extra technical staffing to the NPOESS Integrated Program 
Office (IPO) to lend increased technical monitoring support. Further, 
the restructured contract has a decision point in 2010 on whether to 
award the option for the last two NPOESS satellites, C3 and C4. If the 
NPOESS Executive Committee (EXCOM; composed of the Under Secretary of 
Defense (Acquisition, Technology, and Logistics), the Under Secretary 
of Commerce for Oceans and Atmosphere, and the NASA Administrator) is 
not satisfied with the contractor's technical, cost, or schedule 
performance, there will be an opportunity at that time to make a 
change.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                        Dr. Michael H. Freilich

    Question 1. Can you provide us with an update on your discussions 
with National Oceanic and Atmospheric Administration (NOAA) regarding 
transferring the Deep Space Climate Observatory (DSCOVR) spacecraft to 
NOAA to meet NOAA's solar wind requirements via a public/private 
partnership?
    Answer. NOAA and NASA technical and senior personnel met from May 
through July 2007 to discuss aspects of the DSCOVR spacecraft, the 
science capabilities of the mission in light of the National Research 
Council's (NRC) Earth Science Decadal Survey recommendations for NASA 
and NOAA, and the scope and costs of technical and programmatic options 
for refurbishing and launching the DSCOVR spacecraft. On May 11, 2007, 
NASA organized a full-day science workshop attended by more than 35 
researchers from NASA, NOAA, the Department of Energy, private 
industry, and academia, including the DSCOVR Principal Investigator. 
The workshop assessed the potential contribution of DSCOVR to Earth/
climate science in the areas of aerosols and clouds; ozone; radiation 
budget studies; and, vegetation/ecosystem studies. The workshop 
concluded that while DSCOVR sensors at the Earth-Sun Lagrange 1 point 
have the potential to make innovative measurements that could provide 
valuable augmentation for other low-Earth orbit and geostationary orbit 
measurement systems, the DSCOVR measurements would not replace the 
climate measurements that would have been made by the de-manifested 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) climate sensors. The DSCOVR Workshop report had a finding: 
``Sensors on the DSCOVR satellite have the potential to make important 
and innovative measurements from a novel perspective; further, 
measurements enabled by the DSCOVR satellite would provide valuable 
augmentation to a substantial number of other measurements systems 
including satellite remote sensing, suborbital and ground-based 
measurements.''
    In addition, the DSCOVR measurements would not fulfill climate 
science measurements identified and recommended for flight by the NRC 
Earth Science Decadal Survey, and should not receive any funding 
priority over any possible Decadal Survey missions. NASA and NOAA 
personnel have met to coordinate communication, formats, and content of 
the DSCOVR technical review conducted by NASA during May and June 2007. 
Details of the review conclusions are presented in the answer to 
question 2 below. Coordination insured that the results of the NASA 
review were presented in a way that enabled accurate and 
straightforward comparisons of NASA-estimated refurbishment costs with 
those from the original NOAA study conducted by Lockheed Martin. The 
fact that the existing DSCOVR solar wind instrument suite was lacking a 
low-energy ion sensor necessary for NOAA's operational solar wind 
predictions was discovered as a result of these discussions following 
the NASA technical study. The NOAA study did include a cost estimate of 
$3 million for adding the ion sensor.
    Currently the NOAA requirement to monitor space weather is being 
accomplished by observations from NASA's Advanced Composition Explorer 
(ACE) mission. ACE was launched in August 1997 and is now in its fourth 
two-year extended mission cycle. Based on the current rate of fuel 
consumption, NASA is optimistic that ACE will continue to operate 
through 2022. However the modification of its orbit to conserve fuel 
does not meet NOAA's need for 24/7 reception of its data and this 
effect will worsen during solar maximum. Additionally, three of the 
four ACE space weather sensors currently provide degraded data during 
strong radiation storms and cannot be relied upon as the sole data 
source during solar maximum which will arrive 2011-2012. Should NOAA 
still feel that their strategic needs are served by flying the DSCOVR 
mission, NASA is ready to support NOAA on a reimbursable basis with the 
expertise and facilities to prepare the DSCOVR satellite for launch and 
operations. NASA believes that the refurbishment could be accomplished 
within the parameters identified in response to question 2.

    Question 2. Has NASA completed an investigation as to the current 
status of the DSCOVR spacecraft?
    Answer. A technical study conducted from mid-May through June 2007 
examined the documentation related to the state of the DSCOVR 
spacecraft and instruments when placed into storage in November 2001, 
the tasks required to refurbish and launch the DSCOVR mission to the 
Earth-Sun Lagrange 1 (L1) point, the availability of people having the 
necessary skills to conduct the refurbishment activities given the 
state of the available documentation, and the approximate durations of 
the refurbishment and launch campaign activities. The study concluded 
that refurbishment of the spacecraft could be completed within 15 
months of initiation, for a cost of $32.2 million in FY 2007 dollars. 
The fifteen months refurbishment period estimate does not include time 
to acquire and accommodate the ION sensor. The study also estimated the 
mission operations and data analysis costs to be an additional $23 
million for the baseline two-year mission. A NOAA study had lower 
estimates for these functions due to the use of existing NOAA 
facilities for mission operations and ground systems. Launch vehicle 
costs for a delivery to the L1 Lissajous orbit are estimated to be 
approximately $150 million.
    The difference between the NOAA and NASA studies was the cost of 
the launch vehicle. The NOAA study baselined a commercial partner to 
whom the DSCOVR would be competitively transferred. The commercial 
company would then use any suitable FAA-licensed vehicle for launch, 
cost estimated at $27-$35 million in 2006. The NASA study baselined a 
government reimbursable mission using a NASA certified and acquired 
Evolved Expendable Launch Vehicle.
    Given the state of the suspension documentation and the plans that 
were prepared in 2001 outlining the necessary tasks for return to 
flight status, the study concluded that a successful refurbishment 
could only be conducted with the active involvement of the DSCOVR 
development team at NASA Goddard Space Flight Center (GSFC); further, 
the study determined that the appropriate individuals still were active 
at GSFC, although in many cases they would have to be released from 
other projects, depending on when the refurbishment activities 
commenced. The study noted that an initial functional ``aliveness'' 
test (see question 3 below) is required prior to commencing the 
spacecraft refurbishment activities.
    DSCOVR has been stored in the Hubble Space Telescope clean room at 
GSFC since November 2001, in its custom storage container and under 
continuous dry nitrogen purge. The DSCOVR parts inventory has been 
maintained by the GSFC Solar Dynamics Observatory project, and the 
Ground Support Equipment has been determined complete at GSFC. The 
Suspension Plan developed when the nearly-complete spacecraft was 
placed into storage has been determined to still be relevant and 
comprehensive.
    Completion of the DSCOVR refurbishment within the cost and schedule 
defined above is contingent upon the successful outcome of the initial 
aliveness test. If that test is not fully successful, this schedule and 
budget will be insufficient.

    Question 3. Has a ``plug-in'' test been accomplished?
    Answer. No ``aliveness'' test has been conducted to verify the 
state of the DSCOVR spacecraft and science payload since the mission 
was placed into environmentally controlled storage in November 2001. 
This test would be required prior to initiating any refurbishment 
activities. If the aliveness test were to be conducted, it would need 
to be conducted immediately prior to refurbishment to eliminate the 
need for returning the spacecraft to storage followed by yet another 
aliveness test.

    Question 4. Will NASA be able to respond to NOAA's request in a 
timely manner permitting NOAA to make budgetary decisions regarding use 
of the DSCOVR spacecraft?
    Answer. Yes, NASA will respond to NOAA's request in a timely manner 
and has initiated a number of activities to reach that goal. The NASA 
Science workshop held in mid-May 2007 and attended by NOAA research and 
programmatic personnel (among many others) addressed the scientific 
utility of DSCOVR for climate research. The NASA technical review 
conducted during May-June and reported out in July 2007 addresses all 
outstanding issues associated with the refurbishment and flight of the 
DSCOVR spacecraft and payload. Discussions between NASA and NOAA 
through much of July addressed possible mechanisms for transfer of the 
DSCOVR assets from NASA to NOAA, and mechanisms for reimbursement of 
NASA for refurbishment of DSCOVR by the GSFC development team.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                        Dr. Michael H. Freilich

    Question 1. As we all know, NASA's QuickSCAT satellite system was 
not initially designed to be a component to our national hurricane 
tracking system. Rather, it was to be used primarily to monitor surface 
winds over the oceans for research purposes. However, through the 
tenacious work of NOAA scientists the data was evaluated and determined 
to be of great use elucidating the tracking of storms further out to 
sea and estimating the potential intensity of developing tropical 
storms. The added ability of QuickSCAT to track tropical storms 
demonstrates that satellite systems provide additional benefits beyond 
their original missions.
    Please explain how the historical benefits of our environmental and 
weather satellite systems justify the Federal investment in this 
infrastructure.
    Answer. The science community's present state of knowledge about 
global change--including many of the measurements and a significant 
fraction of the analyses which serve as the foundation for the recent 
report of the Intergovernmental Panel on Climate Change (IPCC)--is 
mostly derived from the NASA and National Oceanic and Atmospheric 
Administration operational satellites and in situ data archives. For 
example, using data from Earth observing satellites NASA-supported 
researchers are: monitoring ice cover and ice sheet motions in the 
Arctic and the Antarctic; quantifying the short-term and long-term 
changes to the Earth's protective shield of stratospheric ozone, 
including the positive impacts of the Montreal Protocols; discovering 
robust relationships between increasing upper ocean temperature and 
decreasing primary production from the phytoplankton that form the base 
of the oceans' food chain; and, using a fleet of satellites flying in 
formation (the ``A-Train''), making unique, global, near-simultaneous 
measurements of aerosols, clouds, temperature and relative humidity 
profiles, and radiative fluxes.
    Our improved understanding of Earth System processes leads to 
improvements in sophisticated weather and climate models, which, in 
turn--when initialized using the satellite data--can be used to predict 
natural and human-caused changes in the Earth's environment over time 
scales of hours to years.

    Question 1a. Do you believe that our current investment in 
environmental satellites is satisfactory in order to maintain our 
current satellite capabilities as well as preserve our national 
leadership role in satellite technology?
    Answer. NASA is presently operating an impressive set of Earth 
observing spacecraft, and the President's FY 2008 budget request 
includes funding for an additional seven identified (and one 
competitively selected) Earth observing missions to launch between 2008 
and 2014.
    The FY 2008 budget also contained funding for unspecified ``future 
missions.'' These funds will be used to begin new efforts aimed at 
Earth Science issues. Shortly after the submission of the FY 2008 
budget the National Research Council (NRC) published the Earth Science 
Decadal Survey. Although too late to impact the FY 2008 President's 
Budget Request directly, this report is being utilized by NASA to shape 
the plans for the use of the future mission investment lines within the 
Earth Science Division and to assist in the preparation of our FY 2009 
budget request.
    NASA is presently operating 14 Earth-observing missions carrying 
over 50 instruments. While 11 of these missions are indeed beyond their 
baseline lifetime, they continue to operate well and to provide high 
quality measurements for the research and operational communities. From 
February to April 2007, NASA's Earth Science Division conducted a 
``Senior Review,'' the biennial process to examine Earth observing 
missions operating beyond their baseline mission. Both the operations 
and science panels in the Senior Review concluded after careful 
technical analyses that all 11 of the operating missions were returning 
valuable data and were not suffering from imminent mission-threatening 
technical problems; the Senior Review recommended that NASA continue to 
fund operations and science analyses for all of these missions for at 
least two more years.
    The President's FY 2008 budget request contains funding for the 
development and launch of seven new Earth observing missions between 
2008 and 2014:

  <bullet> OSTM (Ocean Surface Topography Mission; 6/08 launch) to 
        continue the time series of precision global ocean sea level 
        measurements initiated by Topographic Experiment for ocean 
        circulation (TOPEX)/Poseidon in 1992 and presently obtained by 
        Jason-1;

  <bullet> OCO (Orbiting Carbon Observatory; 12/08 launch) to initiate 
        global measurements of atmospheric carbon dioxide and to 
        identify, for the first time, regional (1,000 km spatial scale) 
        sources and sinks of CO<INF>2</INF>;

  <bullet> Glory (12/08-3/09 launch) to continue the 26-year consistent 
        time series of solar irradiance measurements and to initiate 
        global measurements of atmospheric aerosol concentration and 
        scattering properties;

  <bullet> Aquarius (7/09 launch) to make first-ever, global 
        measurements of ocean surface salinity;

  <bullet> NPP (National Polar-orbiting Operational Environmental 
        Satellite System (NPOESS) Preparatory Program; 9/09 launch) to 
        continue the time series of key Earth Observing System (EOS) 
        sensor measurements, and to provide risk-reduction for the tri-
        agency NPOESS operational satellite system;

  <bullet> LDCM (Landsat Data Continuity Mission; 7/11 launch) to 
        continue the 30-year long record of moderate-resolution land 
        imaging; and

  <bullet> GPM ((Global Precipitation Measurement) mission; 6/2013 and 
        6/2014 launches) to extend to the entire globe the present 
        measurements of tropical precipitation from the presently 
        operating Tropical Rainfall Mapping Mission (TRMM), allowing 
        accurate, global rainfall measurements every 3 hours.

    In addition to these seven missions comprising eight launches 
between 2008 and 2014, the FY 2008 budget request also includes funding 
for a small-medium Earth System Science Pathfinder (ESSP) mission which 
will be solicited for competitive selection late in FY 2008 with flight 
in the 2014-2015 time frame.

    Question 2. The GAO report on the NPOESS program outlined staffing 
difficulties at DOD, NOAA and the NPOESS program. The GAO suggested 
that staffing difficulties were exacerbating the delay in implementing 
the project. The GAO report stated that, ``As a result of the lack of a 
program-wide staffing process, there has been an extended delay in 
determining what staff is needed and in bringing those staff on board; 
this has resulted in delays in performing core activities, such as 
establishing the program office's cost estimate and bringing in needed 
contracting expertise.'' It seems clear that delayed personnel 
decisions are inhibiting progress on this critical project. What is the 
status of streamlining the process to hire additional staff to ensure 
that this project is receiving proper contracting and management?
    Answer. Since the writing of the Government Accountability Office 
(GAO) report, the NPOESS Integrated Program Office (IPO) has made great 
strides in their hiring and program staffing. The Systems Program 
Director is now reporting staffing as ``green'' in his monthly 
reporting to management. In addition, the IPO has developed a Human 
Capital Plan to address the difficulties in staffing a three-agency 
program office, which was submitted for NASA's review in September 
2007. The NPOESS Program Executive Officer requested five additional 
NASA personnel to supplement the IPO staff after the Nunn-McCurdy 
restructure of the program office. All NASA NPOESS positions are 
currently filled.

    Question 3. This past January, approximately 100 experts at the 
National Academies participated in a priority-setting 2007 National 
Research Council report as requested by NOAA, NASA, and the USGS to 
come up with detailed recommendations to restore U.S. leadership in 
Earth science and application and avert the potential collapse of the 
system of environmental satellites. Earlier that same month, NOAA and 
NASA briefed the White House Office of Science and Technology Policy 
about which NPOESS climate instruments should be ``dismantled'' and 
which should fly on satellites due to be launched at a later time. What 
would you say is the reason for such a difference of thinking between 
the NRC experts and the NASA decision-makers as to which climate 
instruments should be ``dismantled'' and which should go forward and as 
early as possible?
    Answer. The apparent difference in thinking is really a matter of a 
difference in timing. The National Research Council (NRC) Decadal 
Survey report and the NPOESS Nunn-McCurdy Certification happened 
largely in parallel; thus the NRC did not have the benefit of full 
knowledge of the impacts of changes in the NPOESS program in designing 
their recommended mission set. The NASA, the National Oceanic and 
Atmospheric Administration (NOAA), and the U.S. Geological Survey 
(USGS) asked the NRC in 2004 to conduct a Decadal Survey and develop 
consensus recommendations relative to the research and applications 
programs of the three participating agencies. An interim report was 
completed in April 2005 and a draft of the final report was released in 
January 2007.
    The Nunn-McCurdy Certification of the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) occurred in June 5, 
2006. Due to overruns and schedule delays, the NPOESS Program had 
exceeded the Nunn-McCurdy threshold and it became necessary to reduce 
the content and overall risk of the existing NPOESS Program as a part 
of the Nunn-McCurdy process. Early in the certification process, the 
NPOESS Executive Committee decided that providing uninterrupted 
satellite data to support weather forecasting would take priority over 
climate measurements. As a result of this prioritization, five climate 
instruments were de-manifested from the certified NPOESS Program.
    In a meeting at the Office of Science and Technology Policy (OSTP) 
in June 2006, NASA and NOAA agreed to develop a joint assessment of: 
(1)the impacts of the Nunn-McCurdy Certification on their combined 
climate goals, and (2) various alternatives for addressing those 
impacts. This joint assessment of impacts was delivered to OSTP on 
January 8, 2007 and was followed by additional dialogue on options for 
retaining these measurement capabilities. NASA and NOAA have worked 
diligently to develop practical and affordable alternatives to address 
the potential data gaps attributable to the loss of these de-manifested 
climate sensors.
    Shortly after the Nunn-McCurdy Certification had occurred, NASA and 
NOAA asked the NRC to address the de-manifested climate sensors in the 
ongoing Decadal Survey. The NRC informed us that the writing on the 
Decadal Survey was completed and presently in review. Consequently, it 
would not be possible to make such an assessment a part of the Decadal 
Survey. However, it was agreed that a second NRC group with overlapping 
membership with the Decadal Survey would conduct a workshop to consider 
the impacts of the Nunn-McCurdy Certification. At this NRC workshop, 
held on June 19-21, 2007, NASA and NOAA presented the alternatives that 
they had been studying. A final report with specific recommendations is 
due in early 2008.

    Question 3a. Have the agencies re-evaluated their satellite science 
programs in light of the NRC report, which came out a week after the 
White House briefing?
    Answer. NASA is using the NRC Decadal Survey to guide future 
mission decisions. Conceptual studies have been undertaken for all of 
the missions described in the NRC draft report and specific community 
workshops have been held for the first four missions mentioned in the 
Decadal Survey.

    Question 3b. In the NRC's chapter on Climate Variability and 
Change, they recommend restoration of five instruments essential for 
climate science that have been deleted from the NPOESS program. Your 
agencies asked for these NRC recommendations, but you do not appear to 
be implementing those recommendations. If you are not reconsidering 
restoring these climate instruments, why not?
    Answer. NASA and NOAA have been considering potential options to 
restore the de-manifested climate sensors since the announcement of the 
NPOESS Nunn-McCurdy Certification in June 2006. In April 2007, the two 
agencies announced plans to remanifest the Ozone Mapping and Profiler 
Suite (OMPS) Limb on the NPOESS Preparatory Project (NPP). NASA and 
NOAA continue to work on options, in coordination with OSTP, to restore 
these de-manifested climate sensors.

    Question 4. A 2005 interim report of the Committee on Earth Science 
and Applications from Space: A Community Assessment and Strategy for 
the Future stated, ``Understanding the complex, changing planet on 
which we live, how it supports life, and how human activities affect 
its ability to do so in the future is one of the greatest intellectual 
challenges facing humanity. It is also one of the most important 
challenges for society as it seeks to achieve prosperity, health, and 
sustainability.'' The 2007 NRC report strongly backed up this 
declaration. Do you believe your agency is living up to this statement?
    Answer. The NRC statement describes a national, and in fact, an 
international challenge. NASA is doing its part by providing the 
scientific understanding of how the Earth as a planet functions and 
changes. Our goal in Earth science, ``Study planet Earth from space to 
advance scientific understanding and meet societal needs'' well 
comports with the NRC's vision. NASA's expertise is primarily in those 
parts of the challenge that can best be addressed via remote sensing 
from space and use of that data in Earth system research and modeling. 
The agency has the largest such program in the world. At the national 
level, NASA is the largest contributor to the U.S. Climate Change 
Science Program, and is an active partner in related forums addressing 
other aspects of the Earth system. NASA continues to work with its 
interagency partners to advance the Nation's understanding of climate 
change and the Earth system. Internationally, NASA is actively engaged 
in a wide range of partnerships with other space programs and 
environmental research programs to mutually leverage our respective 
efforts. NASA is using the NRC's report as a guide, as the agency plans 
our future Earth Science programs.

    Question 5. The Administration's FY 2008 NASA budget shows a modest 
increase for the aerospace agency--most of which will go to the 
International Space Station the Space Shuttle and the development of a 
Shuttle successor--while the funding for the science programs has will 
remain flat after years of cuts--now at 30 percent since 2000. While we 
are all captivated by the thought of men and women exploring space, I 
am very concerned that NASA is sacrificing research programs that are 
vital if we are to gain a more comprehensive knowledge of climate 
change on our very own Earth. If we are going to prioritize for 
budgetary reason, I believe we must be the stewards of our own planet. 
The Senate appropriators of the FY 2008 NASA science programs funding 
have added $25 million to these programs and have stated in their 
report, ``The Committee is concerned that the strong, balanced science 
program that has served the Nation so successfully for many years is 
being left behind rather than being nurtured and sustained.'' Indeed, 
NASA Administrator Michael Griffin has defended the budget cuts as 
necessary to retool the agency for a 21st century focus on manned space 
travel to the Moon by 2020 and ultimately to Mars. He has also stated 
that he has his doubts as to whether mankind should address global 
warming.
    Can we expect continued erosion in NASA funding for climate change 
data collection, monitoring, and research from NASA satellites? What 
are NASA priorities in relation to the U.S. Climate Change Science 
Program? It appears as though investigation of our own blue planet is 
becoming a poor stepchild to exploring other planets or the Moon.
    Answer. NASA studies Earth from space to advance scientific 
understanding and meet the needs of humankind. NASA is committed to 
examining Earth's many facets from space in the same way the Agency has 
intensely surveyed the moon, planets and stars. From the launch of the 
world's first experimental meteorological satellite in 1960 to the 14 
Earth-observing satellites currently in orbit, NASA drives the 
technological and scientific advances that help us understand our home 
planet.
    The FY 2008 budget request for the Earth Science Division is $1.5 
billion, representing 27 percent of the total funding for the four 
Science Mission Directorate divisions. This also represents an increase 
of $32.8 million over the FY 2007 request. This funding enables a wide-
ranging and balanced program of activities, including:

  <bullet> Developing, launching, and operating Earth-observing space 
        missions;

  <bullet> Competitively selecting and pursuing research and analysis 
        science investigations conducted by NASA and non-NASA 
        researchers;

  <bullet> Conducting Applied Science projects that help other Federal 
        and regional agencies and organizations to efficiently use 
        products from NASA Earth research to advance their missions;

  <bullet> Soliciting and advancing technology development efforts to 
        enable the missions of the future; and

  <bullet> Providing education and public outreach programs to make our 
        knowledge of the Earth accessible to the world.

    In particular, NASA intends to launch an additional seven Earth-
observing satellites before 2013, adding new scientific capabilities 
and maintaining data continuity for key measurements. Further, NASA has 
been and will continue to be a major supporter of numerous 
Congressional mandates and Presidential initiatives in the area of 
climate science. For example, NASA is the largest contributor to the 
U.S. Climate Change Science Program (CCSP) and the agency's commitment 
to the CCSP has not decreased. In addition, NASA along with other 
Federal agencies contributes to U.S. leadership in such efforts as the 
U.S. Group on Earth Observations (USGEO) and the International 
Committee on Earth Observation Satellites (CEOS). Specific details on 
all of NASA's priorities in the area of Earth Science are detailed in 
the recently released ``Science Plan for NASA's Science Mission 
Directorate 2007-2016''.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                            David A. Powner

    Question. For decades, the National Aeronautics and Space 
Administration (NASA) and the National Oceanic and Atmospheric 
Administration (NOAA) had a successful partnership whereby NASA built 
and launched the satellites and NOAA operated them and analyzed the 
data. Why was that approach changed for GOES-R and NPOESS and what 
lessons can be learned from the experience?
    Answer. Historically, the GOES programs relied on NASA to procure 
the satellites while NOAA managed the overall program and operated the 
satellites. However, NOAA found that a lesson learned on its GOES I-M 
series was that it needed more insight into NASA's activities. Thus, on 
the GOES-R series, NOAA originally planned to take more of a leadership 
role and to rely on NASA for expertise and advice. However, after an 
independent review team raised concerns with this approach, NOAA 
decided to return the program to the prior structure. Under the current 
management structure for GOES-R, NOAA is responsible for program 
funding, procurement of the ground elements, and on-orbit operation of 
the satellites, while NASA is responsible for the procurement of the 
spacecraft, instruments, and launch services.
    The NPOESS program is a tri-agency program managed by NOAA, the 
Department of Defense (DOD), and NASA. It began with a May 1994 
Presidential Decision Directive which required NOAA and DOD to converge 
their two existing polar-orbiting satellite programs into a single 
satellite program capable of satisfying both civilian and military 
requirements.\1\ To manage this program, DOD, NOAA, and NASA formed the 
tri-agency Integrated Program Office, located within NOAA. Within the 
program office, each agency has the lead on certain activities: NOAA 
has overall program management responsibility for the converged system 
and for satellite operations; DOD has the lead on the acquisition; and 
NASA has primary responsibility for facilitating the development and 
incorporation of new technologies into the converged system. NOAA and 
DOD share the costs of funding NPOESS, while NASA funds specific 
technology projects and studies, including a demonstration satellite 
known as the NPOESS Preparatory Project (NPP), which is planned to be 
launched in September 2009.
---------------------------------------------------------------------------
    \1\ Presidential Decision Directive NSTC-2, May 5, 1994.
---------------------------------------------------------------------------
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            David A. Powner

    Question 1. GAO has done significant work in analyzing the problems 
with the NPOESS program. In your opinion, is the program truly back on 
track, or are there stil continuing risks, particularly with respect to 
the Federal Government's management of the procurement and meeting 
administrative deadlines?
    Answer. As we noted in our April 2007 report \2\ and July 2007 
testimony,\3\ the NPOESS program office has made progress in 
restructuring the program. For example, we noted in our April report 
that the NPOESS program office has made progress in establishing an 
effective management structure by adding a program executive officer 
position senior to the program director. It subsequently revised the 
program office's organizational framework, realigning division managers 
to oversee key elements of the acquisition, as well as increasing 
staffing. Under this structure, the program office implemented more 
rigorous and frequent reviews, improved visibility into risk 
management, and institutionalized the use of earned value management 
techniques to monitor contractor performance.\4\ The program executive 
officer implemented monthly program reviews--we observed that these 
briefings allow the executive officer to have direct insight into the 
challenges and workings of the program and allow risks to be 
appropriately escalated and addressed. Additionally, the NPOESS 
Executive Committee meets more often now than in the past.
---------------------------------------------------------------------------
    \2\ GAO, Polar-orbiting Operational Environmental Satellites: 
Restructuring Is Under Way, but Technical Challenges and Risks Remain, 
GAO-07-498 (Washington, D.C.: April 2007).
    \3\ GAO-07-1099T.
    \4\ The earned value concept is applied as a means of placing a 
dollar value on project status. It is a technique that compares budget 
versus actual costs versus project status in dollar amounts.
---------------------------------------------------------------------------
    However, significant technical challenges and risks remain in the 
program, particularly to two key sensors, the Visible/Infrared Imager 
Radiometer Suite (VIIRS) and the Cross-track Infrared Sounder (CrIS). 
Both sensors are to be flown on NPP in 2009 and have experienced 
significant developmental failures in the last year--VIIRS has 
experienced significant problems with a filter, and the CrIS instrument 
experienced a structural failure to its frame last fall. Until the 
sensors are delivered for integration to the satellite next spring, 
they remain high-risk developments.
    Additionally, the program faces continuing risks in completing key 
acquisition documents. We had recommended that these documents be 
finalized before the contract negotiations were finalized. However, the 
NPOESS program office completed a contract modification to restructure 
the program in late July 2007 even though key acquisition documents 
remained outstanding. DOD's Under Secretary for Acquisition, Technology 
and Logistics extended the documents' deadlines and the program office 
is working to complete many of them. Finalizing these documents is 
critical to ensuring interagency agreement and will allow the program 
office to move forward in finishing other activities related to 
restructuring the program.

    Question 2. Have the three Federal agencies responsible for this 
program--NOAA, NASA, and DOD--fully implemented all ofGAO's 
recommendations?
    Answer. The three agencies have not yet implemented the 
recommendations made in our April 2007 report.\5\ In that report, we 
recommended that (1) the Air Force delay reassigning a key NPOESS 
program executive; (2) all three agencies complete and approve key 
acquisition documents related to program restructuring activities; (3) 
NOAA develop and implement a written process for identifying and 
addressing human capital needs and for streamlining how the program 
handles different agencies' administrative procedures, and (4) NOAA 
establish a plan for immediately filling needed positions.
---------------------------------------------------------------------------
    \5\ GAO-07-498
---------------------------------------------------------------------------
    The Air Force disagreed with our first recommendation and decided 
to continue with its plans to reassign the program's executive officer. 
However, over the last few years, we and others (including an 
independent review team and the Commerce Inspector General) have 
reported that ineffective executive-level oversight helped foster the 
NPOESS program's cost and schedule overruns. We remain concerned that 
reassigning the program executive at a time when NPOESS is still facing 
critical cost, schedule, and technical challenges places the program at 
further risk.
    At the time of the report, all three agencies agreed with the 
second recommendation and noted that they were working to complete 
these documents. Since then, the program has completed its contract 
modification, but it is still working to complete some of the key 
acquisition documents. We remain concerned that without these documents 
completed, the program faces increased risk that unanticipated changes 
in these documents could cause further contract modifications.
    The Department of Commerce recently stated that the NPOESS program 
is in the process of preparing a human capital plan in response to our 
third recommendation that it plans to complete by the end of 2007.
    Regarding the fourth recommendation, at the time of the completion 
of our review in April 2007, over 20 critical positions remained to be 
filled--the majority of which were to be provided by NOAA. NOAA 
officials noted that each of these positions was in some stage of being 
filled and later reported that they had identified the skill sets 
needed for NOAA positions and implemented an accelerated hiring model 
to fill them. Additionally, NOAA stated that it had placed filling 
NPOESS office positions as a top priority within its workforce 
management office and allocated internal resources accordingly. As of 
our June 2007 testimony, the program office reported that 11 positions 
remained unfilled.

    Question 3. The May 2006 IG report found that insufficient 
oversight--and in particular an unwillingness to challenge overly 
optimistic assessments--caused or exacerbated many of the problems with 
the satellite program. Do you believe that an atmosphere of over-
optimism and insufficient oversight still exists within the satellite 
programs? To what extent have the agencies addressed these issues?
    Answer. Given the history of problems on the program, NPOESS is now 
being managed with more realistic expectations and improved oversight. 
For example, we noted in our April report \6\ that the NPOESS program 
office had recently implemented more rigorous and frequent reviews, 
improved visibility into risk management, and institutionalized the use 
of earned value management techniques to monitor contractor 
performance. We also noted that the program executive officer 
implemented monthly program reviews; we observed that these briefings 
allow the executive officer to have direct insight into the challenges 
and workings of the program and allow risks to be appropriately 
escalated and addressed. However, NPOESS still faces technical and 
programmatic challenges, and continued program oversight is needed to 
ensure that these risks are effectively mitigated.
---------------------------------------------------------------------------
    \6\ GAO-07-498.
---------------------------------------------------------------------------
    In responding to these questions, we relied on information we 
previously reported on NPOESS and GOES.\7\
---------------------------------------------------------------------------
    \7\ GAO-07-1099T; GAO-07-498; GAO-06-993; GAO, Polar-orbiting 
Operational Environmental Satellites: Restructuring is Under Way, but 
Challenges and Risks Remain, GAO-07-910T (Washington, D.C.: June 7, 
2007); Geostationary Operational Environmental Satellites: Steps Remain 
in Incorporating Lessons Learned from Other Satellite Programs, GAO-06-
993 (Washington, D.C.: Sept. 6, 2006); and Geostationary Operational 
Environmental Satellites: Additional Action Needed to Incorporate 
Lessons Learned from Other Satellite Programs, GAO-06-1129T 
(Washington, D.C.: Sept. 29, 2006).
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                   Antonio J. Busalacchi, Jr., Ph.D.

    Question 1. Of the two possibilities for replacing QuikSCAT--a 
faster replacement with the same capabilities as QuikSCAT, or a longer 
delay for a more capable, next-generation scatterometer--which is 
preferable?
    Answer. The scatterometer on the QuikSCAT spacecraft was developed 
in the late 1990s; it is no longer possible to ``build to blueprint'' a 
new copy of the instrument. While there might be some time saved in 
building another QuikSCAT instead of the more advanced scatterometer, 
it would not, in my view, be wise. With a relatively small increase in 
cost (roughly 10 percent according to estimates I have heard) and small 
delay in development, we could move to the much more capable dual-
frequency scatterometer of the type recommended in the NRC Decadal 
Survey (the ``XOVWM,'' advanced Ocean Vector Wind Mission). The 
benefits of an advanced Ocean Vector Wind Mission be it in support of 
monitoring, understanding, and prediction would far outweigh that of a 
short delay in coverage. The time to implement this mission is 
constrained by resources, not technology.

    Question 2. There is an active debate in the scientific community 
about the long-term relationship between hurricane frequency and 
intensity and climate change? Could any of the sensors that were 
decommissioned on NPOESS and GOES-R provide data to help resolve that 
debate?
    Answer. One of the principal shortcomings contributing to this 
debate is the lack of comprehensive satellite coverage prior to the 
1970s. The historical data on hurricane intensity is not very good, but 
that is no longer the case. Looking to the future, three classes of 
instruments are needed to understand the time rate of change of 
hurricane intensity. They are the all-weather scatterometer surface 
winds observations for which the XOVWM would provide improved 
measurements, the all weather sea surface temperature (SST) 
observations to have been provided by CMIS (but now in doubt) as SST 
provides the primary energy source to the hurricane, and the precision 
altimeter observations of sea surface height which provide information 
on the heat content of the upper ocean that can influence hurricane 
growth or decay.

    Question 3. Are you familiar with the GIFTS instrument, and would 
it be an acceptable alternative to the Hyperspectral Environmental 
Suite (HES) instrument on GOES-R?
    Answer. In my opinion it is premature to consider GIFTS as an 
acceptable alternative to HES on GOES-R. One of the problems with 
NPOESS was that new technology was slated for an operational platform 
without an adequate demonstration of the technology. Placing GIFTS on 
NPOESS would be repeating the sins of the past.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                   Antonio J. Busalacchi, Jr., Ph.D.

    Question 1. From what you know of the climate sensor cuts, do you 
believe there will be data gaps?
    Answer. Yes. Changes to the NPOESS sensor complement will affect a 
number of important measurements. The chart below summarizes changes to 
the climate-relevant sensors as a result of Nunn-McCurdy actions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In a recent presentation to an NRC study committee that I chair, 
NOAA stated that the measurements in danger as a result of these 
actions are:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I am particularly concerned about gaps in measurements that could 
jeopardize the utility of the entire time-series. An outstanding 
question for climate science is whether and to what degree variations 
in the Sun's energy output contribute to the observed global warming. 
To answer this question requires monitoring of the Sun's brightness at 
all wavelengths--its total solar irradiance (TSI)--over several 11-year 
solar cycles (the Sun regularly brightens and dims with an amplitude of 
roughly 0.1 percent over the course of its 11-year activity (sunspot) 
cycle).
    TSI cannot be measured from the ground because of the Earth's 
atmosphere absorbs important components of the solar spectrum, the 
ultraviolet region being particularly important. However, since 1978, 
TSI has been measured from space using radiometers placed on a series 
of NASA and NOAA spacecraft. Because spacecraft typically do not 
operate for periods longer than a solar cycle and because variations in 
sensor performance from one spacecraft to the next are larger than the 
signals we are looking for, it is critical that there be many months of 
overlapping operation. Absent such overlap, it would be impossible to 
assemble a record of TSI that distinguishes actual changes in solar 
output versus changes in sensor performance and/or changes due to the 
natural solar cycle.
    There is a similar, but lesser concern about the radiation emitted 
back to space, which is what is measured by the ERBS.
    As we noted in the recent workshop report from my NRC committee, 
although NOAA has prioritized the de-manifested sensors in its own way, 
it did not consider the relative priority of the descoped/reduced 
coverage sensors. This should not be construed as a de facto lower 
prioritization. The sea surface temperature record from CMIS, for 
example, is of very high priority and yet because CMIS was not entirely 
demanifested, it does not appear on the NOAA priority list.
    Similarly, not all sensors which are prioritized are recommended 
for remanifestation on NPOESS. For example, an altimetry measurement is 
of very high priority to continue the sea level record, however the 
NPOESS orbit prohibits attaining the high precision needed to continue 
the record. Thus, to prevent a measurement gap, a new mission is 
required rather than restoration of the demanifested sensor.
    Our recently released NRC workshop report ``Options to Ensure the 
Climate Record from the NPOESS and GOES-R Spacecraft: A Workshop 
Report'' goes into more detail on these issues.

    Question 2. Do you believe that the currently-planned satellites 
and sensors are sufficient to meet our climate monitoring needs in the 
coming years?
    Answer. As alluded to above given the present NPOESS debacle, the 
short answer is an emphatic no! In addition, it is worth emphasizing 
that there remains no long-term plan for many of these measurements 
beyond the initial missions. There is no plan for long-term continuity 
of precision sea level, ocean vector winds etc. as noted in workshop 
report. Moreover, there needs to be formal coordination between NASA 
and NOAA regarding the climate-relevant missions proposed by the NRC 
Decadal Survey (see below) and the NPOESS remanifestation exercise.

     Table 2.1 Launch, orbit, and instrument specifications for the
                       recommended NOAA missions.
 [Missions are listed in order of ascending cost within each launch time
                                 frame.]
------------------------------------------------------------------------
   Decadal                                                       Rough
   survey          Mission          Orbit       Instruments       cost
   mission       description                                    estimate
------------------------------------------------------------------------
              Timeframe: 2010-2013--Missions listed by cost
------------------------------------------------------------------------
CLARREO       Solar and Earth              LEOBroadband            $65 M
(NOAA          radiation                      radiometer
 portion)      characteristics
               for
               understanding
               climate
               forcing.
GPSRO         High accuracy,               LEOGPS receiver        $150 M
               all-weather
               temperature,
               water vapor,
               and electron
               density
               profiles for
               weather,
               climate and
               space weather.
------------------------------------------------------------------------
                          Timeframe: 2013-2016
------------------------------------------------------------------------
XOVWM         Sea surface wind             LEOBackscatter         $350 M
               vectors for                     radar
               weather and
               ocean
               ecosystems.
------------------------------------------------------------------------


     Table 2.2 Launch, orbit, and instrument specifications for the
                       recommended NASA missions.
 [Missions are listed in order of ascending cost within each launch time
                                 frame.]
------------------------------------------------------------------------
   Decadal                                                        Rough
   survey          Mission          Orbit        Instruments      cost
   mission       description                                    estimate
------------------------------------------------------------------------
              Timeframe: 2010-2013--Missions listed by cost
------------------------------------------------------------------------
CLARREO       Solar Radiation:             LEOAbsolute,           $200 M
(NASA          spectrally        Precessing    spectrally-
 portion)      resolved                       resolved
               forcing and                     interferometer
               response of the
               climate system.
SMAP          Soil moisture                LEOL-band radar        $300 M
               and freeze/thaw                L-band
               for weather and                 radiometer
               water cycle
               processes.
ICESat-II     Ice sheet height             LEOLaser altimeter     $300 M
               changes for
               climate change
               diagnosis.
DESDynI       Surface and ice              LEOL-band InSAR        $700 M
               sheet                          Laser altimeter
               deformation for
               understanding
               natural hazards
               and climate;
               vegetation
               structure for
               ecosystem
               health.
------------------------------------------------------------------------
              Timeframe: 2013-2016--Missions listed by cost
------------------------------------------------------------------------
HyspIRI       Land surface                 LEOHyperspectral       $300 M
               composition for                spectrometer
               agriculture and
               mineral
               characterizatio
               n; vegetation
               types for
               ecosystem
               health.
ASCENDS       Day/night, all-              LEOMultifrequency      $400 M
               latitude, all-                  laser
               season CO2
               column
               integrals for
               climate
               emissions.
SWOT          Ocean, lake, and             LEOKu-band radar       $450 M
               river water                    Ku-band
               levels for                      altimeter
               ocean and                      Microwave
               inland water                    radiometer
               dynamics.
GEO-CAPE      Atmospheric gas           GEO   High spatial        $550 M
               columns for air                 resolution
               quality                         hyperspectral
               forecasts;                      spectrometer
               ocean color for                Low spatial
               coastal                         resolution
               ecosystem                       imaging
               health and                      spectrometer
               climate                        IR correlation
               emissions.                      radiometer
ACE           Aerosol and                  LEOBackscatter         $800 M
               cloud profiles                  lidar
               for climate and                Multiangle
               water cycle;                    polarimeter
               ocean color for                Doppler radar
               open ocean
               biogeochemistry
               .
------------------------------------------------------------------------
              Timeframe: 2016-2020--Missions listed by cost
------------------------------------------------------------------------
LIST          Land surface                 LEOLaser altimeter     $300 M
               topography for
               landslide
               hazards and
               water runoff.
PATH          High frequency,           GEO   MW array            $450 M
               all-weather                     spectrometer
               temperature and
               humidity
               soundings for
               weather
               forecasting and
               SST.a
GRACE-II      High temporal                LEOMicrowave or        $450 M
               resolution                      laser ranging
               gravity fields                  system
               for tracking
               large-scale
               water movement.
SCLP          Snow                         LEOKu and X-band       $500 M
               accumulation                    radars
               for fresh water                K and Ka-band
               availability.                   radiometers
GACM          Ozone and                    LEOUV spectrometer     $600 M
               related gases                  IR spectrometer
               for                            Microwave limb
               intercontinenta                 sounder
               l air quality
               and
               stratospheric
               ozone layer
               prediction.
3D-Winds      Tropospheric                 LEODoppler lidar       $650 M
(Demo)         winds for
               weather
               forecasting and
               pollution
               transport.
------------------------------------------------------------------------
a Cloud-independent, high temporal resolution, lower accuracy SST to
  complement, not replace, global operational high accuracy SST
  measurement.

    Question 3. Will the loss of these sensors hurt our ability to 
observe, research, predict, and respond to climate change?
    Answer. Without any doubt the answer is yes. An excellent example 
is the need for precision altimeter measurements that do not have a 
home on the NPOESS platform. These measurements of sea surface height 
are absolutely critical for monitoring sea level rise both globally and 
regionally, as well as providing a quantitative assessment as to 
whether or not sea level rise is accelerating. In addition, these 
observations provide key input to today's operational coupled ocean-
atmosphere prediction models that issue short-term climate forecasts on 
a time scale of seasons out to a year in advance.

    Question 4. Out of the climate sensors cut from the NPOESS and 
GOES-R satellites, what was the largest scientific loss?
    Answer. This is a difficult question to answer depending on the 
scientific perspective; i.e., monitoring, understating, prediction, or 
reducing uncertainty. Some might answer the loss of the Advanced 
Polarimeter (APS) given the present uncertainty in aerosol forcing, or 
the reduced sounding coverage of the CrIS instrument and the reduced 
diurnal coverage of the VIIRS instrument impacts out-monitoring 
capability, but overall I would point to the loss of the TSIS 
instrument given the importance of a stable, unbroken record of the 
solar radiative forcing of our planet.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
